<html>
<title> - LEAD AND CHILDREN'S HEALTH</title>
<body><pre>[Senate Hearing 110-1234]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 110-1234
 
                      LEAD AND CHILDREN'S HEALTH
=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON

                      ENVIRONMENT AND PUBLIC WORKS

                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 18, 2007

                               __________

  Printed for the use of the Committee on Environment and Public Works



      Available via the World Wide Web: http://www.access.gpo.gov/
                            congress.senate

                               __________




                  U.S. GOVERNMENT PRINTING OFFICE
73-577                    WASHINGTON : 20
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED TENTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
JOSEPH I. LIEBERMAN, Connecticut     JOHN W. WARNER, Virginia
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
HILLARY RODHAM CLINTON, New York     JOHNNY ISAKSON, Georgia
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming
BERNARD SANDERS, Vermont             LARRY E. CRAIG, Idaho
AMY KLOBUCHAR, Minnesota             LAMAR ALEXANDER, Tennessee
SHELDON WHITEHOUSE, Rhode Island     CHRISTOPHER S. BOND, Missouri

       Bettina Poirier, Majority Staff Director and Chief Counsel
                Andrew Wheeler, Minority Staff Director



                            C O N T E N T S

                              ----------                              
                                                                   Page

                            OCTOBER 18, 2007
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     4
Whitehouse, Hon. Sheldon, U.S. from the State of Rhode Island....    10
Bond, Hon. Christopher, U.S. Senator from the State of Missouri..    11
Cardin, Hon. Benjamin L., U.S. Senator from the State of Maryland    13
Barrasso, Hon. John, U.S. Senator from the State of Wyoming......    15
Klobuchar, Hon. Amy, U.S. Senator from the State of Minnesota....    16
Craig, Hon. Larry, U.S. Senator from the State of Idaho..........    17

                               WITNESSES

Gulliford, James, Assistant Administrator For Pesticides, 
  Prevention, and Toxic Substances, U.S. Environmental Protection 
  Agency.........................................................    19
    Prepared statement...........................................    21
Nagel, Mike, CGR, Caps, Remodelone-Design/Build Construction, on 
  Behalf of the National Association of Homebuilders, Remodeler's 
  Council........................................................    30
    Prepared statement...........................................    32
    Responses to additional questions from Senator Inhofe........    44
    Response to an additional question from Senator Boxer........    46
Lanphear, Bruce P., M.D., Mph, Director, Cincinnati Children's 
  Environmental Health Center; Professor of Pediatrics And 
  Environmental Health...........................................    48
    Prepared statement...........................................    49
    Responses to additional questions from Senator Boxer.........    50
Neltner, Thomas G., on Behalf of Improving Kids' Environment, 
  Sierra Club, and Concerned Clergy of Greater Indianapolis......    52
    Prepared statement...........................................    53
    Response to an additional question from Senator Inhofe.......    65
    Responses to additional questions from Senator Boxer.........    66
Jacobs David E., PhD., CIH, Director of Research, National Center 
  for Healthy Housing............................................    69
    Prepared statement...........................................    70
    Responses to additional questions from Senator Inhofe........    92
    Response to an additional question from Senator Boxer........    94
Farrow, Olivia, Assistant Commissioner, City of Baltimore 
  Department of Health...........................................    94
    Prepared statement...........................................    96
    Response to an additional question from Senator Inhofe.......   131
    Responses to additional questions from Senator Boxer.........   131

                          ADDITIONAL MATERIAL

Statements:
    Toxics Link: Brush With Toxics, An Investigation on Lead in 
      Household Paints in India..................................   139
    ClearCorps: ClearCorps USA, Report on Investigation of Lead 
      in Children's Products.....................................   175
Articles:
    Identifying Housing That Poisons: A Critical Step in 
      Eliminating Childhood lead Poisoning.......................   179
    The Prevalence of Lead-Based Paint Hazards in U.S. Housing...   186
    Lead Content of Currently Available new Residential Paint in 
      Several Asian Countries....................................   194
    Lead Content of Dried Films of Domestic Paints Currently Sold 
      in Nigeria.................................................   198
    Validation of a 20-year Forecast of U.S. Childhood Lead 
      Poisoning: Updated Prospects for 2010......................   203
ClearCrops USA: Lead in Children's Jewelry.......................   216
Letters from:
    The Sierra Club to Commissioner Stratton and Administrator 
      Johnson....................................................   219
    The United States Environmental Protection Agency to 
      Jacqueline Elder...........................................   227
    The United States Environmental Protection Agency to Jane Doe   229
    The Attorney General of the State of Connecticut, Richard 
      Blumenthal, to Bob Eckert..................................   232
    The Attorney General of the State of Connecticut, Richard 
      Blumenthal, to Michael A. Monahan..........................   234


                       LEAD AND CHILDREN'S HEALTH

                              ----------                              


                       THURSDAY, OCTOBER 18, 2007

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The full committee met, pursuant to notice, at 9:34 a.m. in 
room 406, Dirksen Senate Office Building, Hon. Barbara Boxer 
(chairman of the full committee) presiding.
    Present: Senators Boxer, Barrasso, Bond, Cardin, Craig, 
Inhofe, Klobuchar, and Whitehouse.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
            U.S SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. I want to welcome all my colleagues. I am 
sorry I was running 5 minutes behind schedule. We call to order 
the hearing on lead and children's health. I think we have some 
very important people to hear from on this. We will each be 
given 5 minutes for an opening statement, and then we will go 
to the witnesses.
    We have known for decades that lead is highly toxic, and 
with every passing year more scientific studies show that lead 
harms our kids at even lower levels than previously believed. 
What does it do? Lead damages kids' brains, impairs their 
learning, reduces their IQs and can cause behavioral problems.
    Along with millions of other parents and grandparents 
across the Country, I am outraged that lead still is in wide 
use, especially in products designed for children. I just 
became a grandmother for the second time. My little guy is 3 
months old and he is starting to put everything into his mouth. 
My children are trying to follow what products are safe and 
what products aren't safe. But to tell you the truth, as 
vigilant as they are, they are very concerned, and the little 
one just loves all the bright colors. But you just can't help 
but worry is something wrong here.
    There has recently been what seems like an endless stream 
of recalls of our children's toys, jewelry and other products 
containing toxic lead levels. This includes over 1.5 million 
Mattel toys contaminated with lead paint. These Mattel recalls 
included Sesame Street and Nickelodeon characters such as Elmo, 
Tub Sub, the Dora the Explorer backpack, and the Giggle Gabber, 
a toy shaped like Elmo or Cookie Monster, and many Barbie 
accessories.
    We invited Mattel to testify at this hearing to explain why 
their products have been lead-contaminated and what they are 
doing about the problem. Mattel accepted the invitation, but 
then they backed out earlier this week. We intend to follow up 
with the company on their failure to participate in this 
hearing. It is important for companies like Mattel to be part 
of the discussion about what has caused this problem, and about 
the steps necessary to address the issue in the future. There 
is no excuse for their failure to appear before this committee 
today. They had nothing to fear, and they could help us 
understand what is happening.
    Lead contamination of children's products can have 
extremely serious consequences. In 2006, a 4-year old child in 
Minnesota swallowed a heart-shaped metal charm from a bracelet 
that came with Reebok sneakers. Tests showed his blood lead 
level was three times the level that is considered a medical 
emergency, and the child died 6 days later. If you could just 
pass that around to my colleagues, I would appreciate it. We 
will have the staff help us do that. Three hundred thousand of 
these Reebok charms were recalled.
    In 2003, a 4-year old in Oregon got violently ill and an x-
ray showed that he had swallowed a vending machine medallion. 
He had surgery to remove the object, which was 39 percent lead. 
His blood level was 12 times the CDC lead safety level. His 
life was saved by a painful treatment that uses chemicals to 
take the lead out of the body.
    In 2004, a 5-year old child in San Jose, CA was tested for 
lead at the suggestion of her school. Her blood lead levels 
were nearly three times higher than the CDC risk level. Charms 
that she put into her mouth were found to contain lead.
    These are but a few examples of the kinds of children's 
products contaminated with lead. Among the other recalls are 
35,000 Baby Einstein blocks contaminated with lead paint. How 
ironic that these very blocks that should be helping babies 
learn were actually contaminated with a brain toxin that could 
lower a child's IQ.
    Thousands of Wal-Mart bibs which babies often put in their 
mouths that contained high lead levels were recalled. These 
bibs were recalled by Wal-Mart after investigation by Illinois 
authorities, and there they are.
    Lunch boxes distributed by health officials in California 
and labeled ``eat five a day for better health'' were 
contaminated with excess lead. Over 1.5 million Thomas and 
Friends railway toys with lead paint were recalled.
    In all, there have been over 60 recalls of over 9.5 million 
lead-contaminated products in 2007, and this is just the tip of 
the iceberg. With more testing comes more recalls. But these 
lead toys in kids' products are not the only source of lead in 
kids' blood. Some of the other most significant sources of lead 
exposure for children include deteriorating lead-based paint, 
lead-contaminated dust, lead-contaminated residential soil, 
lead in drinking water, lead in food contact surfaces such as 
certain dishware and pottery.
    Parents are stunned. They are confused. They are terribly 
worried, and the Government, in my view, simply hasn't done one 
of its most important jobs--protecting children from harm.
    The failure of the Consumer Product Safety Commission to 
protect the public from kids' toys has received widespread 
publicity recently. I sit on the Commerce Committee and I 
commend them, both sides of the aisle, for looking at this.
    But I want to focus attention on EPA's failure to use its 
power, and it has the power, to protect our children from lead 
in products. We will hear from a witness later today that EPA 
explicitly denied a petition to use the agency's authority over 
the Toxic Substances Control Act to address these risks. Only 
after a lawsuit from the Sierra Club and Improving Kids' 
Environment did EPA begin to act. If EPA had taken action in 
response to the April, 2006 petition, the agency could at least 
have had very useful information on quality control and other 
procedures of companies such as Mattel, before the massive toy 
recalls.
    EPA's failure to act on this petition is similar to its 
failure to adopt strong guidelines for lead paint remediation. 
It also reminds me of the agency's recent announcement that EPA 
is considering the possibility of revoking the standard for 
lead in air. They are moving in the wrong direction.
    I know I have gone over my time, so I will put the rest of 
my statement in the record, and say this. It is our moral 
obligation to protect our children from this devastating 
poison. I intend to do my best and work across the aisle to do 
this.
    [The prepared statement of Senator Boxer follows:]

        Statement of Hon, Barbara Boxer, U.S. Senator from the 
                          State of California

    We have known for decades that lead is highly toxic. And 
with each passing year, more scientific studies show that lead 
harms our children at even lower levels than previously 
believed. Lead damages kids' brains, impairs their learning, 
reduces their IQs, and can cause behavioral problems.
    Along with millions of other parents and grandparents 
across the country, I am outraged that lead still is in wide 
use, especially in products designed for children. This is 
absolutely inexcusable and unacceptable.
    There has recently been what seems like an endless stream 
of recalls of kids' toys, jewelry, and other products 
containing toxic lead levels. This includes over 1.5 million 
Mattel toys contaminated with lead paint.
    These Mattel recalls included Sesame Street and Nickelodeon 
characters such as the Elmo Tub Sub, the Dora the Explorer 
Backpack, and the Giggle Gabber, a toy shaped like Elmo or 
Cookie Monster, and many Barbie accessories.
    We invited Mattel to testify at this hearing to explain why 
their products have been lead-contaminated and what they are 
doing about the problem. Mattel accepted the invitation, but 
then they backed out earlier this week. We intend to follow-up 
with the company on their failure to participate in this 
hearing. It is important for companies like Mattel to be part 
of the discussion about what has caused this problem, and about 
the steps necessary to address the issue the future. There is 
no excuse for their failure to appear before this Committee 
today.
    Lead contamination of children's products can have 
extremely serious consequences. In 2006, a 4-year old child in 
Minnesota swallowed a heart-shaped metal charm from a bracelet 
that came with Reebok sneakers. Tests showed his blood-lead 
level was three times the level that's considered a medical 
emergency. The child died 6 days later.
    300,000 of these Reebok charms were recalled. One of these 
charms is on the table in front of us.
    In 2003, a 4-year old in Oregon got violently ill, and an 
x-ray showed that he had swallowed a vending machine medallion. 
He had surgery to remove the object, which was 39 percent lead. 
His blood lead level was 12 times the CDC lead safety level. 
His life was saved by a chelation, a painful treatment that 
uses chemicals to take the lead out of the body.
    In 2004, a 5-year old child in San Jose, California was 
tested for lead at the suggestion of her school. Her blood 
level levels were nearly three times higher than the CDC risk 
level. Charms that she put into her mouth were found to contain 
lead.
    These are but a few examples of the kinds of children's 
products contaminated with lead. Among the other recent recalls 
are:

     35,000 Baby Einstein blocks contaminated with lead paint. 
How ironic that the very blocks that should be helping babies 
learn, were actually contaminated with a brain toxin that could 
lower kids' IQs.
     Thousands of bibs, which babies often put in their 
mouths, that contained high lead levels. These bibs were 
recalled by Walmart after an investigation by Illinois 
authorities.
     Lunch boxes, distributed by health officials in 
California and labeled ``Eat 5 a Day for Better Health,'' that 
were contaminated with excess lead.
     Over 1.5 million Thomas & Friends Railway toys with lead 
paint.

    In all, there have been over 60 recalls of over 9.5 million 
lead-contaminated products in 2007. And this clearly is just 
the tip of the iceberg. With more testing come more recalls.
    But these lead toys and kids' products are not the only 
source of lead in kids' blood. Some of the other most 
significant sources of lead exposure for children include 
deteriorating lead-based paint, lead-contaminated dust, lead-
contaminated residential soil, lead in drinking water, and lead 
in food-contact surfaces such as certain dishware and pottery.
    Parents are stunned, confused, and terribly worried. And 
the government simply has not done one of its most important 
jobs--protecting children from harm.
    The failure of the Consumer Product Safety Commission to 
protect the public from kids' toy threats has received 
widespread publicity recently. I want to focus attention on 
EPA's failure to use its powers to help protect our children 
from lead in children's products, and how EPA's authorities can 
be strengthened.
    We will hear from a witness later today that EPA explicitly 
denied a petition to use the agency's authority under the Toxic 
Substances Control Act (TSCA) to address many of these risks. 
Only after a lawsuit from the Sierra Club and Improving Kids' 
Environment did EPA begin to act.
    If EPA had taken action in response to the April 17, 2006, 
TSCA petition, the agency could at least have had very useful 
information on quality control and other procedures at 
companies such as Mattel, before the massive toy recalls 
revealed this serious problem to millions of Americans.
    EPA's failure to act on this petition and use its Toxic 
Substances Control Act authorities to crack down on lead is 
similar to its failure to adopt strong guidelines for lead 
paint remediation. It also reminds me of the agency's recent 
announcement that EPA is considering the possibility of 
revoking the standard for lead in air. EPA clearly needs to 
take lead contamination far more seriously.
    The good news is that when EPA and Government agencies are 
doing their jobs, they can reduce children's lead poisoning 
risks. From the late 1970's through the 1990's, EPA and other 
agencies took several actions including phasing out lead in 
gasoline and banning lead paint. According to the Centers for 
Disease Control and Prevention (CDC), the number of kids CDC 
considers lead-poisoned dropped from 13.5 million in 1978 to 
310,000 children in 2002. So when agencies put their minds to 
it, and have the will, we can make a big difference.
    But we still have a lot of work to do. According to a Work 
Group of independent scientists convened by the CDC in 2004, 
recent data show that there are adverse effects on children 
from lead at blood lead levels below the current CDC level of 
concern. The CDC agreed, but decided not to reduce the level 
because of their concerns about the difficulty of implementing 
a lower number. I think that decision needs to be reconsidered, 
in order to better protect our children in light of all the new 
data.
    It is time for our government to put as high a priority on 
lead-poisoned children as parents do. I intend to introduce 
legislation to force EPA to eliminate lead in products that 
children use. And I plan to carefully and vigorously oversee 
EPA's implementation of its other lead authorities.
    It is our moral obligation to protect our children from 
this devastating poison. And I intend to do my best to make 
sure that EPA and other agencies do their part to help assure 
that our kids are safe.

    Senator Boxer. Senator Inhofe, thank you for being here.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Yes. Thank you, Madam Chairman.
    I do appreciate having this hearing. I think it is very 
significant, but I would like to express my dismay about the 
fact that despite our request over and over and over again from 
the minority side, the Center for Disease Control wasn't 
invited to testify. The National Center for Environmental 
Health within the CDC is the lead agency regarding childhood 
lead exposure, and their testimony would certainly have been 
germane.
    In preparation for this hearing, I sent the Director of the 
center a letter with several questions about their work, and 
would like to enter their responses into the record at this 
time.
    Senator Boxer. Absolutely.
    [The referenced document follows:]

 Responses by the Centers for Disease Control and Prevention (CDC) to 
                Additional Questions from Senator Inhofe

    Question 1. Please describe CDC's most recent lead survey 
data. Can you quantify the progress has been made to date in 
decreasing childhood lead exposure and the rate of incidences 
of lead exposure-related illness? What are the trends in 
childhood blood lead levels?
    Response. The most recent published data, the National 
Health and Nutritional Examination Survey (NHANES) 1999--2002, 
indicated that the percent of children 1--5 years old with 
blood lead levels 10 micrograms per deciliter (ug/dL) has 
declined from 4.4 percent in 1991--1994 to 1.6 percent. The 
largest decrease in elevated blood lead levels (BLLs) was in 
black non Hispanic children, from 11.2 percent to 3.1 percent. 
Although the 1999--2002 prevalence of elevated BLLs was higher 
for Non-Hispanic Blacks than for either white or Hispanic 
subgroups, statistical power was not sufficient to examine 
these differences because of the small proportions and large 
variability around the estimates.
    Question 2. Recognizing that lead is an element of the 
environment and that there may be multiple exposure pathways 
that accumulate in children, what is the single biggest 
exposure pathway for children in the United States? How 
accurately can we pinpoint the root of the major exposure 
pathway? How can CDC's data be used to identify the locations 
where children have been exposed to lead?
    Response. Residential house paint is the most common high-
dose source of lead in children's environments. Paints that 
were sold in the 1920's and 1930's contained as much as 50 
percent lead by dry weight. Lead paint can be found in most 
housing built before 1950 and in many houses built between 1950 
and 1978. When this paint peels or is disturbed during 
renovation, it contaminates house dust and soil and is ingested 
by young children during normal hand-to-mouth activities. 
However, lead is a pervasive environmental contaminant found in 
air, water, food, and consumer products, usually at levels 
lower then the levels found in house paint. Children are 
exposed to lead from a variety of sources. Because children do 
not excrete lead from their bodies very well, lead from all of 
these sources accumulates and causes adverse health effects.
    Question 3. Please explain the CDC's 10 micrograms/
deciliter (ug/dl) ''level of concern'' for lead in children 
under 6. On what is it based? Is this a regulatory standard? 
What exactly does this standard mean? What actions are 
triggered when a child is found with a blood lead level (BLL) 
above 10 ug/dl?
    Response. The CDC ``level of concern'' of 10 ug/dL was 
established in 1991 as a public health action level. It has 
over time become the level at which individual children are 
considered to have elevated BLLs that require an individualized 
intervention. Depending on the jurisdiction, the resources 
available, and the number of children with higher blood lead 
levels, families of children with levels greater than or equal 
to 10 ug/dL receive education about sources of lead and how to 
control or eliminate them, referral for nutritional 
intervention (i.e., Women, Infants, and Children [WIC]), an 
inspection of their home, and enforcement of regulations that 
require housing to be made ``lead safe'' if they live in a 
jurisdiction that has implemented such regulations. Children 
with blood lead levels of greater than or equal to 10 ug/dL 
have more frequent blood lead tests done. and siblings and 
housemates may also be tested to assess whether they too have 
elevated blood lead levels.
    Some have interpreted the CDC ``level of concern'' to mean 
that CDC is not concerned about children with blood lead levels 
less than or equal to 10 ug/dL. However, since 1991, CDC has 
emphasized the need to use primary prevention of lead poisoning 
by controlling or eliminating lead hazards before children are 
poisoned. Primary prevention activities can be expected to 
benefit all children, particularly those living in high-risk 
communities. In 2005, CDC issued Preventing Lead Poisoning in 
Young Children: A Statement by the Centers for Disease Control 
and Prevention. This document describes strategies to 
institutionalize primary prevention. It outlines specific 
recommendations for Federal, state, and local government 
agencies, healthcare providers, and community-based 
organizations. These strategies institutionalize primary 
prevention and are essential to achieving the Healthy People 
2010 goal of eliminating childhood lead poisoning.
    The blood lead level of 10 ug/dL is not a regulatory 
standard for Federal agencies. In 2005, CDC recommended that 
Federal agencies discontinue using 10 ug/dL as a level for 
regulatory action, and agencies such as the U.S. Environmental 
Protection Agency (EPA) have begun to do this (see the recent 
Clean Air Standards). The blood lead level of 10 ug/dL also is 
not a toxicologic threshold. No toxicologic threshold or safe 
blood lead level for children has been identified.
    Question 4. What are the demographic characteristics for 
children who have BLLs above 10 u/dl? What are the demographic 
characteristics for children who have BLLs below 10 ug/dl? Are 
they different?
    Response. Children with blood lead levels greater or equal 
to 10 ug/dL are more likely to be African American, live in 
poverty, and live in housing built before 1950 than their 
counterparts with blood lead levels less than 10 ug/dL. As a 
result of an intense coordinated effort to control or eliminate 
lead sources in children's environments by government 
officials, healthcare and social service providers, and the 
communities most at risk, disparities between the percent of 
children with less than or equal to 10 ug/dL by race, 
ethnicity, or socioeconomic status have decreased significantly 
since the 1970's. However, disparities in level of lead 
exposure still exist, especially among children with BLLs less 
than or equal to 10 ug/dL, as seen in the mean BLLs and 
distribution of BLLs that continue to be higher for low-income 
children, non-Hispanic black children, and children living in 
older housing stock (built before 1950).
    Question 5. There is some interest in dropping the CDC 
standard below 10 ug/dl. If the standard for lead was lowered, 
how many more cases of lead poisoning would there be? What 
would be the course of action that should be taken at levels 
below 10 ug/dl?
    Response. Based on the 1999--2004 National Health and 
Nutritional Examination Survey estimate, 7.4 percent of U.S. 
children have blood lead levels greater than or equal to 5 ug/
dL. Based on the U.S. census estimate of the number of children 
1--5 years old (approximately 25 million), this means that 
approximately 1.85 million children have blood lead level 
greater than or equal to 5 ug/dL.
    Question 6. Would an increase of the numbers of cases of 
lead poising (due to a lowering of the standard) dilute the 
resources available to those children we know are currently 
exposed at levels above 10 ug/dl?
    Response. Public health agencies would continue to triage 
cases, prioritizing those children with the highest blood lead 
levels and responding to children with lower levels as 
resources allow. Although efforts to provide services to 
children with blood lead levels less than 10 ug/dL may deflect 
needed resources from children with higher blood lead levels, 
there are many more important reasons not to provide case 
management to children at blood lead levels less than 10 ug/dL. 
These include the following:

     No effective clinical or public health interventions have 
been identified that reliably and consistently lower blood lead 
levels <10 ug/dL.
     No threshold for adverse health effects has been 
identified; thus, lowering the level of intervention would be 
arbitrary and a lower level may provide a false sense of 
safety.
     The adverse health effects of blood lead levels less than 
10 ug/dL are subtle, making it difficult to predict the impact 
of these levels on individual children.
     The uncertainty associated with laboratory testing is too 
great to ensure that a single blood lead test reliably 
classifies individual children at levels less than 10 ug/dL.
    Question 7. Some states have, on their own, lowered their 
BLL levels of concern below 10 ug/dl. What is the standard for 
care for that segment?
    Response. Services provided to children with blood lead 
levels less than 10 ug/dL vary by jurisdiction. In some 
jurisdictions, families receive a brochure in the mail that 
describes sources of lead and how to control or eliminate them. 
In other jurisdictions, families may receive a home visit and 
visual assessment of potential lead sources in the home.
    Question 8. Given the recent spate of toy and jewelry 
recalls for alarming levels of lead content, how do we address 
imported products? Would a lowering of the level of concern 
have changed the outcome?
    Response. In 2005, CDC recommended a systematic approach 
that allows the identification of lead contaminated items and 
prohibits their sale before children are exposed and, 
ultimately, that all nonessential uses of lead should be 
eliminated. Lowering the blood lead level at which children 
receive case management would not affect these recommendations, 
which would prevent exposure before children have elevated 
blood lead levels.
    Question 9. As you know, in 2000--2004, many District of 
Columbia residents' drinking water exceeded EPA's action level 
of 15 ppb. What is CDC doing to examine the potential 
correlation between the lead contamination in DC's water and 
children's blood lead levels? Further, can you please explain 
what the data in MMWR April 2004 is depicting and what it says 
about blood lead levels for children in DC?
    Response. CDC is analyzing blood lead surveillance data 
from the Washington, DC, l1ealth department from 1998--2006 to 
determine the trend in blood lead levels over time. The key 
message from the 2004 Morbidity and A1ortality Weekly Report 
(MMWR) article is that because no threshold for adverse health 
effects in young children has been demonstrated (no safe blood 
level has been identified), all sources of lead exposure for 
children should be controlled or eliminated. Lead 
concentrations in drinking water should be below the EPA's 
action level of 15 parts per billion.
    Question 10. If the Federal Government could do only one 
thing to prevent childhood lead exposure, what would give us 
the most bang far our buck?
    Response. The ``biggest bang for our buck'' in preventing 
childhood lead exposures would be a coordinated effort with 
regard to three elements:

     Target efforts to the clearly identifiable areas where 
risk for lead exposure is disproportionately high. In many 
urban areas, the prevalence of elevated BLLs is 10--15 times 
higher than the national average. In 2003, 46 percent of the 
children reported to CDC as having elevated BLLs lived in 10 
cities. Within these cities, a small number of buildings, often 
1 percent or less, account for a disproportionate number of 
cases, as children are successively identified with elevated 
blood lead levels in the same or adjacent apartments. In some 
communities, 40 percent of this ``repeat offender'' housing 
receives a Federal subsidy or is publicly owned.
     Provide resources to address lead in all geographic areas 
known or presumed to be high risk. Census characteristics 
associated with risk for lead poisoning include a high 
percentage of 1950's housing, rental property, the presence of 
African-American residents, and children living in poverty. 
These indicators for exposure are distributed throughout a 
State in rural areas and very small towns. Addressing lead 
sources in remote areas will require creative and coordinated 
planning.
     Identify special-risk populations and control or 
eliminate exposure to both paint and non-paint sources of lead. 
Newly arrived immigrant and refugee populations often have high 
body burdens of lead when they come to the United States. They 
may also be exposed to lead as a result of cultural practices 
and traditional medicines. Once here, most families are not 
familiar with the sources of lead; thus, their children are 
more likely to ingest lead paint or lead-contaminated house 
dust or soil.
    Senator Boxer. This will not come out of your time. We are 
having the CDC here on another hearing, and I will be happy to 
set aside time for you to ask any questions that you wish.
    Senator Inhofe. What hearing will that be?
    Senator Boxer. This will be a hearing on global warming and 
its impact on disease.
    Senator Inhofe. Well, of course, that will be our 23d.
    Senator Boxer. Yes.
    Senator Inhofe. Yes.
    Well, anyway, still that doesn't change. Our request was we 
want the Centers for Disease Control to be here to talk about 
this, because this is the issue that is before us. They are the 
ones who are responding.
    Now, generally speaking, addressing lead exposure is one of 
the great American success stories. We have a chart here. I 
would you to look at it. According to the data from the CDC and 
others, the median concentration of lead in the blood of 
children 5 years old and under has declined 89 percent since 
the period of 1976 to 1980, to 1.6 micrograms per deciliter in 
2003 and 2004.
    Now, despite our success, the CDC has found that ``There 
are some populations and geographic areas that have 
disproportionately higher risks of childhood lead poisoning.'' 
They recognize this and they want to address this in spite of 
the successes that they have had in reducing the lead in 
children.
    Now, to get at this problem, the Department of Health and 
Human Services has established an ambitious goal of eliminating 
elevated blood lead levels in children by 2010. I recognize 
this problem first-hand due to my involvement in the Tar Creek 
Superfund site where the blood lead levels of children are the 
highest in the State. Although these levels have been 
decreasing, there is much work left to be done.
    What I am saying here is in Northern Oklahoma, in our Tar 
Creek area, the blood lead levels of these kids is higher 
really than probably anyplace else in the Nation. Now, 
according to the CDC, the two major remaining exposure pathways 
for children are lead in housing and nonessential uses of lead 
in other products such as toys, jewelry and so forth.
    Regarding the toy issue, I have 20 kids and grand kids. I 
know a little bit about kids. I am troubled by the recent toy 
recalls due to the presence of lead paint. It is a reminder to 
everyone that does business outside the United States to be 
vigilant about product quality because other countries don't 
share the same environmental and public health ideals as we do, 
as the Chairman stated.
    I have some studies here to enter into the record. It is 
right here, if it would be all right.
    Senator Boxer. Without objection.
    [The referenced documents can be found on page XXX:]
    Senator Inhofe. They are regarding lead in household paint 
manufactured outside the United States.
    Now, as far as Mattel is concerned, Mattel, the company has 
already testified twice on the toy recalls before the House 
Energy and Commerce Committee and the Senate Appropriations 
Committee. Now, that is twice in the last month. I would just 
suspect, Madam Chairman, that might have something to do with 
their reluctance to come back and testify for a third time in a 
period of a month. Their absence today should not be portrayed 
as an unwillingness to participate. They have already 
participated.
    I don't want the toy issue, however, to make us lose focus. 
According to the CDC, paint, paint dust, and paint-contaminated 
soil account for more than 70 percent of exposure. 
Additionally, it is estimated that 24 million housing units 
have deteriorating paint and contaminated house dust. It has 
been shown that poorer children who live in older housing units 
are disproportionately at risk for elevated levels of lead.
    The extensive assistance from State and local agencies, CDC 
working with them, has identified housing down to the apartment 
number in many cases, where multiple children with high blood 
lead levels have been identified. These repeat offender 
properties should be our greatest target.
    Without objection, I would like to enter into the record a 
study that appeared in Public Health Management Practice that 
developed a method for identifying and prioritizing the high-
risk buildings that could be pursued for lead poisoning 
prevention activities.
    Without objection, so ordered.
    [The referenced document can be found on page XXX:]
    Senator Inhofe. I appreciate the National Center for Health 
Housing and the National Association of Homebuilders joining us 
today to discuss their efforts. I know they have made efforts 
to address these residential lead paint problems. The Centers 
for Disease Control have established a national level of 
concern for children whose blood lead levels are more than 10 
micrograms per deciliter. This is the level at which public 
health action is recommended.
    Compelling studies done by one of our witnesses, Dr. 
Lanphear, have shown adverse developmental and behavioral 
effects at blood lead levels below this number. Thus, there is 
an interest in lowering the national level of concern below the 
10 micrograms that is current today.
    My concern with this approach is that efforts to identify 
and provide services to children at levels below 10 will 
deflect needed resources from children who we already know have 
blood lead levels above 10, and are the greatest risk from 
exposure.
    Resources are scarce at all levels of government. I believe 
the biggest bang for the buck comes from directing our 
resources at those housing units in neighborhoods where there 
is documented chronic lead exposure and the revolving door for 
kids with lead poisoning.
    I am also concerned that the CDC has not identified any 
effective clinical or public health interventions that reliably 
and consistently lower blood levels that are already are below 
10 micrograms today. Lead poisoning is a preventable disease, 
and we should focus our efforts on reducing or eliminating 
exposures before they happen. That will benefit all children 
regardless of their current blood lead levels.
    I look forward to hearing from our witnesses, Madam 
Chairman.
    [The prepared statement of Senator Inhofe follows:]

       Statement of Hon. James M. Inhofe, U.S. Senator from the 
                           State of Oklahoma

    Good morning. First, I'd like to express my dismay at the 
fact that, despite repeated requests from the minority, the 
Centers for Disease Control was not invited to testify. The 
National Center for Environmental Health, within the CDC, is 
the lead agency regarding childhood lead exposure and their 
testimony would certainly have been germane. In preparation for 
this hearing, I sent the Director of the Center a letter with 
several questions about their work and would like to enter 
their response in the record.
    Generally speaking, addressing lead exposure is one of the 
great American success stories. According to data from the CDC 
and others, the median concentration of lead in the blood of 
children 5 years old and under has declined 89 percent since 
the period of 1976--1980 to 1.6 micrograms per deciliter in 
2003--2004. Despite our success, the CDC has found that ``there 
are some populations and geographic areas that have 
disproportionately high risk of childhood lead poisoning.'' To 
get at this problem, the Department of Health and Human 
Services has established an ambitious goal of eliminating 
elevated blood lead levels in children by 2010. I recognize 
this problem first hand due to my involvement in the Tar Creek 
Superfund Site where the blood lead levels in children are the 
highest in the State. Although these levels have been 
decreasing, there is much more work left to do.
    According to the CDC, the two major remaining exposure 
pathways for children are lead in housing and non-essential 
uses of lead in other products, such as toys, jewelry, etc.
    Regarding the toy issue, having 20 kids and grand kids 
myself, I am troubled by the recent toy recalls due to the 
presence of lead paint. It is a reminder to everyone that does 
business outside of the United States to be vigilant about 
product quality because other countries do not share the same 
environmental and public health ideals that we do. I have some 
studies here to enter into the record regarding lead in 
household paint manufactured outside of the U.S. As for Mattel, 
the company has already testified twice on the toy recalls, 
before the House Energy and Commerce Committee and the Senate 
Appropriations Committee. Mattel's absence today should not be 
portrayed as an unwillingness to participate in the public 
dialog on this issue.
    I don't want the toy issue, however, to make us lose focus. 
According to the CDC, paint, paint dust and paint-contaminated 
soil account for more than 70 percent of exposure. 
Additionally, it is estimated that 24 million housing units 
have deteriorating paint and contaminated house dust. It has 
been shown that poorer children living in older housing units 
are disproportionately at risk for elevated blood lead levels. 
With extensive assistance from State and local agencies, CDC 
has identified housing, down to the apartment number in many 
cases, where multiple children with high blood lead levels have 
been identified. These ``repeat offender'' properties should be 
our greatest target. Without objection, I would like to enter 
into the record a study that appeared in Public Health 
Management Practice that developed a method for identifying and 
prioritizing ``high risk'' buildings that could be pursued for 
lead poisoning prevention activities. I appreciate the National 
Center for Healthy Housing and the National Association of Home 
Builders joining us today to discuss their efforts to address 
residential lead-paint.
    The Centers for Disease Control has established a national 
level of concern for children whose blood lead levels are more 
than 10 micrograms per deciliter. This is the level at which 
public health action is recommended. Compelling studies done by 
one of our witnesses, Dr. Lanphear (LAN-FEAR), have shown 
adverse developmental and behavioral effects at blood lead 
levels below this number. Thus, there is an interest in 
lowering the national level of concern below 10 micrograms per 
deciliter.
    My concern with this approach is that efforts to identify 
and provide services to children at levels below 10 will 
deflect needed resources from children who we already know have 
blood lead levels above 10 and are the greatest risk from 
exposure. Resources are scarce at all levels of government and 
I believe the biggest bang for our buck comes from directing 
our resources at those housing units and neighborhoods where 
there is documented chronic lead exposure and a revolving door 
of kids with lead poisoning. I'm also concerned that CDC has 
not identified any ``effective clinical or public health 
interventions that reliably and consistently lower blood lead 
levels that already are below 10 micrograms per deciliter.''
    Lead poisoning is a preventable disease and we should focus 
our efforts on reducing or eliminating exposures before they 
happen. That will benefit all children, regardless of their 
current blood lead level. I look forward to hearing from the 
witnesses.

    Senator Boxer. Thank you so much, Senator. There is a lot 
in what you say that I totally agree with.
    We are going to call on you in order or arrival, so that 
would be Senator Whitehouse.

         OPENING STATEMENT OF HON. SHELDON WHITEHOUSE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Whitehouse. Thank you, Madam Chairman, for 
convening this hearing. Under your leadership, this Committee 
is focused intently on the way in which we influence our 
environment and how we can be better stewards of the world 
around us, from cleaning up pollution in our air and water to 
reversing the devastating damage that will be caused by global 
climate change.
    We do this to preserve and protect, to preserve the natural 
resources on which we and future generations will depend, and 
to protect families from changes in our natural and manmade 
environments that can harm our lives and health.
    All too often, these threats appear in places we least 
expect. In recent weeks, we have been reminded of another 
danger found where we least expect it, in our children's toys. 
Hundreds of thousands of toys and other merchandise have been 
recalled because they contain lead paint, a poison that poses a 
serious risk to children's health and well being. Children 
exposed to lead can develop learning disabilities, hearing 
impairments, and behavioral problems even at extremely low 
exposure levels. This damage cannot be reversed.
    We in Rhode Island know the dangers of lead poisoning well. 
For years, tens of thousands of Rhode Island children have 
lived in homes contaminated by lead paint, exposed to lead in 
paint chips or dust. More than 30,000 children have been 
diagnosed with elevated blood lead levels in our little State. 
Last year alone, lead poisoning was diagnosed in an additional 
500 children.
    According to the Centers for Disease Control and 
Prevention, as many as 1.7 million children aged five and 
younger--five and younger--are affected by lead poisoning. 
Nationwide, more than 80 percent of older homes constructed 
before 1978 contain lead paint.
    While the danger of lead poisoning is in no way restricted 
to Rhode Island, I am proud that our State has been a leader in 
the fight to raise awareness about the dangers of lead 
poisoning and taken strong action to reverse it. I am very 
pleased that our Ranking Member noted that 70 percent of the 
exposure comes from exposure to lead paint and dust, and that 
this burden falls disproportionately upon the children of 
America who are poor.
    When I served as Rhode Island's Attorney General, we 
brought public nuisance action against the companies that 
manufactured lead-contaminated paint, an innovative approach 
that after several years and two trials finally resulted in a 
jury verdict last year that the paint companies must help abate 
the damage they caused. That decision was a victory for Rhode 
Islands and the first of its kind in the Nation.
    Today, we are moving ahead on abatement plans to ensure 
that our homes are safe for children and families. I am proud 
that this Committee has turned its attention to the serious 
risks presented by lead contamination and I truly look forward 
to today's hearing.
    Thank you, Madam Chair. If you will excuse me, I also have 
an Attorney General to talk about his future with.
    Senator Boxer. I understand.
    Senator Whitehouse. But I will return, and I thank you for 
your courtesy.
    Senator Boxer. We look forward to having you return.
    Senator Boxer. Senator Bond.

          OPENING STATEMENT OF HON. CHRISTOPHER BOND, 
            U.S. SENATOR FROM THE STATE OF MISSOURI

    Senator Bond. Thank you very much, Madam Chair, and thank 
you for holding this hearing today on lead and children's 
health.
    Lead poisoning, as I think we all agree, is a terrible 
tragedy for children who it afflicts. No child should have 
blood levels that hurt their ability to think and learn. For 
better or for worse, I have had extensive experience with lead 
paint poisoning in Missouri. One in three children tested in 
certain areas of St. Louis, Missouri in 2003 suffered from lead 
paint poisoning. That is 30 percent of our kids in many of the 
poorer neighborhoods who may not live up to their full 
potential and who suffer needlessly.
    As we know, and it has already been said, once lead damage 
occurs, it cannot be reduced, but it can be prevented. And that 
is where we need to focus our efforts.
    I was very proud to have joined over the last several years 
with my colleague, Barbara Mikulski from Maryland, on the 
Appropriations Committee to bring additional Federal help to 
cities like St. Louis with the worst lead paint problems. As 
has already been said, we know that the overwhelming cause of 
lead paint poisoning is the paint on window sills. Small 
children hold onto window sills and often chew on them. If they 
have lead, that may poison them.
    Over the last 5 years, Congress has appropriated nearly 
$250 million to HUD to remediate homes in high-risk areas 
inhabited by low-income families. At the same time, because the 
programs were not working as well as they could, I worked with 
a community health center, Grace Hill Neighborhood Health 
Center, and the children's hospitals and a broad coalition in 
St. Louis to design and implement a new model lead paint 
remediation program.
    By focusing on primary prevention for pregnant women and 
their babies, the Grace Hill model has turned the lead paint 
remediation process on its head. For the first time, the 
objective is to find and remove lead paint problems before 
children are poisoned. New mothers will bring their newborns 
home to a lead-safe environment.
    Over 3 years, I have secured over $15 million in earmarks 
to flow through the Grace Hill Neighborhood Health Center to 
St. Louis neighborhoods with the highest incidence of lead 
paint poisoning.
    Communities at the source of the lead chain also need 
attention, as our witness, Mr. Gulliford, will tell you. Some 
may know that Southeastern Missouri holds our Nation's primary 
lead reserves. Nobody believes we can tolerate lead in infant 
toys, but lead is used in everything from batteries, 
televisions, to much high-tech equipment, from medical 
instruments to musical instruments. To bring America the lead 
it needs, thousands of Missouri workers support middle class 
families with their jobs in lead mining and processing. Nature 
has allocated Missouri 90 percent of the lead in the U.S., lead 
which we do need.
    If I had my choice, I would prefer to have natural gas. I 
would be happy to have them drilling in my backyard if we had 
that rather than lead, but you have to mine for lead where you 
find it. When a lead smelter in Herculaneum, Missouri violated 
ambient air quality requirements for lead, I worked with EPA 
and the Missouri State agencies to put pressure on the company. 
They, of course, needed to be treated fairly, but they also 
needed to meet their environmental obligations. The company 
made millions of dollars of plant upgrades, as they should 
have, and now emissions levels are back in compliance.
    Moving forward, I am working to bring Federal funding for a 
new lead ore transport routes that avoid residential 
neighborhoods on the way to the plant. I hope these examples 
can serve as a model for other States and other areas where 
lead is a problem, pushing where we need to, helping where we 
can, and educating everywhere.
    Lead paint poisoning is preventable and it must be 
prevented because once it occurs, the damage is done and it is 
unacceptable to sentence our future generations to the tragedy 
of lead paint poisoning. This is a crusade I am happy to pursue 
on a bipartisan basis in this body and anyplace else we can.
    I thank the Chair.
    Senator Boxer. Thank you very much, Senator Bond. You 
obviously have had a lot of experience in this area, and that 
is going to be very helpful to us.
    Senator Cardin.

          OPENING STATEMENT OF HON. BENJAMIN CARDIN, 
            U.S. SENATOR FROM THE STATE OF MARYLAND

    Senator Cardin. Thank you, Madam Chair. I also thank you 
for holding the hearing. It is encouraging to hear our 
colleagues talk about the commitment to tackle lead poisoning 
in our children.
    Lead poisoning is an American tragedy. It is a tragedy for 
the children who suffer from lead poisoning and their families. 
The tragedy is compounded because this is an entirely 
preventable disease. During today's hearing, we will hear from 
a number of witnesses that will relate and tell us about some 
important success stories.
    Since 1995, for example, the number of Baltimore City 
children with elevated blood levels has decreased by 92 
percent. I am very pleased that Olivia Farrow, our Assistant 
Commissioner of Health in Baltimore, is with us today. I thank 
the Baltimore City Health Department for what you have been 
able to do in tackling the problems of lead poisoning among our 
children.
    I am proud of the institutions in Baltimore that have been 
working with national leaders in trying to develop strategies 
to deal with preventing lead poisoning and dealing with the 
health consequences of those children who have elevated levels 
of lead in their blood. The Kennedy Krieger Institute is doing 
an incredible job for children, not only in Baltimore and 
Maryland, but around the Country. The University of Maryland at 
Baltimore has been a leader in dealing with the lead poisoning 
issues. I am proud of the role that we played.
    Witnesses will tell us about the straightforward approaches 
they have employed to help protect children. They are 
identifying housing stocks where lead-based paint poses a risk 
and other rental units where these risks have been abated. They 
will tell us about excellent training programs for contractors 
working in the housing industry. These skilled workers are 
making our homes safer, while protecting themselves and their 
fellow workers from the dangers of lead.
    Unfortunately, there will also be heartbreaking stories. In 
spite of all we know about the dangers of high-level lead and 
the effective ways to eliminate those risks, there are still 
more than 1,200 children in Maryland who are lead poisoned. 
That figure of 1,200 is based upon the health standard of 10 
micrograms per deciliter. Some of the best medical people in 
the world at Johns Hopkins and the University of Maryland 
Medical School in Baltimore tell us that standard of 10 
micrograms per deciliter is too high.
    So we know that we have children who are poisoned today. We 
know that the risks are probably much greater than we even know 
today because the acceptable levels are probably too high. 
Madam Chair, we know what the problem is. We have seen great 
progress in reducing blood lead levels in our vulnerable 
children because we know how to eliminate these risks, but we 
need to do more.
    I appreciate you bringing to our attention the problems 
with toys. That is just unacceptable that we allow toys to come 
into this Country or be sold to our families that contain lead. 
That has to stop, and I thank you for bringing that to our 
attention.
    I agree with Senator Inhofe in regards to the housing issue 
and lead paint in our homes today is still at an unacceptable 
level. We need to do more to help eliminate and abate lead 
paint in homes.
    The Federal Government needs to do more. I introduced 
legislation when I was in the House that dealt with one of the 
issues that Senator Bond raised, that is to encourage the 
recycling of lead, rather than having to mine more lead, 
because the problem is that a lot of the lead batteries get 
discarded in a way that produces an environmental risk. So we 
should be doing things to try to encourage the proper 
disposition of lead and recycling of lead, rather than just 
trying to mine more lead in our community.
    The legislation also created a responsible funding source 
so the Federal Government could have a larger partnership 
working with our State and local governments to have lead 
abatement programs that work, that are effective, and reduce 
the risk to our children.
    The bottom line, Madam Chairman, it is time for us to act. 
I thank you for holding this hearing because I think it gives 
us the information we need to take responsible action.
    I thank the witnesses for being here today.
    [The prepared statement of Senator Cardin follows:]

      Statement of Hon. Benjamin L. Cardin, U.S. Senator from the 
                           State of Maryland

    Madame Chairman thank you for holding this hearing today.
    Lead poisoning is an America tragedy. It is a tragedy for 
the children who suffer from lead poisoning and for their 
families. That tragedy is compounded because this is an 
entirely preventable disease.
    During today's hearing we will hear from a number of 
witnesses. They will tell us about some important success 
stories. Since 1995, for example, the number of Baltimore City 
children with elevated blood lead levels has decreased by 92 
percent, while childhood lead poisoning in Baltimore City has 
dropped by 96 percent since 1993.
    The Coalition to End Childhood Lead Poisoning, based in 
Baltimore, has brought extraordinary national leadership to the 
prevention of lead poisoning in children. The Coalition's 
technical expertise in developing lead elimination plans has 
not only benefited the Baltimore area, but has aided local and 
State governments across the country.
    We also appreciate the work of, and look forward to hearing 
the testimony from, Olivia Farrow, Assistant Commissioner in 
the city of Baltimore's Department of Health. Baltimore City's 
work in identifying children's jewelry with excessive levels of 
lead and removing such jewelry from store shelves is an example 
of the work being done at the local level to make conditions 
safer for our children.
    Other witnesses will tell us about some straightforward 
approaches they have employed to help protect children. They 
are identifying housing stocks where lead-based paint poses a 
risk and other rental units where those risks have been abated. 
They will tell us about excellent training programs for 
contractors working in the housing industry. These skilled 
workers are making our homes safer while protecting themselves 
and their fellow workers from the dangers of lead.
    Unfortunately, they will also have heart-breaking stories. 
In spite of all we know about the dangers of high lead levels 
and effective ways to eliminate those risks, there are still 
more than 1,200 children in Maryland who are lead poisoned. And 
that figure of 1,200 is based on a health standard of 10 micro-
grams per deciliter. Some of the best medical people in the 
world work at Kennedy Krieger, Johns Hopkins, and the 
University of Maryland Medical School in Baltimore. These 
doctors tell us that the current standard of 10 micro-grams per 
deciliter is too high. In fact, there is probably no safe level 
of lead in children's blood.
    Madame Chairman, we know what the problem is. We have seen 
great progress in reducing blood lead levels in our vulnerable 
children, because we know how to eliminate these risks.
    We need to do more. The time to act is now.
    Thank you, Madame Chairman.
    Senator Boxer. Thank you, Senator.
    Senator Barrasso.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Thank you very much, Madam Chairman.
    This issue of child exposure to lead is a serious concern. 
I appreciate the progress that has been made by the EPA, as 
shown in Senator Inhofe's charts. But I am sure as the 
witnesses will testify, child exposure is down, but we can do 
more. It is down from where it was a decade ago.
    I really understand the importance of preventive medicine. 
We need to protect these children from lead exposure to prevent 
the long-term adverse effects that they have on health care. 
Last year, I served in the Wyoming State Senate on the Health 
Committee, and we came out with a warning, actually the 
Department of Health did a little over a year ago, the 
Department of Health warned of unexpected lead dangers, with 
the key word being ``unexpected.''
    The Wyoming Department of Health officials are asking 
parents to be aware of the dangers to children posed by items 
that may unexpectedly contain lead. They talked about the 
recall of the 300,000 heart-shaped charm bracelets, one like 
you passed around today, Madam Chairman, that had been provided 
as a free gift to children with shoe purchases. A young child 
died from acute lead poisoning after swallowing one of these 
charms, and it was because of it contained lead.
    Infants and children are especially vulnerable to lead 
poisoning. A child who swallows large amounts of lead may 
develop anemia, severe stomach ache, muscle weakness, brain 
damage. Lead can affect a child's mental and physical growth 
even at very low levels of exposure.
    Now, there has been actually a measurable change. I can 
tell you this, Madam Chairman, when I was in medical school in 
the late 1970's, when we studied x-rays, there would be 
something called lead lines on x-rays where growth had been 
delayed in a child and you could see it on x-ray. Just above 
the knees on both sides, both sides on the femurs, you would 
see these little lines because there had been a period of time 
where the growth had been delayed, development delayed. These 
were called lead lines. We learned that in medical school 25 
years ago, or a little more. But now, I haven't seen one of 
those lead lines on an x-ray for years, which says we are 
making progress and we are making measurable progress.
    We need to do more. Let's find solutions that are 
attainable and reasonable based on sound science. I look 
forward to the testimony.
    Thank you, Madam Chairman.
    Senator Boxer. Thank you, Senator, very much.
    Senator Klobuchar.

           OPENING STATEMENT OF HON. AMY KLOBUCHAR, 
            U.S. SENATOR FROM THE STATE OF MINNESOTA

    Senator Klobuchar. Thank you, Senator Boxer. Thank you for 
holding this important hearing.
    I have been dealing with this all summer on the Commerce 
Committee. I think as everyone has noted, it has been hard to 
open a paper or to watch TV without hearing about another toy 
recall because of lead. As a former prosecutor and a mother, I 
am appalled by the number of toys. I think it is 20 million now 
that have been recalled. It started with Thomas the Train sets 
and SpongeBob SquarePants. My 12 year old daughter, Madam 
Chairwoman, was very embarrassed I was working on this because 
the toys at issue were SpongeBob SquarePants. But when it got 
to Barbie, she came into the kitchen and said, Mom, this is 
getting serious.
    [Laughter.]
    Senator Klobuchar. One of the first products that was 
recalled this summer was this Thomas the Train set that I have 
here. One little interesting fact that I don't know if everyone 
knows, the RC2 Corporation, these came from China, apologized 
to their customers and to try to prompt them to get more 
trains, they actually gave them bonus gifts for their troubles. 
The bonus gift backfired in a big way. They then had to recall 
the bonus gifts after that because they realized that those 
also had lead in the paint. And this actually is a toy that 
Tamara Fucile, my great staff person on this, her child bit on 
this toy and it has now been recalled.
    We have watched this process unfold over the summer. I 
think it has given American consumers a sense of why we do need 
good government and why we do need regulation. Senator Durbin 
and I have been working together to make sure that the Consumer 
Product Safety Commission has the money it needs, and then on 
the Commerce Committee, along with Senator Pryor and Senator 
Nelson, we have been working toward getting some new standards 
in place for lead in toys and other products.
    Right now how it works, and I think people would be 
surprised to know this, there really isn't a set Federal 
standard. A lot of the States have standards as a voluntary 
guideline, and there are a lot of hoops that the Consumer 
Product Safety Commission has to go through to actually recall 
toys or other items.
    So what we are trying to do instead of setting up another 
rulemaking, which would take months, is actually put a standard 
in place. We have drafted a bill suggesting a .04 parts per 
million, with a lower standard for jewelry like they have in 
California at .02. I will say that the retailers, especially my 
hometown company of Target and others like Toys R Us have been 
very helpful and supportive of these efforts. I think they 
realize that we need to have a stronger Consumer Product Safety 
Commission and that also we need to have some better rules in 
place.
    This really hit home for us in Minnesota when a little 4 
year old boy swallowed a lead charm. He didn't buy it. He was 
given it along with a pair of tennis shoes as a free gift. He 
swallowed that charm and he didn't die from choking on it or 
some kind of other problem with the air. He died when the lead 
seeped into his bloodstream over a period of days. It crept 
into his bloodstream. He died. The charm was later tested and 
it tested at 99 percent lead and it was made in China. So if 
that isn't enough to make people realize that we need to change 
the way we are doing business, I don't know what is.
    So I think it is time to act. While we will continue to 
focus on the Commerce Committee on the Consumer Product Safety 
Commission, as we know, on this Committee, the Consumer Product 
Safety Commission cannot and should not do this alone. It 
doesn't have the resources or the statutory authority. I am 
pleased that we are taking steps to modernize the commission. 
Right now, there is one guy who checks toys. He sits in the 
back of a room. What is his name? Bob the Toy Guy, and he is 
retiring at the end of the year.
    So we need to improve the CPSC, but I will tell you that 
the EPA must be a partner here. With a budget more than 10 
times the size of the Consumer Product Safety Commission and 
with greater authority to gather information, the EPA is 
uniquely positioned to support the Consumer Product Safety 
Commission's efforts to get lead out of stores and get lead off 
of our shores.
    I am pleased that you are holding this hearing today, Madam 
Chair. Thank you very much. I look forward to hearing from our 
witnesses.
    Senator Boxer. Senator, thank you very much.
    Senator Craig.

            OPENING STATEMENT OF HON. LARRY CRAIG, 
              U.S. SENATOR FROM THE STATE OF IDAHO

    Senator Craig. Madam Chairman, thank you very much.
    Yesterday when we were looking through this Committee at 
Superfund and where we are with its administration and 
response, I mentioned a situation that had occurred in Idaho a 
good number of years ago, and I suspect all of us have those 
stories. While we clearly don't have the legacy of old 
metropolitan areas or old communities of the kind that Senator 
Cardin spoke of, we were the second largest producer of lead in 
the Nation for a century, following Missouri, as Senator Bond 
has spoken to.
    During that time and within the Superfund side of the Coeur 
d'Alene basin, we had a smelter who through its filtration 
system broke down and for well over a couple of years, lead 
dust settled in over this valley. There was no question at the 
time that it was stopped. The children of that valley and the 
adults of that valley had a substantial elevated lead level. 
Over the course of the 1980's and the 1990's, I have worked 
with that valley to clean itself up. It literally is a matter 
of vacuuming the valley, removing the dirt from the yards, 
repainting the homes, vacuuming out the attics, and of course 
changing the whole character. And the blood lead levels have 
dropped dramatically.
    While there are great success stories to be told, and 
Senator Inhofe has mentioned one that we cannot walk away from. 
The chart shows it. Because of the attention we have paid, this 
Government has paid, and therefore the marketplace has paid to 
lead, we have reduced those lead levels 89 percent. Senator 
Cardin spoke of lead levels in Baltimore down 90 percent in 
certain areas.
    So there are tremendous success stories to be told, but it 
also reminds us that effective and responsive oversight ought 
to continue to be done because clearly this is not a story yet 
that you can write its final chapter, nor should you.
    And so I thank you very much today for the attention you 
are giving. But as we have brought down our levels here, now we 
have to focus offshore. That is where we have been at error, 
and that is what this hearing offers us. It forces the 
marketplace to get smart too, and they haven't been. It is 
pretty obvious by all of the stories told and by the millions 
of products recalled.
    Between what we can do, what the Centers for Disease 
Control can do, what the Consumer Product Safety Commission can 
do, and what the marketplace is already doing to these toy 
manufacturers, there is a phenomenal economic penalty that is 
going on out there at this moment. That, in combination, 
refocuses us as it refocuses the American consumer in a way 
that is critically important.
    So the combination of it all, Madam Chairman, your 
attention to it, the attention of this Committee and this 
Congress, is going to be very critical in continuing the 
writing of the next chapter in what I think is a great American 
success story yet unfinished, from a legacy of our industrial 
past where we simply did not know, to a State where we now know 
it today and we are doing the right things, in combination with 
the EPA and all of the agencies involved, and in cooperation 
with the marketplace and the private sector to get it right and 
keep it right for the American consumer.
    Thank you very much.
    Senator Boxer. Senator, thank you.
    I think all Senators have really made a contribution. 
Before I call on Mr. Gulliford, I want to put something in the 
record. I think everyone who said that paint, on average, is 
the biggest source of lead is absolutely correct. And everyone 
who cited these statistics is absolutely correct. On average, 
paint is a bigger source of lead. But for kids who have lead 
toys like some of these here, the biggest source of lead can be 
a toy. So everything we are doing on paint is commendable. And 
by the way, there will be more we have to do, which we will be 
talking about.
    So what I want to put in the record is a list of some of 
these products. I want to make a point here that the safety 
level of lead in paint, and correct me if I am wrong here, is 
600 parts per million. Anything above that is deemed unsafe. I 
want to give you an example. Vinyl bibs recalled in Illinois, 
1,000 ppm lead, 1,000. Remember, 600 is the level that is safe. 
We have some other ones here. Vinyl lunch box, the one that is 
in California, Spanish language, 16,000 parts per million lead; 
Spider Man lunch box, 1,000 parts per million; a teething toy, 
900 parts per million lead; bendable toys, 10,000, et cetera, 
et cetera. And a jewelry chain from Claire's, it appears that 
one has 30,000 parts per million and there is a hair clasp with 
450 parts per million. I mean, this is what we will put in the 
record.
    [The referenced document can be found on page XXX.]
    Senator Boxer. The point is, my colleagues, you are so 
right. This is a success story that we have had here, but it is 
getting ahead of us and we need to catch up to it.
    Senator Craig. Madam Chairman.
    Senator Boxer. Yes.
    Senator Craig. Those products you have just mentioned, how 
many of those are manufactured offshore?
    Senator Boxer. I would bet most of them. I would say the 
vast majority.
    Senator Craig. Nearly 100 percent, I would guess.
    Senator Boxer. Probably close to that.
    Senator Craig. Yes. Thank you.
    Senator Klobuchar. And Madam Chair, all the toys recalled 
have been recalled from China this year.
    Senator Boxer. Yes.
    Senator Inhofe. Yes, but the question I was going to ask, 
maybe the witnesses would have this, they can be manufactured 
overseas, but many times that is by American companies.
    Senator Boxer. That is correct.
    Senator Inhofe. There, we could have some control.
    Senator Boxer. Exactly.
    Senator Inhofe. The question is going to be how are we 
going to control those that are not American companies that are 
made overseas.
    Senator Boxer. Yes.
    Senator Inhofe. That is the difficult thing.
    Senator Boxer. You are exactly right. It does present a 
challenge, and that is why I am so happy that you are all here 
because together we can meet this challenge. I know that we 
can.
    So anyway, James Gulliford, welcome. Go ahead. We will put 
your whole statement in the record. If you could summarize in 5 
minutes, that would be great.

   STATEMENT OF JAMES GULLIFORD, ASSISTANT ADMINISTRATOR FOR 
      PESTICIDES, PREVENTION, AND TOXIC SUBSTANCES, U.S. 
                ENVIRONMENTAL PROTECTION AGENCY

    Mr. Gulliford. Thank you. I do appreciate the fact that the 
statement is entered.
    Good morning, Madam Chairman and Senator Inhofe and members 
of the Committee. Thank you for the invitation to appear before 
you today to discuss our efforts at the Environmental 
Protection Agency to prevent lead poisoning of our Nation's 
children.
    Lead is a pervasive problem and many offices at EPA are 
working to protect public health and the environment from lead. 
My remarks this morning focus on the lead-based paint program 
under TSCA, which is the responsibility of my office. Due to 
the leadership from this Committee and the Congress, there has 
been, as pointed out by many of our speakers already, many of 
the Senators this morning, remarkable progress in significantly 
reducing childhood lead poisoning.
    In 1978, there were 13.5 million children with elevated 
blood lead levels in the United States. As a result of 
persistent efforts by countless individuals and organizations 
at the community and State levels, as well as our agencies, 
that number has dropped by 2002 to 310,000 children. CDC is 
currently compiling the most recent data which will be released 
later this year, and we expect to see a further decline in the 
number of children that are lead poisoned. We thank you for 
your leadership in this area.
    However, much work remains to be done because, as I think 
everybody has stated, one poisoned child is one too many. EPA 
is working hard toward the goal of eliminating lead poisoning 
in children as a major public health concern by a goal date of 
2010. With that goal in mind, let me discuss our current 
program and the activities underway to meet that goal.
    EPA's primary goal is to prevent children from being 
poisoned and avoid the consequences associated with childhood 
lead poisoning. We have an active multi-pronged program to 
combat the majority of the remaining cases of elevated blood 
lead levels in children, which are caused by lead paint and 
related sources in older housing.
    Our lead paint program includes a national regulatory 
infrastructure, outreach and education programs aimed at those 
most at risk, and educating those who can help address the 
problem. The program also issues grants targeted to vulnerable 
populations whose children are at most risk for lead poisoning.
    EPA requires the training and certification of lead-based 
paint professionals who conduct lead-based paint inspection, 
risk assessment, and abatement services in residents and child-
occupied facilities such as day care centers. We require 
practices for lead paint abatement that assure the work is done 
adequately and safely. EPA, together with HUD, issued the rule 
that mandates lead-based paint disclosure requirements for 
sales and rentals of pre-1978 housing, thus ensuring that home 
buyers and renters are made aware of lead-based paint hazards 
and provides the right to a lead inspection before purchases.
    Similarly, the pre-renovation education rule implements a 
very simple concept that all owners or tenants of pre-1978 
housing should be given basic information about lead poisoning 
prevention before paint-disturbing renovations are started. EPA 
also issued a rule on the identification of hazardous levels of 
lead in dust and soil.
    EPA is now developing a new rule, known as the Lead R&R 
rule, which when completed in 2008 will minimize lead hazards 
that result from the disturbance of lead-based paint during 
renovation, repair and painting work. In 2006, EPA issued this 
proposed rule covering renovation activities in housing. 
Earlier this year, EPA issued a supplemental proposal to extend 
these requirements to renovations in child-occupied facilities. 
All together, EPA received more than 250 comments on the 
proposed rules and held five public meetings around the 
Country. Our deliberations regarding the content of this final 
rule are underway. I can assure the members of the Committee 
that we are giving serious consideration to your comments, as 
well as to those that we receive from many other important 
organizations.
    As I mentioned earlier, EPA is part of a broad effort in 
this Country to protect our children from the hazards of lead-
based paint. Our Federal partners, including HUD, CPSC, and CDC 
also have many activities underway to eliminate these risks. 
States and all levels of local government have set up programs 
to identify and treat lead poisoning in children and to 
rehabilitate deteriorated housing. Parents, too, are the most 
important individuals who have helped greatly to reduce lead 
exposure to their children by cleaning and maintaining their 
homes, by having their children's blood lead levels regularly 
checked, and by promoting proper nutrition.
    So thank you for the opportunity to discuss these programs. 
I appreciate your support and commitment to this work to better 
protect our children from lead-based paint poisoning. I am 
pleased to answer your questions.
    Thank you.
    [The prepared statement of Mr. Gulliford follows:]

   Statement of James B. Gulliford Assistant Administrator Office of 
              Prevention, Pesticides And Toxic Substances


                              introduction


    Good morning Madam Chair and members of the Committee. 
Thank you for the invitation to appear before you today to 
discuss the Agency's efforts to prevent lead-based paint 
poisoning of our nation's children. Lead is a pervasive problem 
and many offices at EPA have various activities occurring to 
protect public health and the environment from lead. My 
responsibilities focus on the lead-based paint program and its 
activities.


                               background


    Since the Residential Lead-Based Paint Hazard Reduction Act 
of 1992 (Title X) was enacted, the U.S. Environmental 
Protection Agency, together with the U.S. Departments of 
Housing and Urban Development (HUD), and Health and Human 
Services (HHS), the Consumer Products Safety Commission (CPSC), 
as well as our State partners, have made significant progress 
in eliminating childhood lead poisoning. In 1978, there were 13 
and one-half million children with elevated blood lead levels 
in the United States. By 2002, that number had dropped to 
310,000 children, and it continues to decline. We expect the 
Centers for Disease Control to release updated data later this 
year. While we still have a significant challenge, particularly 
in reducing the incidence of lead-poisoning in low-income 
children, EPA is very proud of how its Federal, State, and 
private sector partners have coordinated their efforts with the 
public to better protect our children.
    The Federal Government has phased-out lead in gasoline, 
reduced lead in drinking water, reduced lead in industrial air 
pollution, and banned or limited lead used in products such as 
mini-blinds, food cans, glazed china and ceramic wear, crystal, 
and residential paint. States and municipalities have set up 
programs to identify and treat lead poisoning in children and 
to rehabilitate deteriorated housing. Parents, too, have 
greatly helped to reduce lead exposures to their children by 
cleaning and maintaining homes, having their children's blood 
lead levels regularly checked, and promoting proper nutrition.


                           current activities


    EPA has an active, multi-pronged program to combat the 
majority of the remaining cases of elevated blood lead levels 
in children, which is caused by leaded paint and related 
sources in older housing. EPA's primary goal is to prevent 
children from being exposed to lead based paint hazards and 
avoid the consequences associated with it. EPA's lead-paint 
program includes a national regulatory infrastructure, outreach 
and education programs aimed at those most at risk, and 
educating those who can help address the problem. The program 
also issues grants targeted to vulnerable populations whose 
children are at risk for lead-poisoning.
Regulations:
     EPA requires the training and certification of lead-based 
paint professionals who conduct lead-based paint inspection, 
risk assessment and abatement services in residences and child-
occupied facilities, such as day care centers. The Agency has 
also set work practice standards for these professionals so 
that lead-based paint activities are conducted safely, 
reliably, and effectively (TSCA 402(a)). EPA requires that 
trainers be accredited to ensure that training programs provide 
quality instruction in current and effective work practices. In 
addition, EPA has authorized individual States, Tribes, and 
Territories to develop and administer training and 
certification programs, thereby extending the reach of these 
efforts. At present, 39 States, Puerto Rico, two Tribes, and 
the District of Columbia, assisted by Federal grants, are 
authorized to carry out this program, with EPA retaining direct 
authority in the remaining areas.
     EPA, together with HUD, promulgated the Residential Lead-
based Paint Real EState Disclosure Rule (Toxic Substance 
Control Act (TSCA) 1018). This rule mandates lead-based paint 
disclosure requirements for sales and rentals of pre-1978 
housing, thereby helping to ensure that home buyers and renters 
are made aware of lead-based paint hazards before deciding on a 
dwelling, and, in the case of home buyers, guarantees the right 
to a lead inspection before purchase.
     The Pre-Renovation Education Rule implements a very 
simple concept: all owners/tenants of pre 1978 housing (about 
15 million housing units) should be given basic information 
about lead-poisoning prevention before paint-disturbing 
renovations are started (TSCA 406(b)).
     EPA promulgated a rule on the Identification of Hazardous 
Levels of Lead in Dust and Soil (TSCA 403). This rule defines 
certain locations and conditions of lead-based paint, and 
specific levels of lead in dust and soil that are most likely 
to pose a health threat to children. These standards effect 
disclosure provisions, the need to use trained, certified lead 
workers, and control and abatement requirements for federally 
owned and federally assisted housing. These standards were 
based in part on the level of lead in blood (10 ug/dl) that CDC 
considers to be elevated.
     EPA is developing a Renovation, Repair, and Painting 
Program rulemaking. On January 10, 2006, EPA issued a proposed 
rule for contractors working in residences. On June 5, 2007, 
EPA issued a supplemental proposal to extend these requirements 
to renovations in child-occupied facilities. Altogether, EPA 
received more than 250 comments on the proposed rules, and in 
addition received comment at five public meetings it held 
around the country
     The growing concern about lead in children's toys and 
jewelry has resulted in close cooperation between EPA and CPSC 
regarding concerns about the content of lead in toy jewelry. As 
you aware, CPSC is currently engaged in a rulemaking effort to 
address lead in children's jewelry. Earlier this year, EPA 
notified more than 120 companies of their obligations under 
TSCA section 8(e), which requires manufacturers, processors and 
distributors of chemical substances to inform the Agency if 
they obtain information that a substance presents a substantial 
risk to health or the environment. EPA is also nearing 
completion on a rule under TSCA section 8(d) which will require 
manufacturers of lead in consumer products intended for use by 
children to submit existing health and safety studies to EPA. 
Through this rule, EPA hopes to obtain existing studies that 
relate to lead content in children's products or children's 
exposure to lead from such products.
Outreach and Education:
    EPA conducts outreach with potentially affected parties in 
the development of regulations to assist regulated parties in 
complying with regulations, inform citizens of their rights 
under these rules, inform the public about the nature of lead-
based paint hazards, and provide guidance on how to reduce 
risks. Our partners at HUD and CDC partially fund these 
activities and provide technical support. This outreach 
includes:
     A bilingual National Lead Information Center (1--800 424-
LEAD). The Center operates a national hotline handling more 
than 28,000 contacts per year, distributes 2200 documents 
annually and operates a national clearinghouse where best 
practices are shared.
     Development of materials, such as brochures and sample 
real eState disclosure forms, needed to comply with regulatory 
requirements.
     Creation and distribution of educational materials and 
national lead awareness campaigns for parents, homeowners and 
renters, medical professionals, child-care professionals, 
renovation contractors and ``do-it-yourselfers,'' and others. 
This includes the award-winning, bilingual ``Get the Lead Out'' 
campaign to increase awareness of lead-paint hazards; and the 
``Keep Your MVP in the Game'' campaign, with President Bush and 
the slogan: Lead Poisoning Can Steal Your Child's Future.
     Partnership programs with nonprofit groups and other 
government agencies to conduct lead awareness/education 
activities, particularly targeted to minority and urban 
populations often most at risk. This includes the ``Chance of a 
Lifetime'' campaign for Head Start Centers.
     Outreach to Spanish-speaking populations in the United 
States.
Grants Targeting Low-Income and Other Vulnerable Populations
     EPA has developed several grant programs targeted to 
populations still at risk for lead poisoning. These grants are 
intended to reduce the incidence of childhood lead poisoning in 
populations most at risk, and include grants targeted to:
     federally recognized Indian tribes and tribal consortia: 
These grants support Tribal educational outreach and the 
establishment of baseline assessments of Tribal children's 
existing and potential exposure to lead-based paint and related 
lead-based paint hazards. These include a grant to the Houlton 
Band of the Maliseet Indians of Houlton, Maine. This grant 
includes several lead poisoning prevention workshops, such as a 
``Lead-free Babysitting'' course for all tribal child care 
providers, a health fair where blood-lead screenings will be 
conducted, and lead risk assessments and inspections at the 
homes of young children.
     Low-income communities with older housing: These grants 
support the partnership of national organizations with 
community-based organizations and local governments to improve 
the environmental health of a community regarding lead 
poisoning prevention. One example is a grant to the Alliance 
for Healthy Homes which will partner with several local groups 
to serve community members from four low income populations. 
Activities will include lead-awareness training, lead-safe work 
practices training, and to address substandard housing 
conditions such as lead-based paint, through ordinance 
development
     Populations still at risk for elevated blood lead levels: 
These grants, which are intended to reduce the incidence of 
childhood lead poisoning in vulnerable populations, include 
projects to: (1) reduce lead poisoning to target communities 
with high incidences of elevated blood-lead levels; (2) 
identify and reduce lead poisoning in under-studied communities 
with high potential for undocumented elevated blood-lead 
levels; and (3) develop tools to address unique and challenging 
issues in lead poisoning prevention, especially tools that are 
replicable and scalable for other communities. One example is 
the grant to the Community Action Partnership of Mid-Nebraska, 
which supports blood-lead testing and home assessments through 
collaborative partnerships with Women, Infants, and Children 
(WIC) and Well Child public health clinics.


                               conclusion


    Thank you for the opportunity to discuss some of EPA's 
contributions to prevent lead-based paint poisoning. Again, I 
want to thank you for your support and commitment to our work 
to better protect children from lead based paint poisonings. We 
remain committed to the goal of eliminating lead poisoning in 
children as a major health concern by 2010. I would be pleased 
to address your questions.

    Senator Boxer. Thank you very much.
    As you know, you have gotten many letters from me and other 
colleagues talking about your rule for renovation. When EPA 
sets its cleanup standard for lead paint renovation by 
contractors, will the agency base its standard on the most 
recent scientific studies showing childhood impacts at low 
blood lead levels?
    Mr. Gulliford. We appreciate what we are learning from 
science and what is emerging in the science area with respect 
to the importance of lead poisoning. We recognize that the 10 
microgram per deciliter level is not a standard, but rather it 
is a health threshold on the part of CDC which they consider as 
the appropriate level at which to intervene in actions at the 
community level.
    So we will not be basing our rule decisions on that as a 
level or as a threshold. Rather, we will look at our concerns 
for levels of lead exposure. Our rule will be designed to 
reduce lead exposure to children, and our goal then is to 
assure that children at not poisoned by activities related to 
lead renovation and repair.
    Senator Boxer. When are you going to have this rule done? 
It sounds to me like you are not going to follow your science 
advisors. You didn't answer it that clearly. You said a lot of 
words, but I didn't hear you saying that you were going to 
follow and go with the science advisors. When can we anticipate 
this rule?
    Mr. Gulliford. Thank you, Madam Chairman. We anticipate 
completing the rule in the first quarter of 2008, which was our 
commitment to the members of this Committee.
    Senator Boxer. I was told it was going to be December 2007. 
That is what I was told the last time. Now you are moving it to 
when?
    Mr. Gulliford. Our commitment has been to the first quarter 
of calendar year 2008.
    Senator Boxer. And you have not decided to follow your 
scientific advisors urging you to use this data?
    Mr. Gulliford. In fact, we are. We are listening very 
carefully to the reports from CASAC.
    Senator Boxer. So you will come out and reflect the science 
on this, because we know kids are exposed at very low levels.
    Mr. Gulliford. Our concern is through the rule, and our 
goal for the rule will be to reduce exposure to lead that is 
involved in the rehabilitation and repainting of homes. Our 
goal will be to reduce lead exposure. Again, this threshold of 
10 micrograms per deciliter is not, again, a part of our actual 
determination for our lead rule. You are correct.
    Senator Boxer. Well, I think you are going to have some 
concern by members of this Committee, so some of us will want 
to weigh in with you because now you are saying it is first 
quarter of 2008.
    OK. Are you aware that recent studies have found highly 
leaded jewelry with almost half of the pieces exceeding 80 
percent lead by weight remains widely available in U.S. stores? 
And that electronic waste exported from the U.S. could be the 
source of that lead? Are you aware of that?
    Mr. Gulliford. Yes, I am.
    Senator Boxer. Has EPA issued or does EPA plan to issue any 
rule under TSCA to gather data on these exports or to control 
the export of such waste to ensure that this waste does not 
come back into this Country and threaten our children?
    Mr. Gulliford. We are doing several things. One thing that 
we are doing is we have developed a concept called ePIT, which 
is designed to make the materials that are in computers and the 
electronics industry more appropriate for the actual recycling 
of them, again to reduce the content of----
    Senator Boxer. Well, that is in the future. I am talking 
about now. Look at this. I am talking about now. What are you 
doing now to stop this from coming back into the Country, sir?
    Mr. Gulliford. The actual programs that are in place to 
control the import of child toys and other materials such as 
you have here displayed today are under the purview of CPSC.
    Senator Boxer. We understand. You have control over TSCA, 
and what are you doing under TSCA to gather data on these 
exports or to control the export of such waste to ensure that 
it does not come back and kill our children or harm them?
    Mr. Gulliford. Two things that we are doing is that we have 
notified 120 companies of their obligation to inform EPA if 
they obtain information that products they manufacture for 
import present a lead poisoning risk to children. This is a 
TSCA 8(e) action that we are taking.
    Senator Boxer. So they have to inform you--I am just trying 
to get this right--if they obtain information, but they don't 
have to obtain the information? You don't tell them they must 
test and let you know?
    Mr. Gulliford. That is the authority that we have under 
TSCA. And yes, that is their obligation.
    Senator Boxer. What is their obligation?
    Mr. Gulliford. Is to report any information to us that they 
have, that they are aware of the content of unsafe levels of 
lead poisoning risks to children.
    Senator Boxer. And these are the electronic people. And 
then what are you doing to make sure they don't come back into 
the Country?
    Mr. Gulliford. Madam Chairman, this is regarding any 
products that are imported that contain lead that children 
might be exposed to.
    Senator Boxer. Look, I am very confused. I am going to 
repeat the question one more time and then I am going to come 
back to you in a minute.
    Recent studies have found highly leaded jewelry with almost 
half of the pieces exceeding 80 percent lead by weight remains 
available in U.S. stores, and that electronic waste exported 
from the U.S. could be the source of this lead. Has EPA issued 
or plan to issue any rule under TSCA to deal with these 
exports?
    Mr. Gulliford. The exports----
    Senator Boxer. Yes or no. Could you try me with yes or no?
    Mr. Gulliford. The exports of material for recycling are 
not subject to our rules. The import of any products that 
contain lead that children might be exposed to are under the 
purview of CPSC.
    Senator Boxer. OK. So EPA does not plan under TSCA, because 
you have been sued several times and lost in court on your 
point that TSCA doesn't do anything. So what you are saying is 
you have no plans to issue any rule under TSCA to gather data 
on these exports.
    Mr. Gulliford. On the exports of electronics?
    Senator Boxer. Yes.
    Mr. Gulliford. From the United States?
    Senator Boxer. Yes.
    Mr. Gulliford. No, we have no plans to issue a rule.
    Senator Boxer. Thank you for answering the question.
    Senator Inhofe.
    Senator Inhofe. Thank you, Madam Chairman.
    I am not going to take my full time. I really wanted to get 
to the next panel because I am going to have to leave at noon. 
But let me just start off by saying, Mr. Administrator, that as 
the chart shows up here, we have done a good job. For those of 
us who are not really the experts in this area, try to simplify 
it for me. That is, as I said in my opening statement, 70 
percent of the problem is in the paint, the things we have been 
talking about. We are concerned about the other 30 percent 
because that is what more directly affects the children.
    It is kind of interesting. I am not sure what we tools we 
have in this Country. I know what we can do about American 
manufacturers who make things in China and bring them over 
here. I am wondering what is out there and what is the proper 
authority to go to do something about the toys that would be 
coming in that were manufactured by Chinese manufacturers. Can 
you draw that distinction and tell me what authorities we have 
we could be more aggressive with?
    Mr. Gulliford. The strongest authorities are within the 
Consumer Product Safety Commission. They have an ANPR, an 
advanced notice for proposed rulemaking, to ban, again, the 
import of any products, and there is a threshold standard of 
lead content in those products, for products that children 
would be exposed to, much as the products that are again on the 
table in front. That is the most appropriate action that we can 
take.
    Similarly, the U.S. Government is working on import safety 
activities right now. HHS Secretary Leavitt has put together a 
working group to address the challenges of import safety of all 
products, not just products containing lead, but everything 
from food to other products that come into commerce. One of the 
aspects of that initial plan, the framework that has been 
advanced, is to do more on the prevention side and to help 
people understand why these issues are of concern for us, to 
look for traceability in the manufacture of products.
    So there are activities that are projected in those areas.
    Senator Inhofe. OK. That is good. Let's go back to the 70 
percent now, which we have been talking about on the rule. It 
is my understanding this actually was written into law back in 
1992 or so, and it actually mandated a deadline for the report 
and for the rule itself by 1996. Am I incorrect in that?
    Mr. Gulliford. I believe that is correct.
    Senator Inhofe. I think that is, yes. This is something 
that we didn't do it during the Clinton administration. It is 
not done yet, and yet we are looking right now just down to a 
few weeks in having this done. So in terms of the first quarter 
of 2008, we will be looking at it.
    I think it would be a good idea, Madam Chairman, for them 
to let us know between now and then of the progress so that if 
there is a problem in meeting that deadline that we would be 
able to address it.
    Getting back to CASAC, we have dealt with them I remember 
during the previous Administration on a number of things. Do 
you feel that you are getting the full benefit of the advice of 
the Clean Air Scientific Advisory Committee?
    Mr. Gulliford. Yes, we do. In fact, we actually took a 
number of issues to them for their advice with respect to this 
rule and we appreciated their comments. They gave us comments 
on other areas that have been helpful as well.
    With respect to your other question, Senator, we will be 
happy to inform the Committee if at any point in time we 
project that we will not meet that first quarter goal.
    Senator Inhofe. That would be good.
    The last thing I wanted to ask, we have a witness on the 
next panel from the Homebuilders. They have been working on the 
renovation rule. Have you had a dialog with them? Do you feel 
that they are making progress in making a contribution to the 
ultimate rule that we will be able to adopt?
    Mr. Gulliford. I have had an opportunity to speak with 
Homebuilders on this issue a number of times. They have 
submitted studies that they have done. They have submitted 
comments on the rule as proposed, like many other organizations 
have. We have welcomed their comments. We have welcomed the 
comments from the environmental community, from the health 
officials as well. So all of those help to inform us, as well 
as those comments from Members of Congress.
    Senator Inhofe. Thank you very much.
    Thank you, Madam Chairman.
    Senator Boxer. Thank you, Senator.
    Senator Klobuchar.
    Senator Klobuchar. Thank you, Madam Chairwoman.
    In your testimony, you talked about how you have been 
working in close cooperation in your written testimony with the 
Consumer Product Safety Commission. I was speaking earlier in 
my opening statement about how important it is to beef up that 
organization. I wanted to know, beyond notifying companies of 
their statutory obligations under the Toxic Substance Control 
Act, what specific actions has the EPA taken to coordinate with 
the CPSC in light of this crisis we are seeing with lead in 
toys.
    Mr. Gulliford. Thank you, Senator, for your question.
    Let me mention two other very specific things that we did. 
We did send a letter to CPSC expressing our concern for lead in 
toys, our concern that is again a very unfortunate, but 
pervasive opportunity or exposure pathway for children to be 
exposed. And second, then, we also have initiated a rulemaking 
at EPA. We did this in discussion with them, and notified CPSC 
about that, that will require any companies with studies on 
existing health and safety studies on lead in children's 
products, not just toys, but all products, to make that data 
available to us. So there would be a requirement for that. Any 
failure to do so, then, would be subject to enforcement action 
on our part.
    Senator Klobuchar. And when do you expect to deliberate on 
that rule?
    Mr. Gulliford. That rule, we project to have that rule 
about a year from now.
    Senator Klobuchar. And when do you think you can have it 
done?
    Mr. Gulliford. Fall, late fall of 2008.
    Senator Klobuchar. You know, I talked about Bob the Toy Guy 
in the back room in the CPSC. Are there other ways that the 
EPA, when you have a budget 10 times bigger than the CPSC, can 
assist them in working with them in testing these products and 
trying to find a way to make this work?
    Mr. Gulliford. One of the things that we try not to do is 
duplicate the actions or the authorities of other agencies. So 
CPSC has worked on the issue of toy imports, children's 
products that are imported. We are really focusing on the lead 
in homes.
    Also in other programs of EPA such as the Superfund 
program, as you heard Senator Bond refer to, we have a number 
of cleanups of areas where, again, children are exposed to lead 
that is in their yards. So we are working in the areas that are 
clearly within our identified authorities. We want to be 
supportive of the other agencies, and we do that by again 
exchanging information as we become aware of it related to 
health issues. But again, we do not try and duplicate their 
functions.
    Senator Klobuchar. To get into that area that you have been 
focusing on, and that is the questions that Senator Boxer was 
asking you about the EPA regulation, the status of it, to 
protect children and others. HUD issued their rule for assisted 
housing I think it was back in 1998, and it took effect in 
2001. I think people had expected that the EPA would quickly 
follow suit right after this was issued in 1998. What took so 
long? It has been 11 years after Congress required that the 
rule be passed, and there is still not a final. I know she 
asked you about the timing. I just don't understand why it 
could take so long when HUD was able to do this back in 1998. I 
think it is something like 1.1 million kids could be protected 
who are potentially exposed to lead.
    Mr. Gulliford. Senator, I came to this position in July of 
last year with a commitment to this Committee to implement, to 
finalize and complete this rule. I am committed to do that. I 
also come with a strong concern for the safety of children with 
respect to lead because of my experience in the region where we 
had, as the Senator indicated, a lead smelter. We have the 
largest cleanup Superfund site from the actions of the past, an 
historic smelter. So my commitment is to what I can do.
    Senator Klobuchar. I know. But do you know why, in your 
current position have you heard why it took so long when HUD 
was able to do it? We are just trying to make it better going 
forward. I am new at this, but I come in and I find out that it 
takes this many years to get something done. It doesn't make 
any sense to me.
    Mr. Gulliford. I can speak to my actions and my commitment 
to completing the rule. I am not aware of the history.
    Senator Klobuchar. OK.
    The other thing I wanted to ask about was the standard that 
you have, because we are working on the Commerce Committee as 
we speak. In the next 2 weeks, we would like to get the bill 
done here and we are working to get a web standard in there for 
these toys. As Senator Boxer mentioned, there is a voluntary 
standard right now and it is not a strict standard, but it is 
600 parts per million. A lot of States have that, but we don't 
have any set standard on the Federal level. So we were looking 
at this 400 parts per million. Part of that was the standard 
that you use for soil in children's play areas. Do you know 
what this standard is based on, the 400 parts per million?
    Mr. Gulliford. Yes. That is not a hard and fast standard, 
but it is a cleanup standard that is used. It is a cleanup 
guideline. Actually, in cases where lead cleanups of soil are 
done, an effort is made to--while that may be a working point 
to take off from, an effort is made to determine the 
bioavailability that may be in those soils which may require a 
more strict cleanup standard or a less strict cleanup standard. 
But the goal is to develop a cleanup threshold that clearly is 
protective for children.
    Senator Klobuchar. And does the EPA use the same technology 
as the CPSC to test for this lead? It is not a trick question. 
I don't know the answer. I am just trying to figure it out as 
we go forward here.
    Mr. Gulliford. I don't know the answer to that. I know that 
we have equipment that measures the existence of lead in soils, 
and contractors use that equipment in the field regularly. Lead 
is actually then collected for analysis to determine the 
bioavailability of it. There is a test, I believe we always 
refer to it in the field as the pig test, because somehow there 
is some exposure. It is an animal test. I apologize for that, 
but it is designed to determine the bioavailability of that 
lead, and we can then transfer that to the potential for 
children to be exposed from just that lead.
    So there are a number of tests with respect to lead 
important to the health industry, but also important even just 
to the recognition. I am sorry.
    Senator Boxer. I am so sorry to interrupt. We found out we 
have a vote that is starting at around noon, so we are going to 
have to move on.
    Senator Klobuchar. OK. That is fine.
    Senator Boxer. We will leave the record open.
    I did have just one more follow up to you, and I will be 
quick if I can.
    In April, 2006, the Sierra Club petitioned EPA to require 
manufacturers or importers of toy jewelry with .06 percent lead 
to notify the EPA prior to manufacturing or importing these 
articles. That would have been a huge step forward if you had 
done something. I don't mean you personally, the agency.
    In July, 2006, EPA denied this petition because, ``These 
actions are not petitionable under TSCA Section 21.'' Our 
attorneys believe under Section 5 the EPA does have this 
authority. What is your opinion?
    Mr. Gulliford. Those actions that we have taken as a result 
of that petition and as a result of a lawsuit that followed up 
with that, we believe are consistent with the TSCA authorities, 
and those are the three things that I have described that we 
have taken since, again, that initial petition by the Sierra 
Club, again to request information on existing health studies, 
to inform companies of their obligation to disclosure, and also 
though to express our concern to CPSC for again the import of 
products.
    Senator Boxer. OK. Well, you haven't issued a rule on this. 
Do you plan to do that?
    Mr. Gulliford. Pardon?
    Senator Boxer. Do you plan to issue a rule on that?
    Mr. Gulliford. We at this point do not plan to. We are 
preparing, yes, a rule again that requires any companies that 
import products, they are aware of health studies related to 
those products to disclose them. Yes.
    Senator Boxer. What if they are not aware?
    Mr. Gulliford. Pardon?
    Senator Boxer. What if they are not aware? I mean, that is 
the weakest thing I have ever heard, but let me move on.
    In April, 2006, Sierra Club petitioned EPA to issue quality 
control orders if EPA found companies producing toy jewelry 
that presents an unreasonable risk. Do you know what EPA said? 
``Information suggests there may be numerous instances where 
toy jewelry containing lead is still available in the 
marketplace.'' They refused to do it because the problem was so 
widespread. I mean, this is outrageous. And you know, I have to 
say, just because we need to move on, sir. I respect that you 
are trying to do your best, but I have to say you just tell a 
parent, oh, that was the Consumer Product Safety job, not my 
job. I will let them do it. People don't get it out there. This 
is America. We are one national Government. We are supposed to 
protect our kids.
    So I just want to give you a little encouragement to be 
stronger than the agency has been in the past. Because I will 
tell you why, Senator Inhofe is 100 percent correct on the 
great progress we have made with lead paint. This is a new 
problem, and he is also right to say the vast majority is 
coming from abroad. Some of these products are assembled in 
America, however, and all of them have American toy company 
labels, pretty much.
    So you have more jurisdiction than you are stepping up to 
the plate to handle. So we don't have enough time to debate 
this anymore today, but I think you get the sense that although 
we might disagree on how to move forward, I think all of us on 
this Committee really want to address this matter. We think it 
is something we can do together. So if you could go back and 
talk to your lawyers and folks. We are going to follow some of 
your progress. I think Senator Inhofe is right on that. Keep us 
informed on how the rule is coming, the remodeling rule. We 
will stay in close touch with you.
    Thank you very much, sir.
    Mr. Gulliford. Thank you.
    Senator Boxer. If I could ask the next panel to come up. 
Because of time, do it fast as you can. Get the lead out of 
your feet. Where did that come from?
    [Laughter.]
    Senator Boxer. Because I know Senator Inhofe is 
particularly interested in the homebuilding perspective, we are 
going to start with that witness first.
    OK. We are also going to ask our friends on the panel to go 
from 5 minutes to 4 minutes, so do your best.
    The vote hasn't been set yet, Senator, so that is good 
news.
    OK. We can go back to 5 minutes.
    Let's see. Let's start with Mr. Nagel, because I think you 
represent the National Association of Homebuilders, and I think 
Senator Inhofe had asked that you go first, sir. Go right 
ahead.
    Mr. Nagel. Thank you.
    Senator Boxer. And you have 5 minutes.

  STATEMENT OF MIKE NAGEL, CGR, CAPS, REMODELONE-DESIGN/BUILD 
    CONSTRUCTION, ON BEHALF OF THE NATIONAL ASSOCIATION OF 
               HOMEBUILDERS, REMODELER'S COUNCIL

    Mr. Nagel. Madam Chair, Ranking Member Inhofe, and 
distinguished members of the Committee, my name is Mike Nagel. 
I am a professional remodeler from Chicago, Illinois, and 
Chairman of the NAHB Remodelers, a 14,000 member organization 
within the Association of Homebuilders, the federation 
representing 235,000 members in the homebuilding, remodeling, 
multifamily, and light commercial construction industry.
    I appreciate the opportunity to testify on behalf of 
professional remodelers using lead-safe renovation and repair 
practices and reducing lead levels in older homes and helping 
to eliminate instances of lead exposure. I will also discuss 
ways that Congress can encourage lead-safe remodeling and 
training for contractors and enhanced public awareness of the 
danger of lead hazards in do-it-yourself projects in older 
homes.
    Despite decades of effort, lead poisoning remains a 
critical problem facing young children living in older homes 
and housing units. The CDC estimates that nearly 40 percent, or 
38 million homes, in the U.S. may contain lead-based paint, but 
those built after 1960 only make up about 2 percent, according 
to HUD research. In 1978, strict limitations were imposed on 
the use of lead paint, but the Nation's housing stock continues 
to age and deteriorate, creating pathways for exposure. For 
young children, lead exposure usually comes from ingesting 
peeling paint, chewing or mouthing painted surfaces, or hand to 
mouth exposure from dust.
    Thus, with limited resources, it is crucial to focus 
attention on pre-1960 privately owned housing units, which are 
disproportionately inhabited by lower-income residents and 
where young children are more likely to reside. The challenge 
is to find the best way to improve the conditions of older 
homes and to maximize the public and private sectors' resources 
in reducing childhood lead exposure.
    NAHB Remodelers have responded to this challenge by 
implementing extensive training and public awareness programs, 
and have worked cooperatively with the EPA and other advocacy 
groups to promote voluntary programs for lead-safe work 
practices.
    Because we are dedicated to lead-safe remodeling, NAHB 
commissioned an extensive research project in 2006 to carefully 
analyze remodeling and renovation work as it is performed in 
the field. The project collected air and surface samples from 
unoccupied homes that contain lead-based paint in the areas of 
the home where the remodeling work was conducted. In all, 342 
air samples and 407 surface dust samples were collected from 
five homes in the Northeast and Midwest. My written testimony 
details more specifics about the research, but the results 
confirmed that lead-safe work practices substantially reduced 
lead dust loadings after remodeling work, and did not create 
new hazards either on surfaces or in the air.
    Furthermore, the research showed that the additional 
control and cleanup methods can deliver even better results. 
Unquestionably, lead-safe remodeling improves conditions in 
older homes, but only if it is performed by professional 
remodelers who are well trained and use specialized equipment. 
If they are subject to additional regulations, inevitably some 
homeowners, particularly lower-income households, will find it 
cost-prohibitive to hire professionals, resulting in homeowners 
either undertaking the work alone or, worse yet, doing nothing 
at all, thus completely undercutting efforts by both the 
Government and our members to eradicate childhood lead 
poisoning.
    As I have explained, our industry is undertaking a 
comprehensive approach to educate, train and inform both 
consumers and contractors about the necessity of lead-safe work 
practices not only in lower-income households, but for all pre-
1978 homes. However, we need Congress to help coordinate and 
combine resources of the Federal agencies working on these 
issues, specifically, EPA, HUD and OSHA, and target pre-1960 
homes where young children reside.
    Furthermore, Congress should support the use of lead-safe 
work practices for owners of multifamily properties and 
remodelers who work in pre-1978 housing. NAHB also urges 
Congress to fully fund the training requirements of HUD and EPA 
lead-based paint regulations so they are functional and operate 
as Congress intended.
    Finally, Congress should ensure that professional lead-safe 
remodeling is encouraged, and not saddled with costly 
regulatory requirements that could pose a further disincentive 
for homeowners to undertake necessary repair and renovation 
work.
    I thank you for the opportunity to testify today about the 
progress the our members are making in the fight against 
childhood lead poisoning. We share the common goal of 
eradicating it entirely and professional remodelers are 
committed to helping homeowners create a lead-safe environment 
for their children.
    [The prepared statement of Mr. Nagel follows:]

      Statement of Mike Nagel, CGR, Caps, Remodelone-Design/Build 
  Construction, on behalf of the National Association of Homebuilders 
                          Remodeler's Council

    This written statement is respectfully submitted on behalf 
of the National Association of Home Builders (NAHB) on the 
issue of children's health and lead. NAHB is a national 
federation representing more than 235,000 members involved in 
single family and multifamily home building, remodeling, light 
commercial construction and housing finance. This testimony, as 
presented by Mike Nagel, a professional remodeler from Chicago, 
Illinois, and the current Chairman of the NAHB Remodelers, a 
14,000-member organization within NAHB, details facts about the 
strides that are being made by professionally trained 
remodelers to reduce lead exposure for children living in older 
homes throughout the United States.


                              introduction


    Despite decades of effort and more than 10 years of 
continually declining lead levels, lead poisoning remains an 
important problem facing some of our nation's youth. According 
to the Centers for Disease Control and Prevention (CDC), as 
reported by the U.S. Environmental Protection Agency (EPA), 
approximately 40 percent of all U.S. housing units (about 38 
million homes) have some lead-based paint.\1\ For the most 
part, older homes are more likely to have lead-based paint 
hazards because of the use of lead as a primary ingredient in 
many oil-based interior and exterior house paints used 
throughout the 1940's and 1950's.\2\ Though the Consumer 
Product Safety Commission (CPSC) finally imposed strict 
limitations on the use of lead in paint for toys, residences, 
and public areas in 1978, the nation's stock of pre-1980 
housing continues to age and deteriorate, and the deteriorated 
paint creates pathways for lead exposure to the residents in 
our homes who are the most easily susceptible to the damaging 
effects of lead poisoning--children.\3\
---------------------------------------------------------------------------
    \1\U.S. EPA, 2006. Economic Analysis for the Renovation, Repair, 
and Painting Program Proposed Rule. Chapter 3.2.3, page 10.
    \2\Ibid., Chapter 3.1.1, page 1.
    \3\Ibid., Chapter 3.1.1, page 1.
---------------------------------------------------------------------------
    Children are more sensitive to health problems from lead 
exposure, often attributable to contact with lead in their 
home. Young children are the most affected by lead in the home, 
first because they are more likely to ingest contaminants and 
other toxics by virtue of hand-to-mouth contact, and second, 
because their central nervous system is still developing. The 
most likely source is ingestion from peeling or cracking paint, 
paint chips, chewing, mouthing painted surfaces, or through 
leaded dust on the hands. Additionally, outside the home, lead 
can arrive on the property through airborne emissions from lead 
smelting, battery manufacturing, solid waste incineration,\4\ 
or even transportation. In whatever instance it occurs, 
children with elevated blood lead levels are reported to have 
lower IQ scores and face other challenges in mental and 
intellectual development. Therefore, it is imperative that 
something be done to address childhood lead exposure in older 
homes that may be in disrepair, or that may contain lead-based 
paint.
---------------------------------------------------------------------------
    \4\U.S. EPA. 2006. Economic Analysis for the Renovation, Repair, 
and Painting Program Proposed Rule.
---------------------------------------------------------------------------
    Following passage in 1992 of Title X Lead-Based Paint 
Hazard Reduction Act,\5\ three Federal agencies--U.S. EPA, 
Department of Housing and Urban Development (HUD), and OSHA and 
one Presidential taskforce\6\ conducted research, developed 
policies and regulations, and made recommendations on how to 
reduce the risks of childhood lead-based paint poisonings from 
deteriorated lead-based paint. Some important findings came 
from national surveys for lead-based paint in housing conducted 
in 1990 and again in 2001 by HUD. For example, HUD's surveys 
found only 2 percent of the homes built after 1960 were likely 
to contain any deteriorated lead-based paint, however that 
percentage increased to 25 percent for homes built between 1940 
and 1959, and finally increased to 56 percent for homes built 
before 1940.\7\
---------------------------------------------------------------------------
    \5\Title X (pronounced Title Ten) of the Lead-Based Paint Hazard 
Reduction Act of 1992, P.L. 102--550
    \6\Presidential Task Force Eliminating Childhood Lead Poisoning: A 
Federal Strategy Targeting Lead Paint Hazards, February 2000.
    \7\U.S. Department of Housing and Urban Development, National 
Survey of Lead & Allergens in Housing: Final Report, Volume I: Analysis 
of Lead Hazards. Office of Lead Hazards Control, Washington, DC, 
Page(s) 4--6 and 4--7, April 18, 2001.
---------------------------------------------------------------------------
    Armed with this data, it makes sense for Federal agencies 
to target their control strategies on housing and areas of the 
country where the greatest risks are known to exist. HUD's 
findings, coupled with numerous government and university 
studies, confirm that the focus should clearly rest on 
addressing the housing of primary concern. As identified in 
extensive research by CDC, HUD, and the President's Task Force 
on Lead-Based Paint: ``The program (elimination of [Lead-Based 
Paint] poisoning in children) should continue to emphasize 
control of lead paint hazards in pre-1960 low-income privately 
owned housing units where young children are expected to 
reside.''\8\
---------------------------------------------------------------------------
    \8\President's Task Force on Environmental Health Risks & Safety 
Risks to Children, Eliminating Childhood Lead Poisoning: A Federal 
Strategy Targeting Lead Paint Hazards, Washington, DC, Page 29. 
February 2000.
---------------------------------------------------------------------------
    Thus, the challenge before us today is to recommend the 
best way to leverage the combined resources of private and 
government sectors to focus on those residential structures 
(pre-1960) that pose the most significant risks of lead-based 
paint exposure to children while still providing an adequate 
level of protection for children across all income levels in 
all housing built before 1980. NAHB's response to this 
challenge is to ensure that all contractors and homeowners are 
aware of lead-safe work practices and to recommend that Federal 
and State agencies continue to focus their limited resources on 
finding and eradicating lead hazards in child-occupied housing 
built prior to 1960.


             professional remodeling improves lead hazards


    Extensive public debate has already taken place about who 
should ultimately be held responsible for children's exposure 
to lead-based paint in homes. While this debate goes on, NAHB 
Remodelers are improving the conditions of our nation's older 
homes by renovating, repairing, and repainting with lead-safe 
work practices performed by trained remodeling professionals. 
Furthermore, NAHB members continue to educate consumers about 
the dangers of lead hazards in homes and the potential 
consequences of unprofessional or unsafe do-it-yourself 
remodeling activities that can exacerbate lead hazards and 
actually create more health problems in the long term.
    In 2006, NAHB commissioned a substantial research project 
to measure the amount of lead dust generated by home 
improvement contractors using typical renovation/remodeling 
activities and to assess whether these routine activities 
increased lead dust levels in the work area and the property. 
This research was conducted by Atrium Environmental Health and 
Safety Services, LLC (Atrium), an environmental research 
services firm that employs a staff of Certified Industrial 
Hygienists and environmental and health safety specialists who 
evaluate, develop, and implement programs to minimize hazards 
and comply with current environmental, health and safety 
regulations, standards and guidelines.
    The Atrium project consisted of onsite field data 
collection from actual homes containing lead-based paint in the 
Northeast and Midwest. During the data collection phase, 342 
air samples and 407 surface dust samples were collected during 
60 typical R&R activities in five separate, unoccupied 
residential properties located in Roselle, Illinois; 
Wallingford, Connecticut; Farmington, Connecticut; Cheshire, 
Connecticut; and Milwaukee, Wisconsin. The project was designed 
to evaluate routine remodeling and renovation activities that 
normally occur in the marketplace and that represent the most 
common jobs performed by renovation and remodeling firms. Lead 
dust loadings were measured on the surfaces and in the air both 
before and after the work took place. The remodeling and 
renovation work itself was performed by trained and licensed 
professional renovation and remodeling contractors in each of 
the areas where the property was located and the final survey 
data was reviewed by the National Center for Healthy Housing 
(NCHH) as a means of quality control, in which NCHH conducted 
statistical analyses of the sampling results.\9\
---------------------------------------------------------------------------
    \9\Attached is a copy of the Executive Summary of the Atrium survey 
project. NAHB is happy to provide the entire Atrium report, which is a 
comprehensive and substantive analysis detailing the entire work 
project including all recordable data collection results.
---------------------------------------------------------------------------
    The results of the research showed a clear improvement in 
the amount of lead dust loadings from nearly every type of 
typical remodeling activity with the exception of mechanized 
sanding events.\10\ The Atrium project data revealed that 
renovation and remodeling activities did not create new lead 
hazards and in all properties except one (Farmington, 
Connecticut, where an unshrouded power sander was used 
extensively), the lead dust loadings on surfaces were lower 
after the remodeling contractors completed the work than when 
they arrived. As for air exposure, the results also showed a 
trend of reductions in airborne lead based on personal 
breathing zone air sample results.
---------------------------------------------------------------------------
    \10\Additionally, work practices identified by HUD as 
``prohibited''--including open-flame burning, torching, or the use of 
volatile paint strippers in an enclosed space--were explicitly avoided 
in this project.
---------------------------------------------------------------------------
    In addition to these results, the Atrium project data also 
demonstrated that several practices, associated with lead-safe 
remodeling and renovation generally, produced remarkable 
reductions in overall lead dust loadings. For example, misting 
surfaces with water during the renovation work showed a 
significant reduction in airborne lead dust levels when 
compared to events where no misting was used. Furthermore, the 
use of a HEPA filter-equipped vacuum cleaner, combined with 
either wet wiping or Swiffer mops during post-work clean-up 
showed the greatest effect on reducing lead loading in surface 
dust. Combining these two activities could reap even greater 
benefits for reducing lead dust and further improving pre-work 
conditions in lead-affected homes.
    The overall conclusions of the Atrium project reinforce 
what has been commonly believed among remodelers for a long 
time: lead-safe remodeling and renovation activities performed 
by a trained professional can remarkably improve lead dust 
loadings in older homes. It is also our belief that it can 
improve the health and welfare of the home's residents, 
particularly young children. Ultimately, lead-safe professional 
remodeling is one of the best lines of defense for reducing 
lead exposure for children living in older homes and it should 
be encouraged. The CDC agrees that the ``use of lead safe work 
practices during renovation can advance the goal of primary 
prevention of lead poisoning.''\11\ As leaders in the fight to 
reduce lead hazards in homes, and reduce pathways to childhood 
lead poisoning, we applaud the work of professional remodelers 
and the substantial improvements they make to older homes.
---------------------------------------------------------------------------
    \11\U.S. EPA, 2006. Economic Analysis for the Renovation, Repair, 
and Painting Program Proposed Rule. Chapter 3.2.3, page 10.
---------------------------------------------------------------------------


                 the dangers of do-it-yourself and lead


    In the U.S. today, there are approximately 120 million 
existing homes that embody the full range of structural and 
environmental soundness. Many of these homes and older housing 
units need serious renovation and repair work, but often this 
work cannot be undertaken due to cost limitations, especially 
for lower-income households. To their own detriment, some 
individuals attempt to undertake this work via untrained 
contractors or do-it-yourself projects, and consequently 
dramatically increase instances of lead exposure for the home's 
residents. In this regard, Congress has a real opportunity to 
protect the health, safety, and welfare of its citizens by 
prescribing methods by which professional remodeling using 
lead-safe work practices becomes the viable alternative to any 
potentially harmful do-it-yourself venture, or worse, the 
hiring of cheap contractors who are not adequately trained to 
undertake the work.
    Unfortunately, there are many cases in which lead poisoning 
has resulted from home renovation activities undertaken by 
well-intentioned homeowners who simply want, or need, to save 
some money. In reality, hiring a professional trained in lead-
safe work practices usually costs more than doing it alone, or 
contracting an untrained handyman. Professionals are more 
careful, which increases the length of time of the project; 
require specialized equipment (respirators, HEPA vacuums, 
etc.); and often employ highly skilled laborers. For homeowners 
who want to be frugal, or that want to complete a project in a 
faster timeframe, it may seem infeasible or less desirable to 
hire a professional. The option of choosing the untrained 
contractor, or undertaking dangerous work alone, can become a 
real, albeit worrisome, alternative because it appears to be 
more affordable.
    In light of this situation, there are a number of 
regulatory factors that need careful consideration for 
addressing childhood lead poisoning in older homes. For 
example, the EPA will soon issue new regulations for 
contractors conducting renovations, repair, and painting for 
pre-1978 homes. Initial drafts of these proposed regulations 
have included a mandatory testing requirement called a 
``clearance test,'' or third-party verification requirement. 
This clearance test will supposedly demonstrate that the 
contractor took the necessary steps to ensure that the home is 
below abatement-level lead levels after remodeling and 
renovation activities are completed. NAHB has substantive 
concerns with the concept of a ``clearance test,'' as well as 
the impacts of such a test's cost on consumer decision making 
when remodeling their home.
    A clearance test is basically designed to prove an 
elimination of the presence of lead in the home, which is 
technically the task of abatement work not remodeling. The law 
already deals separately with abatement regulations. Because 
clearance testing cannot distinguish between lead from 
remodeling versus lead that may have blown in the window, been 
tracked in from outdoors on someone's shoes, or is present in 
the house from some other source, the requirement seems 
inappropriate in a remodeling context. The results of a 
clearance test depend on the entire history of the house and 
its neighborhood, and a remodeler simply is not responsible for 
having this breadth of information.
    Compliance with clearance test requirements will only be 
enforced upon trained remodeling professionals, the very people 
who are most likely to do the work safely. Unlike these 
individuals, the law does not apply to homeowners who do the 
work themselves or to untrained contractors. Neither of these 
two groups has the adequate knowledge, equipment, nor training 
to undertake lead-safe work practices, nor will they be 
required to verify or confirm that the presence of lead in the 
home has been eliminated. This is an incredibly important 
distinction because clearance testing will add additional costs 
only for the professionally trained remodeler. So, choosing a 
professional, in this instance, who will be subject to 
clearance testing requirements is even less affordable to 
consumers who may already have cost constraints.
    It has been established that lead-safe remodeling 
activities performed by professionally trained remodelers 
improve the condition of the home, in terms of lead exposure. 
This should be good for the health and quality of life for the 
home's occupants, especially children. If the government 
imposes a regulatory requirement like a clearance test on 
professional remodelers that further increases costs of hiring 
them, it could create a real disincentive for residents to get 
lead-safe remodeling in the homes with the most critical repair 
and renovation needs. Specifically, lower-income households 
that lack the financial resources to pay for lead-safe 
professional remodeling are disproportionately the ones who 
live in homes that are in the greatest need of repair.
    Potentially, the higher cost could create an incentive for 
low-income consumers to do nothing at all, which further 
undercuts the broader goal of eradicating childhood exposure to 
lead.


            recommendations--education and training programs


    There is clear benefit to the safety of children and proven 
reductions in lead exposures in older homes from professional 
remodeling. NAHB recommends that a combined public and private 
education and training program for home buyers, homeowners, 
remodelers and home improvement contractors would help increase 
public awareness of the dangers of lead exposure in older 
homes. This effort has already begun in the remodeling 
industry, but additional help is needed.
    At the national level, NAHB has taken several steps in the 
last 20 years to increase consumer education on lead-safe work 
practices. NAHB has distributed materials to all its members 
about training and lead-safe work practices from HUD, the
    U.S. EPA, and OSHA. In 1993, NAHB began distributing its 
own publication What Remodelers Need to Know and Do About Lead 
regarding the dangers of prohibited practices (torching, belt-
sanding, scraping) and the importance of proper post-work 
clean-up techniques that minimize lead dust exposure in both 
the work area and the property. NAHB began a public/private 
partnership with EPA in the late 1990's to establish a 
voluntary program to address lead-based paint issues during 
remodeling and renovation and has continually supported robust 
training programs for remodelers and renovators that work in 
pre-1978 homes.
    NAHB also sponsors education courses for builders and 
remodelers at its annual International Builders Show, and in 
other conference settings. In fact, many NAHB Remodeler members 
teach courses in lead-safe work training and mastering lead-
safe work techniques. Education and training has been 
incredibly successful and continues to highlight the importance 
of having adequately trained and knowledgeable remodeling 
professionals to perform renovation and repair work in older 
homes.
    In addition to the efforts noted above, NAHB urges Congress 
to do the following:

     Instruct and ensure that HUD and the U.S. EPA target the 
limited resources and enforcement assets concerning mandatory 
lead hazard evaluation and reduction toward those units 
constructed prior to 1960 and likely to be occupied by a child 
under the age of six.
     Support the development and use of voluntary training and 
lead-safe work practices for owners of multifamily properties 
and remodelers who work in residential properties built from 
1960--1978 and are believed to contain lead-based paint.
     Direct HUD, the U.S. EPA, and OSHA to work together to 
reconcile the differences in work practices and allow 
reciprocity for training and certification requirements for 
remodelers and multifamily property owners to facilitate 
achieving the goals of eliminating childhood lead poisoning in 
the most efficient and cost-effective manner.
     Fully fund the training requirements in the HUD and U.S. 
EPA lead-based paint regulations so that they can operate and 
function as Congress intended.


                              conclusions


    Professional remodeling, renovation, and repair work, 
performed by knowledgeable, trained contractors, can serve as 
an agent against spreading lead hazards in older homes and 
further endangering the health and welfare of our nation's 
children. NAHB urges Congress to work with the relevant Federal 
agencies (HUD, U.S. EPA, and OSHA) to coordinate efforts, to 
fully fund important lead-safe training programs, and to 
effectively use the combined resources in a way that maximizes 
outcomes. NAHB cautions against imposing inappropriate and 
costly regulatory burdens on professional remodelers that would 
be cost-prohibitive for consumers to hire trained professionals 
or that could lead to further proliferation of potentially 
harmful do-it-yourself projects. NAHB is working hard to 
promote the value of lead-safe work practices and the benefits 
of professional remodeling for older homes and encourages 
effort by Congress.
    NAHB Remodelers are working hard to educate consumers, 
train professionals, and perform lead-safe work practices. 
Research data confirms that lead-safe remodeling and renovation 
improves lead levels in older homes, and that new hazards are 
not created when typical remodeling and renovation activities 
are undertaken by trained professionals. NAHB has invested 
significant resources in both education and research about the 
benefits of lead-safe work practices and looks forward to 
working with Congress to expand on efforts like these in the 
future.
[GRAPHIC] [TIFF OMITTED] T3577.094

[GRAPHIC] [TIFF OMITTED] T3577.095

[GRAPHIC] [TIFF OMITTED] T3577.096

[GRAPHIC] [TIFF OMITTED] T3577.097

[GRAPHIC] [TIFF OMITTED] T3577.098

[GRAPHIC] [TIFF OMITTED] T3577.099

[GRAPHIC] [TIFF OMITTED] T3577.100

            Responses by Mike Nagel to Additional Questions 
                          from Senator Inhofe

    Question 1. How do we avoid creating a disincentive for individual 
homeowners to take matters into their own hands and repair and 
inadvertently increase the lead hazards to their chilren?
    Response. The best way to avoid consumer disincentives is to ensure 
that professional remodeling remains affordable to those who live in 
/target housing. This is accomplished by reducing unnecessary or 
excessive costs from training, extensive recordkeeping, cleaning 
verification (third party abatement-style clearance testing as 
suggested by some health advocates) and maintaining liability 
insurance. The economic analysis EPA prepared for the Lead: Renovation, 
Repair and Paint (RRP) rule addresses the first three of these cost 
centers.\1\
---------------------------------------------------------------------------
    \1\U.S. Environmental Protection Agency, Economic Analysis for the 
Renovation, Repair, and Painting Program Proposed Rule, (February 
2006).

        a. The benefits of the rule shown in EPA's economic analysis 
        can only be actualized if a professional remodeler performs the 
        work. In as much as the benefits from the rule scarcely 
        outweigh the costs, there are little benefits if a homeowner or 
        black-market contractor does the RRP project and no benefit if 
---------------------------------------------------------------------------
        nothing is done.

        b. Cleaning verification, or the more arduous dust-wipe 
        clearance testing provides very little benefit to achieve the 
        desired outcome.

            i. EPA's economic analysis states that clearance testing 
            only adds a 2 percent benefit to the proposed rule and that 
            98 percent of the benefit is achieved by cleaning to a 
            level of no visible dust and debris.\2\
---------------------------------------------------------------------------
    \2\U.S. Environmental Protection Agency, Economic Analysis for the 
Renovation, Repair, and Painting Program Proposed Rule, ch. 7, p. 19 
(February 2006).

            ii. In a survey done by NAHB, 81 percent of consumers, who 
            were fully aware of the dangers of lead, were not willing 
            to pay $200 extra on a remodeling project for a clearance 
            test. This amount is a far cry from the actual costs of 
            clearance testing.\3\
---------------------------------------------------------------------------
    \3\National Association of Home Builders, Report on Lead Paint Test 
Survey (April 2007) (NAHB Report).

            iii. This unwillingness to pay for clearance testing marks 
            a crucial disincentive for homeowners. Along with the 
            requirement to disclose ``the presence of any known lead-
            based paint'' (40 CFR745.100), these disincentives provide 
            strong motivation for homeowners to avoid complying with 
---------------------------------------------------------------------------
            the rule and performing the renovations themselves.

        c. Some training costs are unavoidable as training in lead-safe 
        work practices is essential to the performance of proper 
        procedures in renovating target housing. However, the proposed 
        rule imposes a training regime that is unnecessarily costly 
        because of its inflexibility, inconsistency and authorizing 
        states, territories and tribes to establish their own training 
        programs.

            i. Inflexible--the 8-hour training requires 2 hours of 
            hands-on training, which eliminates the option of distance 
            learning, video, or internet training.

            ii. Inconsistent--individuals, renovation firms, and 
            trainers are working on different timelines for re-
            certification. Individuals and firms re-certify every 3 
            years; training course re-accreditation occurs every 4 
            years. If training courses need to be updated every 4 
            years, then renovator refresher and firm re-certification 
            should follow the same timeline.

            iii. Grandfathering'--remodelers who have already taken the 
            approved HUD/EPA ``Lead Safety for RRP'' is not addressed 
            in the rule.

            iv. State/Local Program--Under EPA's proposed rule, either 
            states or EPA can provide certification to remodeling 
            firms. However, remodeling firms that work in metropolitan 
            areas bordering multiple states (e.g., Chicago, IL, New 
            York City, NY, Washington DC, St. Louis, etc.) face 
            multiple State licensing fees to comply with the same 
            Federal requirement. Therefore, training program 
            accreditation should remain with EPA alone. By retaining 
            responsibility for training accreditation, the rule can 
            avoid an unnecessary patchwork of differing State 
            requirements.
    Considering the monumental task of training a sufficient 
professional base, EPA estimates in its economic analysis that a 
minimum of 311,000 certified renovators, expanding opportunities for 
training, `grandfathering' and consistency are required.\4\
---------------------------------------------------------------------------
    \4\U.S. Environmental Protection Agency, Economic Analysis for the 
Renovation, Repair, and Painting Program Proposed Rule Table 4--14 
(February 2006).

        d. The recordkeeping requirements for the proposed rule are 
---------------------------------------------------------------------------
        onerous and unrealistic.

            i.The rule does not tie the record of the remodeling event 
            to the property, where it would be accessible for 
            subsequent purchasers or clientele of a child occupied 
            facility.

            ii. They require meticulous detail concerning every 
            procedure--remodeling, cleaning, waste-handling, 
            certification, the posting of signs, even copies of 
            certified renovators training certificates, etc.

            iii. Certain document retention is unrealistic. For 
            example, ``documentation of compliance'' can be defined as 
            requiring the firm to keep dust wipes on file for 3 years 
            after a project. In a filing cabinet, those dust wipes are 
            subject to contamination from sources foreign to the 
            project it is representing, rendering the wipes invalid and 
            subjecting the firm and renovator to noncompliance and the 
            liability associated with it.
    Moreover, the excessive paperwork generated by the recordkeeping 
requirements violates the principles of the Paperwork Reduction Act. A 
simple checklist that identifies which renovation activities were 
undertaken, lists certified renovators' registration numbers and a 
simple statement of compliance that begins ``Under penalty of law. . . 
'' could remedy the recordkeeping difficulties.

        e. There is a lack of available liability insurance for 
        remodelers who disturb or might disturb lead-based paint. Most 
        policies contain ``absolute pollution exclusions'' which 
        exclude coverage for claims from RRP projects generating 
        presumed pollutants, including lead. There is also no 
        regulatory ``safe harbor'' for remodelers who perform RRP. In 
        1992, the Senate requested the feasibility of standards for a 
        ``safe harbor'' that exempted owners and lenders from liability 
        if particular procedures and demonstrable compliance were 
        achieved.\5\ Remodelers working in target housing should be 
        given similar consideration.
---------------------------------------------------------------------------
    \5\U.S. Senate Committee on Banking, Housing & Urban Affairs, 
Senate Report P.L. 102--550, Housing and Community Development Act of 
1992, S. Rep. No. 102--332, p. 12 (July 23, 1992)
---------------------------------------------------------------------------
    Anecdotally, an NAHB remodeler member in Rhode Island recently had 
liability coverage canceled by the insurer after the company realized 
the member was working in homes, which may be contaminated with lead.
    Question 2. What is the likelihood that remodelers will just avoid 
performing renovations of homes built proir to 1978, therefore keeping 
older housing ina state of continual deterioration?
    Response. The likelihood that many remodelers will avoid working in 
pre-1978 houses is extremely high, as a means to avoid non-compliance 
with the proposed rule, as expressed in the response to Question 1. 
Avoiding the repair or remodeling of a home is the worst-case scenario 
for the nation's older housing stock. A 2003 study acknowledged that 
simply cleaning dust and debris without addressing potential sources of 
lead dust is ``unlikely to result in significant and sustained 
reductions in dust lead loadings.''\6\ Similarly, remodeling done by 
the homeowner or untrained contractor is also hazardous and does not 
lower dust lead loadings, but in fact increases dust lead loading 
levels and increases the potential for childhood lead poisoning (1999 
U. of Iowa & 1999 EPA Wisconsin studies). Moreover, in situations where 
untrained do-it-yourself renovations occur, children may be underfoot, 
the children's eagerness to help tragically endangering their own 
health. Likewise, in renovations done by untrained contractors, work 
areas not cordoned off and left exposed pose sure risks for lead 
poisoning.
---------------------------------------------------------------------------
    \6\Tohn, E.R., et al., ``An Evaluation of One-time Professional 
Cleaning in Homes with Lead-based Paint Hazards.'' Applied Occupational 
and Environmental Hygiene, 18 no.2, 138--143 (2003).
---------------------------------------------------------------------------
    Response. Studies by EPA/Battelle (2007), NAHB (2006), and the New 
Jersey School of Medicine (2004) all established that professional 
remodeling reduces lead dust loading levels from their pre-construction 
levels. These studies also demonstrated which practices should be 
prohibited and identified instances in which extra care needs to be 
taken, i.e., cleaning rough surfaces.
    Question 3. Are you concerned that contractore may be held 
responsible for lead tht remains in the home after the work is 
completed, even when the lead condition is drasticlly improved?
    Response. Yes, NAHB Remodelers are concerned with potential 
liability for lead sources left in homes after remodeling activities 
are completed. Both Congress and the EPA have recognized that abatement 
and renovation are separate activities.\7\ 40 C.F.R.745.83 states:
---------------------------------------------------------------------------
    \7\15 USC2682(c)
---------------------------------------------------------------------------
    Response. Renovation means the modification of any existing 
structure, or portion thereof, that results in the disturbance of 
painted surfaces, unless that activity is performed as part of an 
abatement as defined by this part (40 CFR 745.223). The term renovation 
includes (but is not limited to): the removal or modification of 
painted surfaces or painted components (e.g., modification of painted 
doors, surface preparation activity (such as sanding, scraping, or 
other such activities that may generate paint dust)); the removal of 
large structures (e.g., walls, ceiling, large surface replastering, 
major re-plumbing); and window replacement.
    and 40 C.F.R.745.223 reads:
    Abatement does not include renovation, remodeling, landscaping or 
other activities, when such activities are not designed to permanently 
eliminate lead-based paint hazards, but, instead, are designed to 
repair, restore, or remodel a given structure or dwelling, even though 
these activities may incidentally result in a reduction or elimination 
of lead-based paint hazards. Furthermore, abatement does not include 
interim controls, operations and maintenance activities, or other 
measures and activities designed to temporarily, but not permanently, 
reduce lead-based paint hazards.
    Any removal of lead sources during renovation activities is 
strictly coincidental and remodeling does not require the complete 
removal of all sources of lead. As stated in response #1, there is no 
``safe harbor'' for remodelers who use lead-safe work practices and 
demonstrate compliance with the proposed rule. The Senate Committee 
said,
    The task force would, in particular, consider the efficacy of 
adopting measures to reduce the liability of lenders and owners of 
multifamily housing by clarifying standards of care or adopting a 
statutory ``safe harbor''. The Committee expects that the task force 
would consider whether it makes sense to develop a set of standards 
that, if followed by owners and lenders, would adequately protect 
building residents from exposure to lead-based paint. Owners or lenders 
who could demonstrate compliance with such standards would be exempted 
from liability for harm that resulted in spite of their exercise of 
``due care.''\8\
---------------------------------------------------------------------------
    \8\Supra n. 5, S. Rep. No. 102--332 at----(1992).
---------------------------------------------------------------------------
    These thoughts were expressed during deliberation of Title X. While 
the quote addresses owners and lenders, at this time the same 
consideration should be afforded the remodeler who legitimately 
complies with the proposed rule. Current insurance products contain 
``absolute pollution exclusions'' for contaminants including lead. The 
proposed RRP rule exposes remodelers to potentially excessive legal 
responsibilities with no statute of limitations and no relief for those 
complying with the rule.
    In homes with significantly deteriorated surfaces, such as degraded 
wood floors and windowsills, several studies have shown that although 
lead-safe work practices significantly reduced dust loadings, the 
degraded surfaces still did not meet abatement clearance standards (40 
ug/sq. ft. on floors, 250 ug/sq. ft. on sills).\9\ While the Yiin 2004 
study stated that ``extra care may be necessary on rough surfaces,'' 
the core of the study proved clearance was achieved only 95 percent--98 
percent using LSWP cleaning techniques. Additionally, in an 
Environmental and Occupational Health Sciences Institute study on 
carpets, there were no significant reductions in lead dust loadings 
when using either a standard vacuum or a HEPA-filtered vacuum.\10\ 
These are instances where remodelers are potentially liable for lead 
dust not generated by RRP activities, but which simply exist in the 
conditions prevalent in the dwelling and for which they bear no 
responsibility.
---------------------------------------------------------------------------
    \9\National Association of Home Builders, Lead-Safe Work Practices 
Survey Project Report (November 9, 2006). U.S. Environmental Protection 
Agency, Characterization of Dust Lead Levels after renovation, Repair 
and Painting Activities (January 2007). Yiin, L. et al., Evaluation of 
Cleaning Methods in Home Environments after Renovation and Remodeling, 
Environmental Research, 96 no. 2, 156--162 (2004).
    \10\Yiin, L., et al., ``Comparison of Techniques to Reduce 
Residential Lead Dust on Carpet and Upholstery: The New Jersey 
Assessment of Cleaning Techniques Trial.'' Environmental Health 
Perspectives, 110 no. 12, 1233--1237 (2002).
---------------------------------------------------------------------------
                                 ______
                                 
           Response by Mike Nagel to an Additional Question 
                           from Senator Boxer
    Question. EPA recently proposed to include certain child occupied 
facilities in its lead paint renovation reulemaking.
    Does the National Association of Homebuilders support this 
expansion of the rule?
    Response. NAHB does support the expansion of this rule to child 
occupied facilities (COF) and NAHB has stated its support in the most 
recent comments to the Supplemental Notice of Proposed Rulemaking 
(SNPRM).\11\ NAHB believes this expansion can help meet the goal of 
eradicating childhood lead poisoning. However, there are some concerns 
that the COF only closes a minor `loophole' in reaching that goal. The 
major problem is that it does not include do-it-yourself property 
owners in target housing.
---------------------------------------------------------------------------
    \11\U.S. Environmental Protection Agency, Lead; Renovation, Repair 
and Painting Program, 72 Fed. Reg. 31022 (supplemental notice June 5, 
2007).
---------------------------------------------------------------------------
    Unfortunately, regardless of whether or not EPA decides to apply 
the proposed rule to COF, the majority of renovations covered under the 
proposed rule (above the two-square feet de minimis disturbance) will 
never be affected.\12\ Homeowners, who are not covered by the proposed 
rule, perform the vast majority of these projects. This homeowner 
exclusion is the single largest loophole under EPA's proposed rule. 
While NAHB is not aware of any national data that attempts to quantify 
this gap in coverage, the Harvard University's Joint Center for Housing 
Studies estimated in 2007 that approximately half of all of the 
``major'' remodeling work (defined with a monetary value of $5,000 or 
more) was performed by do-it-yourself-ers.\13\ Given these facts, NAHB 
believes the current loophole allowing untrained homeowners to perform 
renovations means that the vast majority of activities that disrupt 
lead-based paint in target housing will never be covered by EPA's 
proposed RRP rule.
---------------------------------------------------------------------------
    \12\U.S. Environmental Protection Agency, Lead; Renovation, Repair, 
and Painting Program, 71 Fed. Reg. 1588, 1628 (proposed Jan. 10, 2006) 
(to be codified at 40 C.F.R. Part 745)., see proposed 40 C.F.R.745.82
    \13\Joint Center for Housing Studies, Foundations for Future Growth 
in the Remodeling Industry (Harvard University Press. 2007).
---------------------------------------------------------------------------
    Additionally, the expansion in the supplemental notice to include 
COF has many of the same pitfalls of the original proposed rule and 
poses additional concerns.
        a. The definition of COF is vague. The formula for deciphering 
        what is a COF is confusing and certainly, a more 
        straightforward method to determine a COF should be 
        established.\14\
---------------------------------------------------------------------------
    \14\72 Fed. Reg. 31022.

        b. The notification requirements for the COF provision are 
        problematic. The SNPRM requires remodelers to inform clients of 
        the COF about the RRP activities. The remodeler has no 
        contractual connection to the COF client, as he or she is a 
        ``subcontractor'' of the facility's proprietor. These 
        requirements would expose remodelers to further potential tort 
---------------------------------------------------------------------------
        claims.

        c. Owners and lessees of COF have a disincentive to call on 
        professional remodelers because of increased costs that a 
        remodeler would have to absorb from the rule. Peer-reviewed 
        research has documented that ``do-it-yourself-ers'' and 
        untrained personnel leave facilities dirtier (with a higher 
        lead dust loading level) than before the renovation was done. A 
        comparison of the Yiin 2004 study to a University of Iowa 1999 
        study show that professional remodelers clean work areas better 
        than homeowners and landlords.\15\
---------------------------------------------------------------------------
    \15\Yiin, 2004; Erte, LA, et al., An Evaluation of Effectiveness of 
Lead Paint Hazard Reduction when Conducted by Homeowners and Landlords, 
Applied Occupational and Environmental Hygiene, 14 no. 8, 522--525 
(1999).

        d. There are no ``safe harbors'' for remodelers who comply with 
        the rule and remodelers are open to tort claims well after 
        renovations are complete. The SNPRM did not address these 
        liabilities and lack of insurance products available to 
        professional remodelers working in COF with lead paint and the 
        expansion of any claims to clients of the COF.
        e. Cleaning verification or clearance testing blurs the line 
        Congress established between renovation and abatement.

    Senator Boxer. Thank you, sir, for your testimony.
    Now, we are in fact going to have a vote at noon, so we are 
going to have to go back to our 4 minutes.
    Dr. Lanphear, we welcome you. You are a doctor. You are 
Director of Cincinnati Children's Environmental Health Center, 
Professor of Pediatrics and Environmental Health. Go ahead, 
sir.
    Senator Boxer. Thank you, sir, for your testimony.
    Now, we are in fact going to have a vote at noon, so we are 
going to have to go back to our 4 minutes.
    Dr. Lanphear, we welcome you. You are a doctor. You are 
Director of Cincinnati Children's Environmental Health Center, 
Professor of Pediatrics and Environmental Health. Go ahead, 
sir.

STATEMENT OF BRUCE P. LANPHEAR, M.D., MPH, DIRECTOR, CINCINNATI 
CHILDREN'S ENVIRONMENTAL HEALTH CENTER; PROFESSOR OF PEDIATRICS 
                    AND ENVIRONMENTAL HEALTH

    Dr. Lanphear. Thank you very much, Senator Boxer, Senator 
Inhofe.
    Despite the dramatic decline in children's blood lead 
concentrations, which were unquestionably due to the dramatic 
reductions in environmental lead exposure, rather than 
educational efforts, which we continue to rely on for children 
who have blood lead levels less than 10 micrograms per 
deciliter, lead toxicity remains a major public health problem.
    Exceedingly low levels of exposure to environmental lead 
have been associated with an increased risk of diminished 
intellectual ability, reading problems, ADHD, school failure, 
and even criminal behavior in children and young adults.
    Moreover, there is no evidence of a threshold for the 
adverse consequences of lead exposure. Indeed, studies show 
that the detriments in children's intellectual abilities are, 
for a given increase in blood lead concentration, greater at 
blood lead levels less than 10 micrograms per deciliter than 
for the same level of exposure at blood leads above 10.
    On average, there is an estimated two to three IQ point 
decline for children whose blood lead levels increase from 10 
to 20 micrograms per deciliter, but there is an estimated 
decline of four to seven IQ points at blood lead levels below 
10 micrograms per deciliter.
    Thus, if we continue to rely on the 10 microgram per 
deciliter cutoff, which all of us continue to refer to here 
today, we will fail to protect children. Indeed, we will fail 
to protect the vast majority of children, over 90 percent of 
children, who are adversely affected by lead exposure.
    But scientists and pediatricians are finding that the 
affects on intellectual abilities are only the tip of the 
iceberg. Overall, 8.7 percent of U.S. children are estimated to 
have ADHD. In a nationwide survey, we found that children were 
four times more likely to have doctor-diagnosed ADHD and to 
take ADHD medication if they had blood lead levels above two 
micrograms per deciliter. We estimated that one in five 
children's cases of doctor-diagnosed ADHD can be attributed to 
low-level lead exposure.
    There is increasing evidence linking lead exposure with 
conduct disorders, delinquency and criminal behaviors even at 
levels considerably lower than the 10 microgram per deciliter 
action level set by CDC. But lead's effects extend beyond 
childhood. In adults, lead exposure has been associated with 
some of the most prevalent diseases of industrialized society--
cardiovascular disease, miscarriage, chronic kidney disease, 
and accelerated cognitive decline--at levels commonly observed 
throughout the United States population.
    Consistent with research on childhood lead exposure, there 
is emerging evidence indicating that the risk for death from 
heart attacks and stroke, as well as the risk for chronic 
kidney disease, increase at blood lead levels considerably 
lower than 10 micrograms per deciliter.
    The key to prevention is to eliminate environmental lead 
exposure. Federal agencies use a variety of standards for 
unacceptable lead content. It is critical to recognize that all 
of the existing standards were promulgated long before the 
research demonstrated the harmful effects at blood lead levels 
below 10 micrograms per deciliter.
    The recommendations that I have are, first, the U.S. EPA 
should request the National Academy of Sciences to update the 
report on protecting infants, children and pregnant women. This 
report should review and synthesize the existing evidence about 
sources of lead intake. They should evaluate the adverse 
affects of lead at blood lead levels below 10 micrograms per 
deciliter; review and synthesize existing evidence about the 
primary prevention of lead exposure; and make recommendations 
about the primary prevention of lead exposure.
    The U.S. EPA should heed the advice of the Clean Air 
Scientific Advisory Committee and lower the national ambient 
air quality standard for lead to a level no greater than 0.2 
microgram per meter cubed. As recommended by the Clean Air 
Scientific Advisory Committee, the U.S. EPA should reduce the 
existing residential dust lead standards, which are 
insufficient to protect children at blood lead levels of 10 
micrograms per deciliter, let alone children below that value.
    Finally, as recommended by the American Academy of 
Pediatrics and other groups, Federal agencies should require 
all products intended for use by or in connection with children 
to contain no more than trace amounts of lead.
    Thank you.
    [The prepared statement of Mr. Lanphear follows:]

    Statement of Bruce P. Lanphear, M.D., MPH, Director, Cincinnati 
  Children's Environmental Health Center; Professor of Pediatrics and 
                          Environmental Health

    Prior to 1970, lead poisoning was defined by a blood lead 
concentration of 60 ug/dL or higher--a level often associated 
with overt signs or symptoms such as abdominal colic, 
encephalopathy or death (1). Since then, the blood lead 
concentration for defining lead toxicity has gradually been 
reduced from 60 ug/dL to 40 ug/dL in 1971, to 30 ug/dL in 1978, 
and to 25 ug/dL in 1985. In 1991, the Centers for Disease 
Control further reduced the definition of undue lead exposure 
to a blood lead concentration of > 10 ug/dL (1).
    Children's blood lead concentrations have declined 
dramatically over the past 30 years. In the 1970's, 88 percent 
of U.S. children younger than 6 years were estimated to have a 
blood lead concentration > 10 ug/dL (2). When lead was at long 
last banned from paint, lead solder in canned foods and phased 
out of gasoline, children's blood lead levels plummeted (2). By 
the early 1990's, fewer than 5 percent of children younger than 
6 years were estimated to have blood lead concentrations > 10 
ug/dL (3).
    Despite the dramatic decline in children's blood lead 
concentrations, lead toxicity remains a major public health 
problem. Exceedingly low-levels of exposure to environmental 
lead have been associated with an increased risk for reading 
problems, ADHD, school failure, delinquency and criminal 
behavior in children and adolescents (4--9). Moreover, there is 
no evidence of a threshold for the adverse consequences of lead 
exposure (10--13). Indeed, studies show that the decrements in 
intellectual function are, for a given increase in blood lead 
concentration, greater at blood lead levels < 10ug/dL (10--13), 
the level considered acceptable by the Centers for Disease 
Control. On average, there is an estimated decline of 2 to 3 IQ 
points for children whose blood lead levels rise from 10 to 20 
ug/dL, but there is an estimated decline of 4 to 7 IQ points 
for children whose blood lead levels rise from 1 ug/dL to 10 
ug/dL (10--11).
    Lead's effects extend beyond childhood. In adults, lead 
exposure has been associated with some of the most prevalent 
diseases of industrialized society: cardiovascular disease 
(14--15), miscarriage (16), renal disease (17--18) and 
cognitive decline (19). Consistent with research on childhood 
lead exposure, there is emerging evidence indicating that the 
risk for death from heart attacks and stroke, as well as the 
risk for chronic kidney disease, occur at blood lead levels 
considerably lower than 10 ug/dL.
    The key to primary prevention is to eliminate environmental 
lead exposure. Federal agencies use a variety of standards for 
unacceptable lead content. It is critical to recognize that all 
of these standards were promulgated long before research 
demonstrated the harmful effects of lead at blood lead levels 
below 10 ug/dL. Because there is no known safe level of lead 
exposure, exposure to lead below these existing standards 
should not be considered ``safe.''
    Prevention of lead toxicity will, first and foremost, 
require a declaration of the full scope of the problem. Thus, 
the CDC's level of concern should be lowered to a blood lead 
level < 5 ug/dL because society cannot respond to a threat 
until it first acknowledges it. It will require the revision of 
regulations to further reduce airborne lead exposure; screening 
of high-risk, older housing units to identify lead hazards 
before a child is exposed--before occupancy, after renovation 
or abatement; reductions in allowable levels of lead in water; 
and stricter regulations and enforcement on the allowable 
levels of lead in toys, jewelry and other consumer products. 
Finally, protecting children will require eliminating all non-
essential uses of lead.

                            RECOMMENDATIONS:

    1. The US EPA should request the National Academies of 
Science to update the Report on Protecting Infants, Children 
and Pregnant Women. This Report should review and synthesize 
the existing evidence about sources of lead intake; evaluate 
the adverse effects of lead at blood lead levels < 10 ug/dL; 
review and synthesize existing evidence about primary 
prevention of lead exposure and; make recommendations about the 
primary prevention of lead exposure.
    2. The US EPA should heed the advice of the Clean Air 
Scientific Advisory Committee and lower the National Ambient 
Air Quality Standard NAAQS) for Lead to a level no greater than 
0.2 ug/m3.
    3. As recommended by the Clean Air Scientific Advisory 
Committee, the U.S. EPA should review the existing residential 
dust standards to ensure that they are sufficiently low to 
protect children.
    4. The US EPA should review the water lead standard to 
ensure that it is sufficiently low to protect children.
    5. As recommended by the American Academy of Pediatrics, 
the Federal Government should require all products intended for 
use by or in connection with children to contain no more than 
trace amounts of lead.
    6. As recommended by the American Academy of Pediatrics, 
the US EPA should define a ``trace'' amount of lead in consumer 
products as no more than 40 ppm, the upper range of lead in 
uncontaminated soil.
    7. As recommend by the American Academy of Pediatrics, 
``children's product'' should be defined to ensure it will 
cover the wide range of products used by or for children under 
the age of 12 years.
    8. As recommended by the American Academy of Pediatrics, 
the limit on lead content must apply to all components of the 
item or jewelry or other small parts that could be swallowed, 
not just the surface covering.
    9. As recommended by the American Academy of Pediatrics, 
legislation or regulations should limit the overall lead 
content of an item, rather than only limiting lead content of 
its components.
                                ------                                


        Responses by Bruce P. Lanphear to Additional Questions 
                           from Senator Boxer

    Question 1. Have you been involved in reviewing EPA's 
scientific documents dealing with the agency's lead paint 
renovation rulemaking and clean air protection against lead 
exposures?
    Response. I have served as a member of the Clean Air 
Scientific Advisory Committee for the ``National Ambient Air 
Quality Standard for Lead'' and the ``Lead Repair, Renovation 
and Paint Rule''.
    Could you please give me your opinion on whether the EPA is 
moving in the right direction, or the wrong direction, in these 
regulatory processes by using recent scientific studies to 
protect children's health from lead exposure?
    I was pleased with the deliberations and advice of the 
Clean Air Scientific Advisory Committee about the National 
Ambient Air Quality Standard for Lead. I was equally satisfied 
with the recommendations of EPA Staff on Lead NAAQS, which were 
remarkably consistent with the CASAC's advice. In contrast, I 
was disappointed and troubled by the EPA's Advance Notice of 
Proposed Rulemaking (ANPR).
    The ANPR showed surprising disregard for scientific 
evidence, the NAAQS review process and the mandate to protect 
public health. After citing the scientifically based advice and 
recommendations of the CASAC and Agency staff, the ANPR made it 
clear that options which had already been examined and 
dismissed on scientific grounds by both CASAC and EPA staff 
would be considered for the primary lead standard. Based on the 
scientific evidence and the review process, the ANPR should 
have retained lead as a criteria air pollutant and indicated 
that the lead standard would be dramatically lowered from its 
current value of 1.5 ug/m3--established over 30 years ago when 
blood lead levels lower than 30 ug/dL were considered 
acceptable for children--to a value less than 0.2 ug/m3, as 
recommended by CASAC and EPA Agency Staff.
    I was especially concerned that the ANPR consistently 
selected options that underestimated the adverse effects of 
lead, diminished the benefits of reducing the lead standard and 
failed to provide an adequate margin of safety. As a key 
example, the ANPR contemplated using the Centers for Disease 
Control and Prevention (CDC) level of concern for lead in blood 
of 10 ug/dL as an acceptable risk level by the EPA 
Administrator. It is clear that the adverse effects of lead 
occur at demonstrably lower levels, with consistent evidence 
indicating that the effects of lead persist at blood lead 
levels lower than 5 ug/dL. Any suggestion that the U.S. EPA 
would use the CDC's level of concern as a starting point for 
risk assessment is particularly troubling. This approach--which 
ignores both the CDC and CASAC determinations that there are 
adverse health effects at lower blood lead levels--would fail 
to protect public health with an adequate margin of safety as 
required by the Clean Air Act.
    I was also pleased with the deliberations and advice of the 
Clean Air Scientific Advisory Committee about the Lead Repair, 
Renovation and Paint Rule. In contrast, my perception is that 
the US EPA was intent on selecting inexpensive and unproven 
methods to minimally comply with the congressional mandate to 
protect children from lead hazards generated by renovation, 
repair and painting. For example, the qualitative and 
simplistic method proposed by the U.S. EPA to verify the 
effectiveness of these cleaning procedures--i.e., the ``white 
glove'' or ``white cloth verification tests''--is unproven and 
did not yield consistently reliable results, thus leading to an 
inaccurate assessment of cleaning efficiency after repair and 
renovation activities. This was especially troubling because 
there is a reliable, proven and inexpensive method (dust wipe 
sampling method) used by environmental technicians to comply 
with existing standards promulgated by the US EPA and US 
Department of Housing and Urban Development. In my opinion, it 
would be irresponsible to propose using a new method until 
further research is conducted to validate that it is superior 
or at least comparable to the existing dust wipe sampling 
method. (See additional comments about LRRP in my response to 
question 3.)
    Question 2. While other Federal agencies can recall 
dangerous products, EPA has strong authorities to control the 
use of lead ? to stop dangerous exposures before they happen. 
Can you please describe the importance to public health of 
preventing dangerous lead exposures before they happen?
    Response. Primary prevention of childhood lead poisoning is 
critical. In spite dramatic reductions in childhood lead 
exposure (1), levels of lead exposure previously thought to be 
safe or inconsequential only two decades ago have consistently 
been shown to be risk factors for reading problems, 
intellectual delays, school failure, ADHD and criminal 
behaviors (2--13). There is no evidence for a threshold for the 
adverse effects of lead exposure; indeed, there is compelling 
evidence that lead-associated decrements in intellectual 
function are proportionately greater at blood lead <10 ug/dL 
(8--13). On average, there is an estimated decline of 2 to 3 IQ 
points for children whose blood lead levels rise from 10 to 20 
ug/dL, whereas there is an estimated decline of 4 to 7 IQ 
points for children whose blood lead levels rise from 1 ug/dL 
to 10 ug/dL (7--8).
    The key to primary prevention is to require the 
promulgation of regulations to further reduce environmental 
lead exposure; screening of high-risk, older housing units to 
identify lead hazards before a child is exposed--before 
occupancy, after renovation or abatement--and reducing lead in 
drinking water, consumer products and industrial emissions. 
These reductions in exposure will only occur with stricter 
regulations and enforcement on the allowable levels of lead in 
air, house-dust, water and consumer products.
    Question 3. Are there studies that demonstrate cleaning up 
indoor dust from lead paint to low levels is feasible? Has EPA 
incorporated these studies in its current rulemaking on lead 
paint renovation activities? Please provide a copy of any such 
study.
    Response. There is considerable evidence that cleaning 
after lead hazard controls can result in dramatic reductions in 
dust lead loading. In one EPA-funded study, dust lead levels 
immediately following abatement were 8.5 ug/ft2, 8 ug/ft2 and 
21 ug/ft2 for floors, interior windowsills and window troughs, 
respectively--representing reductions of over 80 percent 
compared with pre-abatement levels (14). In a large, national 
study of over 2600 housing units, post-abatement dust lead 
levels were 12 ug/ft2, 31 ug/ft2 and 32 ug/ft2 for floors, 
windowsills and window troughs, respectively (15).
    In unpublished data from our ongoing US EPA/NIEHS-funded 
HOME Study, we found that we could consistently achieve dust 
lead levels following lead hazard controls below 5 ug/ft2, 50 
ug/ft2 and 400 ug/ft2 for floors, interior windowsills and 
window troughs, respectively. Indeed, we achieved these dust 
lead levels in over 98 percent of 165 housing units that 
underwent lead hazard controls. Although 41 (25 percent) 
housing units required 3 or more cleanings to achieve these 
lower levels, we have shown that it is feasible to consistently 
achieve levels below 5 ug/ft2, 50 ug/ft2 and 400 ug/ft2 for 
floors, interior windowsills and window troughs, respectively.
    The EPA proposes to use obsolete dust lead standards of 40 
ug/ft2 for floors and 250 ug/ft2 for window sills for the 
proposed Rule. These dust lead levels have consistently been 
shown to be associated with about 15 percent to 20 percent of 
children having a blood lead level exceeding 10 ug/dL (16--20). 
Moreover, research indicating that adverse health effects are 
found in children who have blood lead lower than 5 ug/dL 
provides additional justification for further lowering the dust 
lead standards (7--13). Existing studies thus indicate that it 
is necessary to achieve dust lead levels < 15 ug/ft2 and < 50 
ug/ft2 on floors and interior window sills after renovation and 
repair activities to adequately protect children (14--21). The 
results of these studies have not been incorporated into 
current rulemaking on lead paint renovation activities.

    Senator Boxer. Thank you, sir.
    Tom Neltner, on behalf of Improving Kids' Environment, 
Sierra Club, and Concerned Clergy of Greater Indianapolis.
    Welcome, sir.

 STATEMENT OF THOMAS G. NELTNER, ON BEHALF OF IMPROVING KIDS' 
   ENVIRONMENT, SIERRA CLUB, AND CONCERNED CLERGY OF GREATER 
                          INDIANAPOLIS

    Mr. Neltner. Thank you for the opportunity to talk to you 
today. I was the lead attorney on the Sierra Club lawsuit 
against EPA that forced those three actions that EPA described.
    What we have effectively is lead becoming the poster child 
for the breakdown in our Consumer Product Safety Commission and 
our consumer product safety network. A lot of times we hear 
about it being CPSC's responsibility, but EPA has a clear 
responsibility and they have not fulfilled that role.
    As a result of EPA's denial of the petition and a clear 
reluctance to move ahead, people have lost faith in the Federal 
Government's ability to protect people from lead in consumer 
products. They went out and tested products. They used lead-
check swabs. They used Niton XRFs. And they found it. It is a 
lot better than finding like the Reebok charm. A child died 
finding the lead in a Reebok charm.
    A grandmother in Bloomington, Indiana was showing people 
how to use a swab. She grabbed one of the toys that they used 
to give to kids when they read well. She rubbed the swab on the 
bendable toy and it came out red. That was a product that the 
Consumer Product Safety Commission would not quickly recall--
Indiana went ahead and did the recall.
    There are other toys that you see up in front of you that 
you entered into the exhibits that included ones that were just 
bought 2 days ago. One is a snorkel. It is about 1000 parts per 
million on the mouthpiece. There is a baby teething ring with 
about 1,000 parts per million of lead in it. Those are products 
that were just purchased. There is a vinyl lunch box with 
12,000 parts per million on the surfaces. So there are still 
products out there. They are still a problem, and we don't have 
systematic corrections.
    What we asked EPA to do in our petition and lawsuit was to 
use its authority to go to the companies and require that they 
submit their quality control procedures. EPA basically said, 
you can't make us do that; you can't make us because of a 
glitch in TSCA; you can make us issue a rule, but you can't 
make us issue an order. If EPA had issued an order to these 
companies, EPA and CPSC would have had the information so that 
they could have proactively dealt with this problem . Instead 
of being behind the curve on this case-by-case basis, the EPA 
could have used its authority and gotten ahead of the curve.
    On the RRP rule, the renovation, repair and painting rule, 
I am glad to hear it will be coming out soon. It was promised 
actually in January 2007. The problem is that rule relies 
heavily on EPA and the Federal Government to enforce it. We 
need a rule that allows the consumers and the contractors to 
identify problems, make informed decisions, and to resolve 
those problems. EPA did not do that in its proposal. We are 
asking them to do that as well.
    Two quick comments. The Assistant Administrator pointed out 
that 400 ppm of lead in soil is not a hard and fast standard. 
In fact, it is when it comes to bare soil around housing. The 
standard is not part of the Superfund cleanup. It is a hard and 
fast standard for play areas for children. And I was surprised 
to learn, and I was the lead attorney on the settlement 
negotiations, that it will be another year or so until that 
rule goes into effect requiring reporting by companies of 
measurable levels of lead. We were under the impression it 
would be done in June 2008. I have no idea why the delay has 
occurred. We have been asking about it without luck.
    Thank you. I appreciate the opportunity to testify.
    [The prepared statement of Mr. Neltner follows:]
     Statement of Thomas G. Neltner, on Behalf of Improving Kids' 
 Environment, Sierra Club, and Concerned Clergy of Greater Indianapolis
                             the situation:
    Sixty-two recalls of more than 9.5 million items in 2007 with 10 
weeks to go before the end of the year. There were 43 recalls by the 
Consumer Product Safety Commission (CPSC) in the previous 3 years.\1\
---------------------------------------------------------------------------
    \1\See www.cpsc.gov/cpscpub/prerel/prerel.html.
---------------------------------------------------------------------------
    The public is dazed and confused. The CPSC is overwhelmed and left 
to triage recalls based on the magnitude of the danger. In the absence 
of Federal leadership, State and local legislators scramble to adopt 
laws to fill gaps. State and local childhood lead poisoning prevention 
programs struggle with calls from the public. These calls draw their 
limited resources away from their core mission to protect children from 
the primary source of lead poisoning lead-based paint in housing. By 
all accounts, product retailers and importers of children's products 
are faring little better.
                           what is happening?
    Put simply, parents, local health departments, and children's 
health advocates have lost faith in the Federal Government's ability 
and commitment to protect children from lead poisoning.
    The Minnesota child's death in February 2006 laid bare the tattered 
network designed to protect children from toxic chemicals in consumer 
products.\2\ As a result, citizens took matters into their own hands 
and started testing products. They used low-cost swabs that change 
color when the swabs contacted lead.\3\ They used expensive x-ray 
fluorescent (XRF) devices designed for lead-based paint to measure lead 
levels in plastic, metal, and coatings on toys.\4\
---------------------------------------------------------------------------
    \2\U.S. Centers for Disease Control and Prevention, Morbidity and 
Mortality Weekly Report, Dispatch, March 23, 2006 / 55(Dispatch);1--2.
    \3\National Center for Healthy Housing, Testing for Lead in 
Consumer Products for Children, August 14, 2007. See 
www.centerforhealthyhousing.org/factsheet-leadtestconprod.pdf
    \4\Id.
    [GRAPHIC] [TIFF OMITTED] 73577.154
    
    When they found lead, they filed complaints forcing action. When 
the Federal Government was slow to act, they went to their elected 
officials. California, Illinois, and Baltimore adopted laws.\5\ 
Indiana, New York and Illinois issued their own recalls.
---------------------------------------------------------------------------
    \5\California Statutes 2006, Chapter 415, Article 10.1.1 Lead 
Containing Jewelry. Illinois Public Act--4--0879: The Lead Poisoning 
Prevention Act of 2006. Baltimore City, Maryland regulations at 
www.baltimorehealth.org/jewelry.html.
---------------------------------------------------------------------------
    Despite these efforts, the problem remains. At the Indiana Black 
Expo's Health Fair in August 2007, the Concerned Clergy of Greater 
Indianapolis and Improving Kids' Environment found that 62 percent of 
almost 400 children's metal jewelry items and 32 percent of 85 plastic 
jewelry items contained more than 600 parts per million of lead--CPSC's 
screening level.\6\ The Indiana Pacer's cheerleaders were passing out 
mardi Gras beads containing 1400 ppm of lead. Children were wearing 
this jewelry and some were mouthing it!
---------------------------------------------------------------------------
    \6\See Attachment 5. ``Results of Lead Content Screening of 
Children's Jewelry Indiana Black Expo, July 20--22, 2007'' by Improving 
Kids' Environment.
---------------------------------------------------------------------------
                            epa's complicity
    While the focus has been on CPSC's shortcomings, the U.S. 
Environmental Protection Agency (EPA) has been complicit. EPA refused 
to use its authority under the Toxic Substances Control Act (TSCA) to 
support CPSC's effort. Only after a lawsuit from the Sierra Club and 
Improving Kids' Environment forced its hand did EPA act. The delay has 
cost us dearly.
    If EPA had responded constructively to the Sierra Club's April 17, 
2006, TSCA Section 21 petition\7\, EPA could have had the quality 
control procedures of companies such as Mattel in its hand 1 year 
before the failings of those procedures became painfully apparent. EPA 
could have identified the problems and taken steps to fix them. Instead 
of putting CPSC in a reactive mode triaging complaints Congress gave 
EPA the statutory authority to take action. EPA refused to exercise 
that authority.
---------------------------------------------------------------------------
    \7\See Attachment 6. Sierra Club's, April 17, 2006 Section 21 
Petition to EPA and CPSC
---------------------------------------------------------------------------
    Instead of acting immediately, EPA chose to take advantage of a 
loophole in the law claiming that Sierra Club could not force a 
regulation on quality control procedures without EPA first issuing 
orders to the companies. EPA refused to issue the orders--even to those 
companies who already had recalls. Sierra Club maintained that a recall 
was ample evidence that a company's quality control procedures had 
failed. Unfortunately, many of these companies had additional recalls 
after EPA denied the Sierra Club's petition.
    In denying the petition, EPA said it planned to work ``in 
coordination with CPSC to understand the scope of the problem.''\8\ EPA 
claimed that a ``holistic and proactive approach may be more effective 
and less resource intensive than the case-by-case approach provided for 
under section 6(b).''\9\ Eighteen months and 72 recalls have passed and 
there is no tangible evidence that EPA has found that ``holistic and 
proactive approach.''
---------------------------------------------------------------------------
    \8\EPA's July 20, 2006 Denial of Sierra Club's Section 21 Petition. 
See page 1.
    \9\Id. See page 2.
---------------------------------------------------------------------------
    As a result, parents must work through complicated websites and 
conflicting guidance as they make decisions on Holiday presents for 
their children. Retailers must resort to testing products on their 
shelves to restore consumer confidence. And CPSC is left to issue 
repeated recalls on a case-by-case basis.
    Acting a year earlier would not necessarily have avoided the 
recalls. But it would have given EPA and CPSC the opportunity to 
proactively address the situation in a systematic method. This 
proactive approach would have reassured the public and saved hundreds 
of thousands of dollars in wasted resources, especially at the State 
and local level.
    While CPSC might have been able to take action on its own, the 
failure of CPSC and EPA to work together and leverage EPA's more 
powerful information gathering authorities was a lost opportunity.
    EPA's failure is not limited to consumer products. Congress 
mandated that EPA adopted rules regarding the renovation, repair and 
painting of housing and child-occupied facilities by 1996.\10\ EPA 
issued a proposed rule on January 10, 2006 under pressure from a 
lawsuit by the Public Employees for Environmental Responsibility (PEER) 
and others.\11\ It committed to finalizing the rule by January 2007 and 
is now hoping for March 2008.
---------------------------------------------------------------------------
    \10\Toxic Substances Control Act, Section 402(c)(3).
    \11\January 10, 2006 Federal Register. Page 1587. See www.epa.gov/
lead/pubs/renovation.htm.
---------------------------------------------------------------------------
    Public confidence is going to take another hit if EPA finalizes 
this rule as proposed. In the proposed rule, EPA rejected the use of 
lead dust wipes to verify that contractors did not create lead hazards. 
Lead dust wipes had been repeatedly validated as the most reliable 
method to determine whether lead hazards were present or not. EPA's own 
rules relied on this method.\12\
---------------------------------------------------------------------------
    \12\40 CFR Part 745, Subpart D. See www.epa.gov/fedrgstr/EPA-TOX/
2001/January/Day--05/t84.pdf.
---------------------------------------------------------------------------
    EPA's proposed rule was virtually unenforceable. Contractors would 
have little documentation that they did or did not comply with the 
rules. Instead of empowering consumers with information and the means 
they needed to act, EPA proposed leaving consumers in the dark with 
generic pamphlets instead of actual information on the work that was 
done. Consumers who later tested their home would have to plead with an 
understaffed EPA Office of Enforcement and Compliance Assurance (OECA) 
to ``recall'' contractors to the home to clean up lead hazards left 
behind.
    The situation would be a repeat of the children's products recalls 
of 2007 but instead of dealing with hundreds of importers, consumers 
would be left with hundreds of thousands of contractors.
                     what goes around, comes around
    In the Pollution Prevention Act of 1990, Congress declared ``it to 
be the national policy of the United States that pollution should be 
prevented or reduced at the source whenever feasible; pollution that 
cannot be prevented should be recycled in an environmentally safe 
manner, whenever feasible; pollution that cannot be prevented or 
recycled should be treated in an environmentally safe manner whenever 
feasible; and disposal or other release into the environment should be 
employed only as a last resort and should be conducted in an 
environmentally safe manner.''\13\
---------------------------------------------------------------------------
    \13\Pollution Prevention Act of 1990, 40 USC 13101(b)
---------------------------------------------------------------------------
    This pollution prevention hierarchy makes clear that our top 
priority should be to keep lead out of products. Recycling is a second 
choice.
    Congress' foresight was made starkly clear by research by Dr. 
Jeffrey Weidenhamer of Ashland University in Ohio\14\ and an 
investigation by the Wall Street Journal.\15\ They found that much of 
the lead in toy metal jewelry from China was apparently recycled 
electronic waste such as circuit boards from the West. Instead of 
recycling the lead from electronic waste, it appears that it may have 
been easier to remove the mixture of lead, copper and tin from the 
waste, melt it up, pour it into the jewelry mold to be shipped back to 
the United States for our children to use.
---------------------------------------------------------------------------
    \14\Jeffrey D. Weidenhamer and Michael L. Clement. 2007. Widespread 
lead contamination of imported low-cost jewelry in the U.S. Chemosphere 
67 961?965.
    \15\Gordon Fairclough,Wall Street Journal, ``Lead Toxins Take a 
Global Round Trip 'E-Waste' From Computers Discarded in West Turns Up 
In China's Exported Trinkets,'' July, 12, 2007, http://online.wsj.com/
article/SB118420563548864306.html
---------------------------------------------------------------------------
    In the late 1990's, EPA had taken a leading role in working with 
electronics makers to phase lead out of their products. In June 2001, 
EPA published the ``Electronics: A New Opportunity for Waste 
Prevention, Reuse, and Recycling.''\16\ Since 2001, EPA's focus on 
prevention appears to have shifted from a balanced approach that 
emphasizes prevention to a recycling focus. The industry may very well 
have continued the prevention focus to engineer out lead. The lead that 
is found in metal toy jewelry may also be a relic of circuit boards 
from long ago. But EPA appears to have lost its leadership role on the 
issue.
---------------------------------------------------------------------------
    \16\EPA 530-F--01--006. See www.epa.gov/osw/elec--fs.pdf
---------------------------------------------------------------------------
    Under the Resource Conservation Recovery Act, EPA is responsible 
for the broader management of solid wastes. Yet it has been silent on 
the issue of the management and disposal of the recalled products. CPSC 
apparently requires companies with recalls to follow Federal, State and 
Federal law.\17\ Many organizations, including the Sierra Club, are 
concerned that the lead-contaminated recalled product will be shipped 
overseas to a country with lower standards, resold in the U.S. on the 
second-hand market, or disposed of improperly.
---------------------------------------------------------------------------
    \17\In addition, there is no emphasis on using the Federal 
pollution prevention hierarchy to require strict quality control 
programs to ensure that lead is kept out of future products 
manufactured or importer.
---------------------------------------------------------------------------
    The Los Angeles Times investigated the issue.\18\ It contacted many 
of the companies with recent recalls. Most refused to return the call 
or answer the queston. Mattel said ``Mattel said it planned to recycle 
as many components of its returned toys as possible, including selling 
or reusing zinc and some of the resins used to make the toys.''\19\
---------------------------------------------------------------------------
    \18\Abigail Goldman, Los Angeles Times, ``Disposal a murky issue in 
recall of lead-tainted items; State law holds sway, but there's no 
uniform procedure in place.'' October 8, 2007.
    \19\Id.
---------------------------------------------------------------------------
    Once again, State and local elected officials stepped up when the 
Federal Government was silent. On August 16, 2007, Connecticut Attorney 
General Richard Blumenthal sent letters to Mattel's Chief Executive 
Officer and its Senior Counsel for Regulatory Affairs asking for a 
response to detailed questions regarding the disposition of the 
recalled products.\20\ Sierra Club applauds the leadership of Attorney 
General Blumenthal.
---------------------------------------------------------------------------
    \20\See Attachment 9.
---------------------------------------------------------------------------
    Mattel's response was due September 16, 2007. As of October 4, 
Sierra Club understands that Mattel has not responded to the request.
                            recommendations:
    Regarding the EPA's Renovation, Repair and Painting Rule, Congress 
should:

     Direct EPA to finalize the rule by January 2008 or prepare a 
detailed explanation for its delay. January 2008 is 2 years after the 
date of its initial proposal. The status report should describe EPA's 
plans to finalize the rule and explain the delays in finalizing the 
rule.
     Direct EPA to prepare a report when the rule is finalized that 
explains:

     How the rule will be enforced to achieve at least 75 percent 
compliance;
     How the rule empowers citizens to:
     Identify compliance problems that leave lead hazards in their 
residence; and
     Force contractors to clean-up lead hazards contractors create 
without having to engage the Federal Government in the resolution of 
the problem;

     How EPA will assess compliance with the rule and report results 
to Congress and the public on an ongoing basis.
    Regarding lead in consumer products, Congress should revise the 
Toxic Substances Control Act to direct EPA to:

     Ban lead from children's products unless it can be affirmatively 
demonstrated that the expected use of the product will not expose a 
child to lead;
     Routinely issue Section 6(b) quality control orders to companies 
that have recalls to determine whether their quality control procedures 
are adequate to exclude toxics from children's products;

     Issue a Section 6(b)(2) rule establishing specific and effective 
quality control standards for all manufacturers and importers;
     Finalize the Section 8(d) rule as recommended by the Interagency 
Testing Committee before the end of November 2008;
     Send a letter, in cooperation with the CPSC, to all importers and 
manufacturers of children's products:

         Explaining the company's responsibilities to comply with the 
        new Section 8(d) rule;
         Reminding the company of its long-standing obligations under 
        Section 8(e) to submit 8(e) notices of recalls;
         Identifying the factories that have produced lead 
        contaminated children's products and encouraging the companies 
        to check all of their products for lead if they used the 
        factories.
                       finally congress needs to:

     Adequately fund EPA and CPSC to address lead in children's 
products in particular and toxic chemicals in consumer products in 
general.
     Build institutional links between CPSC and EPA so that CPSC 
relies on EPA for its toxicological expertise and waste management 
expertise and does not use its limited funding to duplicate this 
expertise.
     State that the level of concern for lead in children is any 
measureable level of lead. The current level of concern of 10 
micrograms of lead per deciliter of blood should be reclassified as the 
level for individual case management.
    On behalf of the Sierra Club, Improving Kids' Environment and 
Concerned Clergy of Greater Indianapolis, I greatly appreciate this 
opportunity to describe the situation to the Senate Committee on 
Environment and Public Works and make recommendations to the Committee 
for tangible action to protect children.
[GRAPHIC] [TIFF OMITTED] 73577.101

[GRAPHIC] [TIFF OMITTED] 73577.102

[GRAPHIC] [TIFF OMITTED] 73577.103

[GRAPHIC] [TIFF OMITTED] 73577.104

[GRAPHIC] [TIFF OMITTED] 73577.105

[GRAPHIC] [TIFF OMITTED] 73577.106

[GRAPHIC] [TIFF OMITTED] 73577.107

        Response by Thomas G. Neltner to an Additional Question 
                          from Senator Inhofe
    Question. In your testimony you noted that Congress instructed EPA 
to issue rules regarding renovation and remodeling by 1996. Do you know 
why the previous administration did not comply?
    Response. EPA is in the best position to answer that question 
fully. I was not privy to EPA's reasoning and deliberations. But I will 
provide my best answers to the question based on the public record and 
my understanding of the situation.
    In 1992, Congress set a rigorous rulemaking schedule for EPA to 
address renovation and remodeling activities. See Table 1 for specific 
deadlines and EPA's progress in meeting those deadlines. It is clear 
that EPA quickly fell behind the deadlines. The gap increased over the 
years despite consistent progress.
    In the mid and late 1990's, EPA's progress was stymied by three new 
hurdles that Congress established in the rulemaking process. In 1995 
and 1996, Congress enacted three laws that established significant 
requirements for agencies adopting major new rules. They are:

     National Technology Transfer and Advancement Act of 1995, Section 
12;
     Unfunded Mandates Reform Act (UMRA) of 1995, Title II; and
     Small Business Regulatory Enforcement Fairness Act (SBREFA) of 
1996, Section 609.

    These new laws, especially SBREFA, forced the Federal Government to 
retool its rulemaking process resulting in delays for major new rules. 
The laws also imposed significant new burdens on the agencies for major 
new rules.
    With an estimate annual economic impact of $500 million in costs 
and almost ten times that much in annual economic benefits, the 
renovation and remodeling rule was definitely a major new rule. There 
is no indication that EPA under the previous administration received 
additional time or resources to comply with the new requirements. As a 
result, the renovation and remodeling was further delayed. When the 
retooling was complete, EPA convened the SBREFA panel in 1999 and 
published the SBREFA report in 2000.
    After 2000, it appears that all work on the rule stopped until EPA 
resumed work in 2005.\1\ EPA published the proposed rule 3 weeks after 
being sued by ten organizations and individuals for failure to meet the 
1996 statutory deadline.\2\
---------------------------------------------------------------------------
    \1\On December 13, 2004, EPA stated in a Federal Register notice 
that it was pursuing a voluntary program for renovation and remodeling 
activities. It withdrew this plan in a May 16, 2005 Federal Register 
notice.
    \2\On December 20, 2005, the Public Employees for Environmental 
Responsibility (PEER) and nine other plaintiffs sued EPA for failing to 
meet the deadline. EPA published the proposed Renovation, Repair and 
Painting Activities (RRP)2 rule a few weeks later on January 10, 2006. 
Note that on October 26, 2006, EPA moved to dismiss the lawsuit on the 
basis that the plaintiffs waited too long to sue EPA for failing to 
comply with the law. EPA's position makes its clear that concerned 
citizens should not be too patient with EPA.
[GRAPHIC] [TIFF OMITTED] 73577.177

    <SUP>3</SUP>The statute only requires that these activities be 
completed. In the transcript of the first meeting of the stakeholder 
meeting on December 7, 1998, EPA clearly interpreted the statute as 
requiring that the consultation occur before the rule was proposed. 
This approach ensures more effective public participation. See 
www.epa.gov/lead/pubs/rrmeet.pdf.
    <SUP>4</SUP>In 1996, Congress passed the Small Business Regulatory 
Enforcement Fairness (SBREFA) Act. This law required EPA's Small 
Business Advocacy Chairperson to convene a Small Business Advocacy 
Review Panel before proceeding with significant rulemaking. EPA 
convened the panel on November 23, 1999 and published the report on 
March 3, 2000.
    <SUP>5</SUP>In December 1998 and March 1999, it held two meetings 
to fulfill the requirement that it consult with key stakeholders. In 
the March 1999 meeting, EPA stated that it anticipated publishing a 
proposed rule before the end of 1999. See www.epa.gov/lead/pubs/3--8--
99.pdf at page 8 for comments by EPA's Mark Henshall.
    <SUP>6</SUP>In its supplement to the proposed rule in the June 5, 
2007 Federal Register, EPA finally made the long delayed determination 
that it would exempt contractors working in public and commercial 
buildings that were not child-occupied facilities. In 1992, Congress 
specifically, directed EPA to address three areas: target housing, 
public buildings constructed before 1978, and commercial buildings that 
create lead-based paint hazards. EPA's initial proposal on January 10, 
2006 addressed only target housing.
                                 ______
                                 
         Responses by Thomas G. Nelter to Additional Questions 
                           from Senator Boxer
    Question 1. How would you assess EPA's response to your petition 
that urged the agency to use its authorities under the Toxic Substances 
Control Act to address threats from dangerous levels of lead in 
consumer products?
    Response. I have been involved in three petitions to EPA since 
2006. We submitted these petitions pursuant to Section 21 of the Toxic 
Substances Control Act (TSCA). They are:

     Lead in Consumer Products: Filed by Sierra Club and Improving 
Kids' Environment in April 2006. EPA denied the petition in July 2006. 
The petitioners filed a lawsuit challenging the decision in September 
2006. The parties reached a settlement in April 2007 and agreed to 
dismiss the case in June 2007.\7\
---------------------------------------------------------------------------
    \7\See www.sierraclub.org/environmentallaw/lawsuits/0322.asp.
---------------------------------------------------------------------------
     Nonylphenol Ethoxylates: Filed by Sierra Club, the Environmental 
Law and Policy Center, Physicians for Social Responsibility, UNITE 
HERE! and the Pacific Coast Federation of Fishermen's Associations, and 
the Washington Toxics Coalition in June 2007. EPA partially denied the 
petition in August 2007. Five of the petitioners filed a lawsuit 
challenging the denial in October 2007. The case is still in 
litigation.\8\
---------------------------------------------------------------------------
    \8\See www.sierraclub.org/toxics/.
---------------------------------------------------------------------------
     Air Fresheners: Filed by Sierra Club, National Center for Healthy 
Housing, Alliance for Healthy Homes and the Natural Resources Defense 
Council in September 2007. EPA denied the petition in December 2007. 
EPA issued letters to the seven major manufacturers of air fresheners 
asking that they voluntarily submit a list of chemicals in their 
products, the range of concentrations for each chemical, the chemical's 
function, and total annual amount used. The petitioners are considering 
their legal option.\9\
---------------------------------------------------------------------------
    \9\See www.sierraclub.org/toxics/.
---------------------------------------------------------------------------
    In December 2007, I also attended a stakeholder meeting convened by 
EPA as a follow-up to its denial of a petition by Ecology Center of Ann 
Arbor, Michigan in 2005 to ban the sale of leaded wheel weights.\10\ 
These weights are used to balance tires. More than 50 million pounds of 
leaded wheel weights are sold each year with a significant portion 
ending up in the environment. EPA rejected rulemaking options to 
protect children from the danger of lead in these wheel weights and was 
pursing voluntary options. At this meeting, the manufacturers of the 
wheel weights and their retailers expressed a willingness to move to 
more costly substitutes but said regulations would be needed. They 
called for regulations and EPA indicated it was unable to follow 
through despite clear statutory authority.
---------------------------------------------------------------------------
    \10\See www.leadfreewheels.org.
---------------------------------------------------------------------------
    The common theme running through EPA's responses to these petitions 
is that EPA will do whatever is necessary to deny the petition. EPA 
does not appear to be seeking to respond to important questions about 
threats to public health. The sole exception is EPA's letter to air 
freshener manufacturers. But these letters essentially mooted a 
straightforward claim that would have been resolved in subsequent 
litigation.
    EPA does not appear to seriously consider actions that it cannot be 
compelled to undertake without litigation. For example, regarding:

     Lead in Jewelry, EPA refused to send a request to CPSC asking 
CPSC to undertake rulemaking regarding lead in jewelry pursuant to 
Section 9 of the Toxic Substances Control Act (TSCA). This action is a 
critical first step to taking action under TSCA. EPA's failure to make 
the request has been used as an excuse to taking subsequent action.
     Lead in Recalled Jewelry, EPA refused to issue orders pursuant to 
Section 6(b) of TSCA. These orders would have required companies that 
had recalled products to submit their quality control procedures. With 
these procedures, EPA could have identified in 2006 the quality control 
problems that became apparent in 2007. EPA has the authority to issue 
rules to require improvements in quality control procedures. Due to 
convoluted language in TSCA, citizens cannot force EPA to issue a 
quality control rule unless it first issues quality control orders. By 
not issuing orders, EPA can block the citizen petitions. To the best of 
my knowledge, EPA has never issued a quality control order.
     Air Freshener Allegations, EPA refused to ask manufacturers of 
air fresheners to report allegations by consumers of problems with 
their products. Manufacturers and importers are required to track these 
allegations pursuant to TSCA Section 8(c) and report them to EPA if EPA 
requests them. In a narrow interpretation of TSCA, EPA concluded that 
citizen's could not petition it to make an 8(c) request. It could have 
made the request anyway, but apparently rejected that option.
     Air Freshener Health and Safety Studies, EPA refused to ask 
manufacturers of air fresheners to submit unpublished health and safety 
studies regarding their products. EPA made this decision despite 
petitioners clearly meeting the TSCA ``B'' exposure findings with more 
than 10,000 people in the general public receiving significant 
exposures. EPA could have worked with the Interagency Testing Committee 
(ITC) pursuant to Section 4 of TSCA and, if the ITC agreed, issue a 
direct final rule requiring the submission of the studies. This was the 
approach the EPA took as part of its settlement with Sierra Club on 
lead in consumer products. It involves very little resources and time.
     Lead Wheel Weights, EPA denied the petition to ban lead in wheel 
weights. In its denial, EPA identified eight areas where it needed 
information to undertake a ban. EPA could have used its information 
gathering authorities under TSCA to fill those gaps. But it did not. 
Instead EPA undertook a voluntary program to get lead wheel weights off 
of the market that had stakeholders scratching their heads wondering if 
EPA understands market dynamics and the important role that regulation 
plays in protection children from lead poisoning.

    Given EPA's ``deny-if-at-all-possible'' approach to citizen 
petitions, citizens are left with the option of litigating EPA's 
decisions. Litigation is a time-consuming and inefficient method to 
protect public health.
    Question 2. Does EPA have authorities under the Toxic Substances 
Control Act that it can use, if the agency chooses, to address lead 
threats in children's toys?
    Response. Yes, EPA seems reluctant to exercise its authorities 
under TSCA regarding lead in consumer products. Based on its testimony 
at the Senate Committee on Environment and Public Works and its 
handling of other petitions, EPA seems particularly reluctant to act 
regarding consumer products.
    Specifically, EPA could undertake the following actions to protect 
our nation's children from being poisoned or killed from dangerous lead 
exposures:

     Issue final Renovation, Repair and Painting Rule that is no less 
stringent than HUD's standards.
     Make it standard practice to order any importer or manufacturer 
that has a recall by CPSC involving a toxic chemical to submit to EPA 
their quality control procedures designed to prevent future recalls. 
TSCA Section 6(b)(1)
     Order paint retailers to submit to EPA their quality control 
procedures to ensure that imported paint does not violate the U.S. 
standards for lead-based paint. TSCA Section 6(b) (1)
     Order firms that handle electronic waste for recycling to submit 
to EPA their quality control procedures to ensure that the lead from 
the electronic waste does not get added to children's products. TSCA 
Section 6(b)(1)
     Undertake rulemaking to establish quality control procedures for 
children's products importers to ensure that lead is not present in 
those products except in trace amounts. TSCA Section 6(b)(2)
     Investigate any company that has had a recall to determine 
whether they properly notified EPA of substantial risks posed by the 
lead contamination. TSCA Section 8(e)
     Identify the overseas factories or companies that produced 
products subject to a recall for lead contamination. TSCA 8(e) Follow-
up
     Implement the recommendations of the Interagency Testing 
Committee regarding lead and lead compounds so that importers must 
report by the statutory deadline of June 14, 2007 12 months after 
receiving the recommendations. TSCA Section 4 and 8(d)
     Send a letter to importers of children's products alerting them 
to their obligation to report pursuant to the ITC recommendations and 
to check their products if they used any of the overseas factories or 
companies that produced products subject to a recall for lead 
contamination.
     Adopt a testing rule requiring the lead manufacturers to fund a 
National Institute for Health study evaluating the health implications 
of lead to children at levels below five micrograms per deciliter. TSCA 
Section 4
     Adopt rules requiring companies to notify public and businesses 
that distribute these lead contaminated products of such threats and to 
replace or repurchase ? and prohibit the reselling of such products in 
the U.S. TSCA Section 4 and 6.
     Issue an order that requires facilities that export electronic 
waste to businesses that make or distribute lead-contaminated 
substances used in children's products sold in the United States to 
notify EPA of such exports. TSCA Sections 4 and 12.
     Work with the Secretary of the Treasury to prohibit the 
importation of products that fail to comply with the protections 
described above. TSCA Section 13.
    Question 3. Please provide the committee with a list of the lead-
contaminated children's items that were before the committee during the 
hearing. Please include a description of the lead testing results for 
each item.
    All measurements were made using a Thermo Niton X-ray Fluorescent 
(XRF) device.

     Reebok Charms: Two sets of charms. These charms have been 
recalled. They are similar to the charm that killed the child in 
Minnesota in 2006 thought they have much lower levels of lead. The lead 
levels in the Reebok charms varied dramatically. One charm was over 
CPSC's screening level. The Chicago Health Department provided them.
     Vinyl Bibs: One set of baby bibs with vinyl backing. The State of 
Illinois recalled these bibs. CPSC refused to recall them. The vinyl on 
the back has 1000 ppm lead. It was purchased from WalMart. The Chicago 
Health Department provided them.
     CA Vinyl Lunchbox: Two sets of vinyl lunchboxes. One has English 
text. The other has Spanish text. These items were recalled. They were 
distributed to children in California by the California Department of 
Public Health. The vinyl on the English version is 900 ppm. The Spanish 
language one is 16,000 ppm (1.6 percent) lead. Alameda County Lead 
Poisoning Prevention Program provided them. The Center for 
Environmental Health originally found the problem.
     Spiderman Lunch Box: A vinyl lunchbox. The vinyl inside is 1000 
ppm. The Chicago Department of Health provided the lunchbox and 
reported that 14 micrograms of lead could be wiped off the surface per 
square foot of vinyl.
     Teething Toy: A vinyl teething toy for babies in the shape of an 
ear of corn. It was purchased at a store in Omaha, Nebraska. It has 900 
ppm lead. It has not been recalled yet.
     Snorkel: A plastic snorkel for children with a vinyl mouthpiece. 
It was purchased at a store in Omaha, Nebraska. The mouthpiece is 2000 
ppm lead. It has not been recalled yet.
     Math Blocks in Bag: A bag of painted plastic blocks in a vinyl 
bag. It was purchased at a store in Omaha, Nebraska. Two of the blocks 
are at 1500 ppm and 4000 ppm lead. It has not been recalled yet.
     Baby Einstein Blocks: A fabric and vinyl cushion in the shape of 
block intended for young children. It has painted symbols on several 
sides. CPSC has recalled the blocks. It was purchased in Nebraska 
block. It has well over 600 ppm lead on the white paint on the belly of 
the turtle.
     Bendable Toys: Three plastic figures about 5'' tall of different 
characters. The paint on the dog is 10,000 ppm lead. It is 10,000 ppm 
on the cat and 30,000 ppm on the snowman. These were found in Indiana. 
Libraries were giving them away to children who did well in reading. A 
Grandmother of a lead poisoned child was teaching kids about lead. She 
used a LeadCheck swab to show how the work and was shocked to find it 
came out positive. Indiana Department of Health recalled the items when 
CPSC was slow to act. CPSC later recalled them.
     Mardis Gras Beads: A chain of colorful beads commonly passed out 
during Mardis Gras to children and adults. The beads are 600 ppm lead. 
It was purchased in Minneapolis.
     Hush Toy Ring: The small ring sold in vending machines. Commonly 
referred to as a hush toy in the vending machine industry. The ring has 
1300 ppm lead. It was purchased in Minneapolis.
     Jewelry: A chain of jewelry purchased from Claires. It appears 
that the solder is 30,000 ppm.
     Hair clasp: A clasp for a child's hair. It has 450,000 ppm lead--
about 45 percent lead.
     LeadCheck Swabs: A package of nine swabs commonly used to 
qualitatively determine if wipable lead is present on a toy. They are 
about $1.50 a piece. The vinyl bibs and bendable toys were found with 
this type of swabs.
    Senator Boxer. Thank you very much.
    When I get a chance, I want to talk more about how we can 
help speed that up.
    Mr. Neltner. Thank you.
    Senator Boxer. OK.
    Mr. Jacobs.

STATEMENT OF DAVID E. JACOBS, PH.D., CIH, DIRECTOR OF RESEARCH, 
              NATIONAL CENTER FOR HEALTHY HOUSING

    Mr. Jacobs. Thank you.
    Much has been said in this hearing already about housing 
issues, so I don't want to belabor the statistics. But I do 
want to take my time with you this morning to raise a warning 
flag about a new emerging lead-based paint threat to our 
children, and also to explore some of the lessons that we have 
learned in how we dealt with the lead problem in housing and 
their implications for other lead poisoning prevention efforts.
    If we don't do more on the housing front, there will be 
literally millions, and I am not exaggerating, millions of 
children who will be poisoned in the decades to come. We are 
currently running at about a clip of 300,000 children a year 
who are poisoned, mostly from lead in housing stock. While we 
have made tremendous progress, much, much more remains to be 
done.
    In my written testimony, I give you the statistics on 
housing, but I do want to make the point that we know how to 
fix houses. The intervention effectiveness has been shown. I 
helped to design the Nation's largest study on residential lead 
hazard control covering 3,000 housing units in 14 jurisdictions 
across the country. Those kids had average blood lead levels 
around 10 micrograms per deciliter. We were able to reduce 
those blood lead levels by 38 percent over a 2-year period, so 
this works.
    If we don't do this properly, however, we can make matters 
worse. If you take a single square foot of lead paint in a 
house at the minimum regulatory level, and sand it, turn it 
into dust, spread it over a 10 foot by 10 foot room, the 
resulting dust level is 9,300 micrograms per square foot. The 
current EPA standard is 40 micrograms per square foot. In other 
words, a great deal of lead-contaminated dust can be released 
from only a small amount of lead paint. In my written 
testimony, I give some data that show why the current EPA dust 
lead standard should be and can be reduced now.
    When I was at HUD, we put a regulation in place to stop 
those sorts of dangerous renovation and remodeling activities. 
We thought, frankly, that EPA would quickly follow suit, but 
there is still not a final EPA regulation. I have served with 
the Federal Government. I can tell you this sort of regulation 
can be done much more rapidly than has happened in this case. 
EPA should pass the final rule. It should not include the 
dangerous methods of paint removal that are allowed in the 
proposed regulation and it should require dust lead testing 
after the work has been completed to make sure the house is 
safe for children to occupy.
    Furthermore, HUD also needs to complete its own regulation 
for federally assisted housing. Right now, the single family 
mortgage insurance program is not covered. Does it make any 
sense for children who are living in non-HUD assisted housing 
to get no protection, while children who do live in HUD housing 
get adequate protection? That makes no sense to me.
    The low-income housing tax credit program has no lead paint 
requirements. Why should taxpayers be asked to subsidize houses 
that poison kids?
    I helped write the first Federal interagency strategy in 
2000. Neither the Clinton nor the Bush administration has ever 
funded the program adequately. We provided monetary estimates 
on what it would take to clean up the Nation's housing stock. 
Thankfully, a bipartisan consensus in the Congress with Senator 
Bond, Senator Mikulski, Senator Boxer, Senator Inhofe and many, 
many others, such as Senator Jack Reed have helped to restore 
those funding levels, but it is still well below the necessary 
level.
    Finally, I mentioned an emerging threat. I have with me 
some paint samples from India, China and Nigeria that were 
provided to me by my colleague, Dr. Scott Clark and Dr. Sandy 
Roda of the University of Cincinnati and Drs. Eugenious and 
Clement Adebamowo. This is new residential paint that is being 
manufactured. This sample is from India. It has 131,000 parts 
per million of lead in it, a huge level. Remember, the limit in 
the U.S. is 600 parts per million. This is a Nigerian paint 
sample, which has 38,000 parts per million of lead in it.
    Now, it is bad enough that these countries are 
contaminating their own housing stock, but given our global 
economy it is only a matter of time before this paint starts 
washing up on our own shores and then we will be faced with the 
task of having to once again cleanup our Nation's housing 
stock.
    So if there is a single lesson to be learned from the lead 
paint experience, it is that once we allow the uses of lead to 
be entered into commerce and issued in a dispersed form, 
whether it is gasoline or food canning or paint or toy jewelry, 
it is going to cost the Nation far more to manage it after the 
fact. There is really just no good reason to allow lead into 
these products in the first place.
    Thank you very much.
    [The prepared statement of Mr. Jacobs follows:]

    Statement of David E. Jacobs, Ph.D., CIH, Director of Research, 
                  National Center for Healthy Housing

    Thank you for the opportunity to discuss recent 
developments in childhood lead poisoning. Today, I will present 
the scientific evidence demonstrating the prevalence of this 
entirely preventable problem and where it is most severe. I 
will show why housing with lead paint and the contaminated dust 
and soil it generates remains the main source of exposure for 
most children today in the U.S. Specifically, I will show how 
uncontrolled housing rehabilitation that disturbs lead paint 
and the failure to promulgate a 1992 congressionally mandated 
EPA regulation have harmed millions of children in years past 
and why action is needed to prevent millions more from being 
harmed in the decades to come. federally assisted housing has 
been covered by such a regulation since 1999 and such 
requirements can readily be extended to cover all children, not 
just those in federally assisted housing. I will also describe 
how the reappearance of new residential lead paint from Asia 
and Africa and other emerging exposures threaten the progress 
that has been made; the adequacy of existing standards and 
funding; and other matters. While the Nation has made important 
progress, much more remains to be done if our children are to 
have a future free of lead poisoning.
    I am the Director of Research at the National Center for 
Healthy Housing (NCHH). We have conducted numerous studies of 
lead hazards in housing, including the nation's largest and 
longest-term evaluation of residential lead hazard control, 
covering 3,000 housing units in 14 jurisdictions across the 
country. NCHH is a national technical and scientific non-profit 
organization dedicated to developing and promoting practical 
measures to protect children from residential environmental 
hazards while preserving affordable housing. NCHH develops 
scientifically valid and practical strategies to make homes 
safe from hazards, to alert low-income families about housing-
related health risks, and to help them protect their children. 
Previously, I served as the Director of the Office of Healthy 
Homes and Lead Hazard Control at the U.S. Department of Housing 
and Urban Development from 1995--2004. I was the principal 
author of the first Federal interagency strategy to address 
childhood lead poisoning for the President's Task Force on 
Environmental Health and Safety Risks to Children, and I have 
published many scientific studies on the subject. I am also an 
adjunct associate professor at the School of Public Health at 
the University of Illinois at Chicago, a faculty associate at 
Johns Hopkins University and a board-certified industrial 
hygienist.

                   TRENDS IN CHILDHOOD LEAD POISONING

    In 1991--94, the Centers for Disease Control and Prevention 
(CDC) estimated that 890,000 children had blood lead levels 
greater than 10 ug/dL (micrograms of lead per deciliter of 
blood).\1\ The data also showed that 16 percent of low-income 
children and 21 percent of African-American children living in 
older housing where lead-based paint is most prevalent were 
poisoned, compared to 4.4 percent for the general population at 
the time. In December 2000, CDC provided more recent data 
showing that while some counties had prevalence rates as high 
as 27 percent, the average blood lead level in young children 
had declined by 25 percent from 1996--99.\2\ The data show that 
the problem is most severe in older housing in urban areas, 
although rural areas remain less well characterized.
---------------------------------------------------------------------------
    \1\Centers for Disease Control and Prevention, ``Update: Blood Lead 
Levels--United States 1991--1994,'' Morbidity and Mortality Weekly 
Report, U.S. Department of Health and Human Services/Public Health 
Service, Vol 46, No.7, Feb 21, 1997, p. 141--146 and erratum in vol 46, 
No. 26, p. 607, July 4, 1997. Also, Brody et al., Blood lead levels in 
the U.S. Population: Phase 1 of the third National Health and Nutrition 
Examination Survey, 1988 to 1991, Journal of the American Medical 
Association 272(4): 277--283, July 27, 1994 and Pirkle et al., The 
decline in blood lead levels in the United States, Journal of the 
American Medical Association 272(4):284--291, July 27, 1994.
    \2\Centers for Disease Control and Prevention, Blood lead levels in 
young children--United States and Selected States, 1996--1999, 
Morbidity and Mortality Weekly Report 49(50): 1133--1137, December 22, 
2000.
---------------------------------------------------------------------------
    The most recent CDC published report shows a further 
decline. During 1999--2002, 310,000 children had blood lead 
levels above 10 ug/dL, down from 1.7 million in the late 
1980's.\3\ In addition, the racial and ethnic disparities in 
lead poisoning have been greatly reduced (but not eliminated 
entirely), as shown in the Figure below.
---------------------------------------------------------------------------
    \3\Brody D, Brown MJ, Jones RL, Jacobs DE, Homa D, Ashley PJ, Mosby 
JE, Schwemberger JG and Doa MJ. Blood Lead Levels-United States, 1999--
2002, U.S. Centers for Disease Control and Prevention, Morbidity and 
Mortality Weekly Report 54(20) 513--516, May 27, 2005.
[GRAPHIC] [TIFF OMITTED] 73577.156

    (Figure above is reproduced from reference 3.)
    The reason for this improvement is that the Nation took 
action. Congress and government agencies mandated that lead 
exposures from lead solder in food and infant formula canning, 
gasoline and new residential and toy paint were eliminated. 
Lead in air emissions, occupational exposures and water all 
were controlled and older housing with lead paint is 
continually being rehabilitated, abated or demolished. Studies 
of the numerous (but often subtle and asymptomatic) harmful 
effects of lead were completed and a consensus emerged, 
reflected in a major report from the National Academy of 
Sciences.\4\ All of these actions have caused average blood 
lead levels to decline by over 90 percent since the 1980's, an 
achievement that ranks as one the nation's most successful 
public health stories. Yet if no further action is taken, the 
current rate of childhood lead poisoning, now numbering nearly 
300,000 children each year, means that literally millions of 
children will be unnecessarily poisoned in the decades to come. 
The means and methods to solve this long-running problem are 
known and Congress should act.
---------------------------------------------------------------------------
    \4\National Academy of Sciences. Measuring Lead Exposure in 
Infants, Children, and Other Sensitive Populations, Report of the 
Committee on Measuring Lead in Critical Populations, Board on 
Environmental Studies and Toxicology, Commission on Life Sciences, 
National Academy of Sciences. Washington, DC: National Academy Press, 
1993.
---------------------------------------------------------------------------

  HOUSING IS THE LARGEST AND MOST IMPORTANT SOURCE OF CHILDHOOD LEAD 
                               POISONING

    The evidence is overwhelmingly clear that the major high 
dose source for most children in the U.S. today is existing 
lead-based paint in older housing and the contaminated dust and 
soil it generates.\5\,\6\ The existing limit for lead in new 
residential house paint set by the Consumer Product Safety 
Commission in the U.S. is 600 parts per million (ppm). But 
older paints already coating surfaces in housing can be more 
than 500,000 ppm. These older paints can produce 
extraordinarily high levels of lead dust, exceeding 9,300 
micrograms of lead per square foot (<INF>5</INF>g/ft2) from 
only a single square foot of lead paint in an average sized 
room.\7\ This is much, much higher than the existing EPA dust 
lead standard of 40 <INF>5</INF>g/ft2. And it is also why 
existing lead paint needs urgent attention and must be 
addressed with great care.
---------------------------------------------------------------------------
    \5\Jacobs DE. Lead-based paint as a major source of childhood lead 
poisoning: A review of the evidence. In: Lead in Paint, Soil and Dust: 
Health Risks, Exposure Studies, Control Measures and Quality Assurance 
(Beard ME and Iske SDA, eds). Philadelphia: ASTM STP 1226, American 
Society for Testing and Materials, 1995;175--187.; Also: McElvaine MD, 
DeUngria EG, Matte TD, Copley CG, Binder S. Prevalence of radiographic 
evidence of paint chip ingestion among children with moderate to severe 
lead poisoning, St. Louis, Missouri, 1989--90, Pediatrics 89:740--742 
(1992). Also: Clark CS, Bornschein R, Succop P, Roda S, Peace B. Urban 
lead exposures of children in Cincinnati, Ohio, Journal of Chemical 
Speciation and Bioavailability, 3(3/4):163--171 (1).
    \6\President's Task Force on Environmental Health Risks and Safety 
Risks to Children. Eliminating Childhood Lead Poisoning: A Federal 
Strategy Targeting Lead-based paint Hazards. Washington DC: U.S. 
Department of Housing and Urban Development and U.S. Environmental 
Protection Agency, February 2000.
    \7\HUD Guidelines for the Evaluation and Control of Lead Based 
Paint Hazards in Housing. 1995. U.S. Department of Housing and Urban 
Development, Washington DC, Chapter 4.
---------------------------------------------------------------------------
    The evidence that housing with lead paint hazards is the 
main problem comes from several sources. Together with others, 
I recently published a study showing that the reduction in 
childhood lead poisoning from 1990 to the present can be 
largely explained by trends in housing demolition, window 
replacement and other renovation, and lead paint abatement.\8\ 
If housing were not the main contributor, then demolition, 
window replacement and abatement trends would not have tracked 
the trend in childhood lead poisoning as closely as it actually 
has.
---------------------------------------------------------------------------
    \8\Jacobs DE and Nevin R. Validation of a Twenty-Year Forecast of 
U.S. Childhood Lead Poisoning: Updated Prospects for 2010, Environ Res 
102(3) 352--364, Nov 2006.
---------------------------------------------------------------------------
    Furthermore, a HUD survey of the nation's housing stock 
(conducted in 2000) shows that the estimated number of homes 
with lead paint declined from 64 million in 1990 to 38 million 
in 2000, out of a total of about 100 million houses. But of the 
38 million housing units with lead paint, 24 million still have 
significant lead hazards in the form of deteriorated lead 
paint, contaminated dust, or contaminated bare soil. Over five 
million of these houses have children under the age of 6, and 
1.6 million have low-income families with children under 6, the 
population most at risk. Forty-one percent of low-income 
housing has lead paint hazards, compared to 18 percent of 
middle and upper income housing.\9\ In short, these housing 
data are consistent with blood lead surveillance data. The 
problem is well-defined and the houses likely to pose problems 
are well-known.
---------------------------------------------------------------------------
    \9\Jacobs DE, Clickner RL, Zhou JL, Viet SM, Marker DA, Rogers JW, 
Zeldin DC, Broene P and W. Friedman. The Prevalence of Lead-Based Paint 
Hazards in U.S. Housing, Environ Health Perspect 110:A599-A606, Sept 
13, 2002. Also see HUD, National Survey of Lead and Allergens in 
Housing, 2001 (available at www.hud.gov/offices/lead).
---------------------------------------------------------------------------

         NO REGULATION OF HOUSING BEING RENOVATED OR REPAINTED

    The data also show that the problem is severe in housing 
undergoing rehabilitation, repair or painting that disturbs 
lead-based paint, creating dust and soil hazards. Consider the 
following tragic case study:
    (The following description of the Marino case report is 
reproduced from the HUD Guidelines for the Evaluation and 
Control of Lead Based Paint Hazards in Housing, Chapter 4.)
[GRAPHIC] [TIFF OMITTED] 73577.155

    HUD issued a regulation that controlled exposures from 
federally assisted housing undergoing renovation, repair or 
painting (as well as other forms of assistance). The regulation 
was issued in 1999, had a 1-year phase-in period and finally 
took full effect in 2001.\10\ The experience with the HUD 
regulation shows that renovation and repair work can be done 
safely and is feasible and effective. But of course it only 
covers federally assisted housing, which is only a small 
fraction of the houses at risk. The cost of implementing that 
regulation in its first year was approximately $253 million, 
but the benefits were a minimum of $1.1 billion, yielding a net 
benefit of at least $890 million in the first year alone.\11\ 
It is worth noting that the U.S. Office of Management and 
Budget approved the economic analysis accompanying the HUD 
regulation.
---------------------------------------------------------------------------
    \10\24 CFR Part 35
    \11\Nevin R, Weitz S, Jacobs DE. Regulatory Impact Analysis of the 
Proposed Rule on Lead-Based Paint Hazard Evaluation and Reduction for 
federally Supported Housing, ICF Corporation, Washington DC, September 
8, 1995, final Economic Analysis published in September, 1999.
---------------------------------------------------------------------------
    There was every expectation that EPA would quickly follow 
suit in 2000 and regulate renovation, remodeling and painting 
activities in housing that does not receive Federal assistance, 
as required by Congress in 1992.\12\ Yet it is now 11 years 
after Congress required that this rule be passed, and neither 
the Clinton nor the Bush administrations have issued a final 
regulation. EPA's own estimate is that the regulation would 
protect 1.1 million children each year.
---------------------------------------------------------------------------
    \12\Title X of the 1992 Housing and Community Development Act.
---------------------------------------------------------------------------
    The question now before us is simply this: Why should 
children living in unassisted housing receive no protection, 
while those living in federally assisted housing are protected? 
All children should be able to live in homes without lead 
hazards.
    The net economic benefits of EPA's regulation are even 
larger than those associated with the HUD regulation, because 
the EPA regulation covers more housing units. The current 
estimates are that the EPA regulation achieves net benefits of 
between $2.6 billion to $7.5 billion annually.\13\ In short, 
the EPA regulation makes both good policy and good economic 
sense.
---------------------------------------------------------------------------
    \13\Economic Analysis for the Renovation, Repair and Painting 
Proposed Rule. Feb 2006. http://www.epa.gov/lead/pubs/rrp--nprm--ea--
revised.pdf.
---------------------------------------------------------------------------
    The evidence that uncontrolled housing renovation, repair 
and painting activities cause lead poisoning is overwhelming. 
NCHH and others have reviewed this extensive evidence base in 
earlier testimony provided to EPA.\14\ The administration did 
finally propose a regulation covering these activities nearly 2 
years ago, but only after bipartisan pressure from Congress. 
However, the proposed regulation is badly flawed. The proposed 
regulation would allow dangerous methods of removing lead 
paint, such as power sanding, abrasive blasting, and burning. 
All of these methods are now prohibited in federally assisted 
housing and in many local jurisdictions, because they create 
extraordinarily high levels of lead dust that is virtually 
impossible to clean up and pose large exposures to workers (one 
of my studies showed that workers engaged in these activities 
have exposures to lead of 11,000 micrograms per cubic meter, 
well above the OSHA limit of 50 micrograms per cubic 
meter).\15\ When these practices are permitted, the cost of 
cleaning up a single house has been shown to be nearly 
$200,000.\16\ The cost of doing this work safely is a tiny 
fraction of that.
---------------------------------------------------------------------------
    \14\National Center for Healthy Housing, Comments Regarding 
Dangerous Work Practices in EPA's Proposed Regulation on Renovation, 
Repair and Painting. EPA Docket EPA-HQ-OPPT--2005--0049, March 24, 
2006. Available at: http://www.nchh.org/NCHH--Comment--Dangerous--
Work--Practices--Final--3--24--06.pdf.
    \15\Jacobs DE. Occupational Exposures to Lead-Based Paint in 
Structural Steel Demolition and Residential Renovation, International 
Journal of Environment and Pollution 9:1 126--139, Inderscience 
Enterprises, United Nations Educational, Scientific and Cultural 
Organization, Switzerland, 1998.
    \16\Jacobs DE, Mielke H, Pavur N. The High Cost of Improper Lead-
Based Paint Removal, Env Health Perspectives 111:185--186, 2003.
---------------------------------------------------------------------------
    The proposed regulation would also implement cleaning 
methods that research has found to be ineffective\17\ and an 
entirely unproven lead dust testing method at the end of the 
job to ensure the dwelling is safe for children to occupy. 
There are established cleaning and lead dust testing 
procedures\18\ that are known to achieve very low dust lead 
levels, up to 6 years following the repairs.\19\ In particular, 
dust testing after the work has been completed is essential to 
ensuring that cleaning has been adequate. Without dust testing, 
many houses will contain high levels of lead dust, which is not 
necessarily visible to the naked eye. The absence of dust 
testing places children unnecessary risk.
---------------------------------------------------------------------------
    \17\Comments from NCHH on Two New Studies in the EPA Docket, April 
16, 2007. Available at: http://www.nchh.org/Comment--on--EPA--and--
NAHB--Studies--Final--4--15--07.pdf.
    \18\HUD Guidelines for the Evaluation and Control of Lead-Based 
Paint Hazards in Housing, Department of Housing and Urban Development, 
Washington DC, 1995.
    \19\Wilson J, Pivetz T, Ashley PJ, Strauss W, Jacobs DE, Menkedick 
J, Dixon S, Tsai HC, and V. Brown, Evaluation of HUD-Funded Lead Hazard 
Control Treatments at Six Years Post-Intervention, Environ Res. 102(2) 
237--48 Oct 2006.
---------------------------------------------------------------------------
    Recently, the National Center for Healthy Housing worked 
with the National Association of Home Builders to once again 
prove that uncontrolled methods of paint removal and housing 
renovation result in very high dust lead levels.\20\ The 
evidence is clear that renovation, repair and painting can 
produce high dust lead levels. The Administration should 
quickly promulgate a final, responsible regulation to eliminate 
excessive exposures caused by lead from housing renovation, 
repair and painting and should follow the procedures already in 
place in the HUD regulation.
---------------------------------------------------------------------------
    \20\Comments from NCHH on Two New Studies in the EPA Docket, April 
16, 2007. Available at: http://www.nchh.org/Comment--on--EPA--and--
NAHB--Studies--Final--4--15--07.pdf.
---------------------------------------------------------------------------
    The EPA regulation would also cover weatherization 
programs. These programs often disturb lead-based paint and 
create lead dust hazards. NCHH, in collaboration with Oak Ridge 
National Laboratories, recently completed a study for the 
Department of Energy. The study showed that between 29 percent 
and 70 percent of the floors in the nearly 60 houses studied 
had higher dust lead levels following weatherization than 
before the work began or were above the existing EPA dust lead 
standards after the work was completed.\21\ This means that 
improved cleanup measures and dust testing after the work has 
been completed are needed (DOE does not currently require lead 
dust testing after the work is finished, unlike the other 
Federal programs). Families receiving weatherization assistance 
should not have their children inadvertently poisoned in the 
process.
---------------------------------------------------------------------------
    \21\National Center for Healthy Housing, Analysis of Lead-Safe 
Weatherization Practices and the Presence of Lead in Weatherized Homes, 
March 14, 2007. Available at: http://www.nchh.org/html/doe--study.htm.
---------------------------------------------------------------------------

                       INCOMPLETE HUD REGULATION

    It is worth noting that the HUD regulation remains 
incomplete. Only one HUD housing program remains that did not 
incorporate modern lead hazard control methods and was not 
covered in 1999, but it is an important one--the single family 
mortgage insurance program. A section of the HUD regulation is 
reserved for final action for this program (24 CFR Part 35, 
Subpart E), but no such action has been forthcoming since 1999.
    Why should children who live in housing with multi-family 
mortgage insurance be covered, while children who live in 
housing with single-family mortgage insurance remain 
unprotected? HUD should finalize its regulation so that all 
children in federally assisted housing are protected.

               THE LOW-INCOME HOUSING TAX CREDIT PROGRAM

    Furthermore, the Low Income Housing Tax Credit program, 
which is perhaps the Federal Government's largest housing 
construction and rehabilitation program, does not have explicit 
lead-based paint requirements. This means that approximately 
14,000 housing units are rehabilitated each year without regard 
to lead-based paint hazards.\22\
---------------------------------------------------------------------------
    \22\Jacobs DE. The Low Income Housing Tax Credit and Childhood Lead 
Poisoning Prevention Final Report, Prepared for the Centers for Disease 
Control and Prevention, Contract 200--2006-M--18771, April 15, 2007.
---------------------------------------------------------------------------
    Taxpayers should not be subsidizing housing rehabilitation 
that could poison children.

                                FUNDING

    In 2000, the Federal Government estimated that a minimum of 
$2.4 billion would be needed to address lead paint hazards in 
housing. To date, less than half of that amount has actually 
appropriated. Indeed, although housing remains the most 
important source of exposure to lead for most children today in 
the U.S., major funding reductions have been proposed for the 
past several years by this Administration. For example, last 
year the President proposed only $115 million for HUD's lead 
hazard control and healthy homes program, well below the $175 
million appropriated in recent years, out of a total HUD budget 
of over $30 billion. A long-standing bipartisan congressional 
coalition has consistently resisted these reductions and 
restored some of the funding. Yet funding still remains well 
below the levels needed to eliminate the problem by 2010, a 
goal that has been embraced in theory by this Administration 
and previous ones.\23\ Neither the Bush nor Clinton 
administrations have ever proposed full funding of the Federal 
Government's lead poisoning prevention activities in housing.
---------------------------------------------------------------------------
    \23\Eliminating Childhood Lead Poisoning: A Federal Strategy, 
President's Task Force on Children's Environmental Health Risks and 
Safety Risks, Washington DC (March 2000). Available at: http://
www.hud.gov/offices/lead/reports/fedstrategy.cfm.

---------------------------------------------------------------------------

[[Page 100]]

    Furthermore, there have been reductions in funding for 
important lead poisoning prevention programs at CDC and EPA, 
which are also hampering the nation's efforts to address the 
problem.
    The Federal programs need to be fully funded if they are to 
be effective in protecting the nation's children.

                           EXISTING STANDARDS

Lead Dust
    Lead-contaminated settled dust is known to be a major 
exposure pathway and its effect on children's blood lead has 
been demonstrated in numerous studies that have been analyzed 
elsewhere.\24\ In 1999 and 2001 respectively, the U.S. 
Department of Housing and Urban Development and the U.S. 
Environmental Protection Agency established lead dust standards 
for the home environment.\25\ Generally, the standards were 
based on three criteria:
---------------------------------------------------------------------------
    \24\Lanphear et al. Lanphear BP, Matte TD, Rogers J, Clickner RP, 
Dietz B, Bornschein RL, Succop P, Mahaffey KR, Dixon S, Galke W, 
Rabinowitz M, Farfel M, Rohde C, Schwartz J, Ashley P, Jacobs DE. The 
Contribution of Lead-Contaminated House Dust and Residential Soil to 
Children's Blood Lead Levels: A Pooled Analysis of 12 Epidemiologic 
Studies, Env. Research, 79:51--68, 1998.
    \25\24 CFR Part 35 (HUD) and 42 CFR Part 745 (EPA).

     Health and the relationship between dust lead and 
children's blood lead;
     Feasibility of meeting and maintaining compliance with 
the standards; and
     Laboratory detection (reporting) limit capabilities.
    Below, I present new evidence for each of these three 
considerations, which suggests the dust lead standards can and 
should be lowered.

    The EPA and HUD standard for dust lead on floors was set to 
protect 95 percent of children from developing a blood lead 
level equal or greater than 15 <INF>5</INF>g/dL (the 
environmental intervention level established by CDC in 1991), 
holding all other measured exposures (e.g., soil, dust, water) 
to their national averages (blood lead levels are discussed 
further below). The EPA and HUD floor dust lead standard is 40 
micrograms of lead per square foot of floor (<INF>5</INF>g/
ft2).
    After the HUD and EPA standards were promulgated, we 
published a study showing that a floor dust lead level equal or 
less than 15 <INF>5</INF>g/ft2 achieved the highest specificity 
and sensitivity (77 percent and 58 percent, respectively), 
suggesting that such a standard would be both most protective 
of health and at the same time be least likely to produce false 
cause for concern.\26\
---------------------------------------------------------------------------
    \26\National Center for Healthy Housing, Study of HUD's Risk 
Assessment Methodology in Three US Communities, Final Report, June 30, 
2006.
---------------------------------------------------------------------------
    Furthermore, new evidence has emerged that a lower dust 
lead level is feasible in today's housing. New national 
estimates of the prevalence of lead dust in US housing were 
published in 2002.\27\ That study showed that only 5 percent of 
homes had dust lead levels above 13 <INF>5</INF>g/ft2 and the 
geometric mean was only 1 <INF>5</INF>g/ft2. In addition, new 
data from high-risk houses that were examined 6 years after 
hazard control was completed showed that dust lead levels on 
floors continued to decline, reaching a geometric mean of only 
4.8 <INF>5</INF>g/sq ft.\28\ In high-risk houses enrolled in 
the large-scale Evaluation of the HUD Lead Hazard Control Grant 
program (which was conducted in the mid-to-late 1990's), the 
median dust lead level immediately following lead hazard 
control work was 17 <INF>5</INF>g/ft,2 which declined to a 
median level of 14 <INF>5</INF>g/ft2 1 year later.\29\ In the 
preamble to its regulations, HUD and EPA stated that this 
demonstrated the feasibility of both meeting and continuing to 
maintain compliance with a floor lead dust standard of 40 
<INF>5</INF>g/ft.2.
---------------------------------------------------------------------------
    \27\Jacobs DE, Clickner RL, Zhou JY, Viet SM, Marker DA, Rogers JW, 
Zeldin DC, Broene P and Friedman W. The Prevalence of Lead-Based Paint 
Hazards in U.S. Housing, Environ Health Perspect 110:A599-A606, Sept 
13, 2002. And: U.S. Department of Housing and Urban Development, 
National Survey of Lead and Allergens, Volume 1, Analysis of Lead 
Hazards, Prepared by Westat, Oct 31, 2002 Jacobs EHP and HUD report.
    \28\Wilson J, Pivetz T, Ashley PJ, Strauss W, Jacobs DE, Menkedick 
J, Dixon S, Tsai HC, and Brown V. Evaluation of HUD-Funded Lead Hazard 
Control Treatments at Six Years Post-Intervention, Environ Res. 102(2) 
237--48 with Oct 2006.
    \29\National Center for Healthy Housing. 2004. Evaluation of the 
HUD Lead Hazard Control Grant Program, Final Report, National Center 
for Healthy Housing and University of Cincinnati, Columbia, MD.
---------------------------------------------------------------------------
    But the new data now show that this standard is obviously 
well above the average level in high risk homes, and also 
greatly above the average level in all U.S. housing. Together, 
these data demonstrate that a dust lead standard of equal or 
less than 15 <INF>5</INF>g/ft2 is feasible.

[[Page 101]]

    The final issue is whether or not a lower floor dust lead 
level can be measured reliably. A method detection limit used 
by laboratories should be lower than a regulatory standard to 
ensure measurement reliability and avoid the possibility that a 
level above the standard is due to laboratory or sampling error 
and not actual non-compliance with the standard. At the time 
the HUD and EPA standards were promulgated, many analytical 
laboratories used a method detection limit of 25 <INF>5</INF>g 
per sample, so HUD and EPA stated that a standard of 40 
<INF>5</INF>g/ft2 could be measured reliably, since 
laboratories could measure levels well below the standard. 
Laboratories have since improved and most laboratories today 
use a detection limit of only 3--5 <INF>5</INF>g/sample.\30\
---------------------------------------------------------------------------
    \30\Personal Communication, S. Roda, University of Cincinnati Lead 
Reference Laboratory, 2007.
---------------------------------------------------------------------------
    Together, this evidence shows that lead dust loadings at 
the existing Federal standard for floors of equal or less than 
40 <INF>5</INF>g/ft2 produces harm in too many children and 
that lower levels are both feasible and can be reliably 
measured as new research and technology have advanced in the 
years since the 1999 HUD and 2001 EPA standards were 
promulgated. By reducing the allowable floor dust lead loading 
from equal or less than 40 <INF>5</INF>g/ft2 to equal or less 
than 15 <INF>5</INF>g/ft2 , the percentage of children who 
would be protected from developing a blood lead level equal or 
greater than 15 <INF>5</INF>g/dL would be cut in half, from 4.7 
percent to 2.1 percent. Because no safe level of exposure to 
lead has been established, dust lead levels should be kept as 
low as possible.
    Historically, allowable dust lead standards have been 
reduced, as research has progressed. In the early 1990's, 
Maryland enacted a floor lead dust standard of equal or less 
thatn 200 <INF>5</INF>g/sq ft.\31\ EPA issued guidance in 1995 
lowering the floor dust lead standard to equal or less than 100 
<INF>5</INF>g/sq ft.\32\ And in 1999--2001, HUD and EPA 
promulgated a floor dust lead standard of equal or less than 40 
<INF>5</INF>g/ft,2 which has since remained unchanged.
---------------------------------------------------------------------------
    \31\Maryland Annotated Code 26.02.07.
    \32\U.S. Environmental Protection Agency. Guidance on 
Identification of Lead-Based Paint Hazards; Notice. Federal Register 
Vol 60 No. 175 Sept 11, 1995 p. 47248.
---------------------------------------------------------------------------
    In short, the evidence supports a further reduction in the 
lead dust standard. The evidence shows that a standard of 15 
<INF>5</INF>g/ft2 or lower for floors will reduce harm to 
children significantly and is both feasible and measurable.
Blood Lead Levels
    The preceding discussion of dust lead standards is based on 
protecting children from developing a blood lead level that 
would require an intervention under current CDC Guidelines and 
HUD regulations, which were developed in 1991 and 1999, 
respectively. It should be noted that the Federal environmental 
intervention level is above the CDC level of concern, which is 
equal or greater than 10 <INF>5</INF>g/dL.
    Importantly, the CDC level of concern was not established 
to be a ``safe'' or ``normal'' level, although some have used 
it in this fashion. As early as 1991, CDC reported that adverse 
health effects could be seen at blood lead levels below 10 
<INF>5</INF>g/dL.\33\ More recent evidence from multiple 
studies, reviewed by CDC itself, has confirmed the 1991 CDC 
Statement that no safe level of lead exposure has been 
found.\34\,\35\
---------------------------------------------------------------------------
    \33\Preventing Lead Poisoning In Young Children: A Statement by the 
Centers for Disease Control and Prevention, October 1991. Available at: 
http://www.cdc.gov/nceh/lead/publications/books/plpyc/contents.htm.
    \34\A Review of the Evidence of Health Effects of Blood Lead Levels 
? 10 <INF>5</INF>g/dL, Feb 23, 2004. Available at: http://www.cdc.gov/
nceh/lead/ACCLPP/meetingMinutes/lessThan10MtgMAR04.pdf.
    \35\Canfield, Richard L., Christopher R. Henderson, Deborah Cory-
Slechta, C. Cox, Todd A. Jusko, and Bruce P. Lanphear 2003. 
Intellectual impairment in children with blood lead levels below 10 ?g/
dL. The New England Journal of Medicine, 348, 1517--1522 and Lanphear 
et al. 2005. Low-level environmental lead exposure and children's 
intellectual function: An international pooled analysis Env Health 
Perspectives 113:894--899.
---------------------------------------------------------------------------
    Physicians and other medical professionals have in recent 
years suggested that CDC should lower its current blood lead 
level of concern. While the level of concern has declined over 
the years from 60 <INF>5</INF>g/dL to 30 <INF>5</INF>g/dL to 25 
<INF>5</INF>g/dL to the current level of 10 <INF>5</INF>g/dL, I 
believe that further reductions are unlikely to actually help 
prevent exposures. This is because blood lead levels should not 
be used to trigger exposure prevention. Instead of waiting for 
a child to produce a blood lead level of 2, 5, 10, or 15 
<INF>5</INF>g/dL (or any other level), we should eliminate 
exposures before harm occurs. Quite simply, this means that we 
should not wait for a child's blood lead level to increase 
before taking action. Primary prevention (taking action to 
prevent expo

[[Page 102]]

sure) is much more important than adherence to a medical 
approach that is limited to treating children only after they 
have been harmed. The nation should be testing and abating 
houses and other sources to prevent exposure, not just use 
children as detectors of lead problems. In order to avoid the 
perception that a blood lead level of 10 <INF>5</INF>g/dL or 5 
<INF>5</INF>g/dL is ``normal'' or ``safe,'' CDC and other 
medical authorities might considering labeling blood lead 
levels between 2 and 10 <INF>5</INF>g/dL what they really are: 
``above average.''
    The important point is that all exposures should be kept as 
low as possible, because no safe level of exposure to lead has 
been established. 1Lead-Safe Window Replacement
    Together with colleagues, I have recently published a study 
showing that window replacement is particularly important. 
Specifically, replacing single-pane windows in older housing 
(nearly all such windows are known to have lead paint) will 
achieve net benefits of at least $67 billion over 10 years.\36\ 
Window replacement has emerged as a major form of controlling 
lead-based paint hazards, because more than any other building 
component, windows are known to contain the highest levels of 
lead paint and lead-contaminated dust.\37\ The benefits come 
from reduced childhood lead poisoning, lower utility bills from 
heating and cooling, and increased market value. Yet energy 
conservation professionals often fail to recommend window 
replacement with energy-efficient windows, and lead hazard 
control programs are often unable to afford this expense in 
light of reduced funding. In short, a lead-safe window 
replacement incentive can make a major impact on preventing 
childhood lead poisoning, while also achieving improved energy 
conservation and increased home value--all at the same 
time.\38\
---------------------------------------------------------------------------
    \36\Nevin R, Jacobs DE, Berg M, Cohen J. Monetary benefits of 
preventing childhood lead poisoning with lead-safe window replacement, 
Environ Res (accepted, in press).
    \37\Jacobs DE, Clickner RL, Zhou JL, Viet SM, Marker DA, Rogers JW, 
Zeldin DC, Broene P and W. Friedman. The Prevalence of Lead-Based Paint 
Hazards in U.S. Housing, Environ Health Perspect 110:A599-A606, Sept 
13, 2002.
    \38\Nevin R and Jacobs DE. Windows of Opportunity: Lead Poisoning 
Prevention, Housing Affordability and Energy Conservation, Housing 
Policy Debate 17(1): 185--207, 2006.
---------------------------------------------------------------------------
    Federal energy, environmental, and housing policies, 
together with local utility programs and policies should be 
modified to encourage homeowners and others to replace lead 
contaminated windows with new energy-efficient ones.

                            EMERGING THREATS

    The nation is now faced with emerging exposures that 
threaten the progress we have made. New residential lead-based 
paint is now being manufactured in several Asian countries\39\ 
and in Nigeria\40\ and likely elsewhere. The concentrations of 
lead in these paints is enormous, exceeding 100,000 parts per 
million (ppm). By comparison, the existing US standard for lead 
in residential paint is 600 ppm.
---------------------------------------------------------------------------
    \39\Clark CS, et al. 2006. The lead content of currently available 
residential paint in several Asian countries. Environ Res 102: 9--12.
    \40\Adebamowo EB, et al. 2007. Lead content of dried films of 
domestic paint currently sold in Nigeria. Science of the Total Environ. 
Article in Press. Available on line at www.sciencedirect.com.
---------------------------------------------------------------------------
    It is bad enough that these countries are contaminating 
their own houses and putting their own workers and children at 
great risk. But in today's global economy, it is only a matter 
of time before these products appear in the U.S., re-
contaminating the very houses that taxpayers and parents have 
already spent billions cleaning up.
    The table below presents some of the recent data collected 
by my colleague, Dr. Scott Clark from the University of 
Cincinnati, and his co-workers. The table is reproduced from 
reference 39.
[GRAPHIC] [TIFF OMITTED] 73577.157

    These emerging threats are not limited to paint. Lead 
contaminated toy jewelry has already caused deaths in at least 
one child\41\ and has likely exposed many others. There is no 
reason for lead to be used in any children's product, including 
plastic toys. Other non-toxic stabilizers and additives can and 
should be used, as has been done in house paint here in the 
U.S.
---------------------------------------------------------------------------
    \41\KK Berg et al. 2006. Death of a child after ingestion of a 
metallic charm. Morbidity and Mortality Weekly Report 55(12) 340--341.
---------------------------------------------------------------------------
    This does not mean that all uses of lead should be 
eliminated. Some applications have important uses and can be 
properly managed. Shielding around X-ray machines and use in 
batteries that are required to be recycled are two such 
examples.

                               CONCLUSION

    Lead paint in housing remains the largest and most 
significant source of exposure for U.S. children today. 
Programs to address this problem should be fully funded and 
regulations should be promulgated to prevent exposures from 
housing renovation, repair and painting.
    If there is one lesson from the nation's experience with 
lead poisoning, it is simply this:
    Once non-essential uses of lead are permitted to enter 
commerce in dispersed forms such as paint, gasoline, food 
canning, toys and others, it is very difficult to prevent 
exposure or to manage it after the fact. It is far more costly 
to clean up the contamination than to prevent it at the outset. 
Government policies should prevent all non-essential uses of 
lead, especially the emerging use of lead in new house paint 
from other countries.

                            RECOMMENDATIONS

    1. Require EPA to promulgate a responsible and effective 
regulation to prevent lead exposures from housing renovation, 
repair, painting and weatherization without further delay. 
Authorize a program to stimulate the replacement of old single-
pane windows in older housing, which will achieve net benefits 
of at least $67 billion over 10 years in lead poisoning 
prevention, reduced energy consumption, and increased home 
market value.
    2. For the first time, fully fund Federal lead poisoning 
prevention programs at EPA, CDC and HUD. These programs have 
been proven to work. The Administration's repeated attempt to 
reduce funding in recent years has been rebuffed by a bi-
partisan consensus in Congress, but funding still remains well 
below the recognized need.
    3. Mandate that the Consumer Product Safety Commission and 
other agencies with regulatory authority over international 
trade take steps to prevent new residential lead-based paint 
and other lead-contaminated consumer products from being 
manufactured for U.S corporations or imported. Provide the CPSC 
and other agencies with adequate resources to carry this out.
    4. Initiate actions to eliminate all non-essential uses of 
lead.
    5. Require HUD to complete its lead regulations by 
modernizing its lead requirements for single family housing 
mortgage insurance (24 CFR Part 35, Subpart E.)
    6. Require EPA to reduce the floor dust lead standard to 15 
<INF>5</INF>g/ft2 or less. Such a reduction will protect more 
children, is feasible, and is measurable.
    7. Require the Department of Energy to improve cleaning 
methods and to conduct clearance dust lead testing after 
weatherization work that disturbs lead-based paint.
[GRAPHIC] [TIFF OMITTED] 73577.142

[GRAPHIC] [TIFF OMITTED] 73577.143

[GRAPHIC] [TIFF OMITTED] 73577.144

[GRAPHIC] [TIFF OMITTED] 73577.145

[GRAPHIC] [TIFF OMITTED] 73577.146

[GRAPHIC] [TIFF OMITTED] 73577.147

[GRAPHIC] [TIFF OMITTED] 73577.148

[GRAPHIC] [TIFF OMITTED] 73577.149

[GRAPHIC] [TIFF OMITTED] 73577.150

[GRAPHIC] [TIFF OMITTED] 73577.151

[GRAPHIC] [TIFF OMITTED] 73577.152

[GRAPHIC] [TIFF OMITTED] 73577.153

         Responses by David E. Jacobs to Additional Questions 
                          from Senator Inhofe

    Question 1. Dr. Jacobs, there is a statement by the CDC 
that said, ``Efforts to identify and provide services to 
children with blood lead levels less than 10 micrograms per 
deciliter may deflect needed resources from children with 
higher blood levels who are likely to benefit most from 
individualized intervention.'' I guess what I would like to 
know, and this would be fine to do for the record, do you agree 
with the statement? And then, should we focus or should we not 
focus our resources on those kids with the greatest risk? That 
would be one.
    Response. A long-standing public health principle is that 
those with the worst conditions should be treated first and 
most intensively, which means that resources should be focused 
on those with the greatest need. Our public health workforce 
has become adept at triage to accomplish this. However, a 
medical approach where treatment is triggered by a clinical 
blood lead test is not effective for the vast majority of 
children today, because the key is to prevent blood lead levels 
from increasing in the first place. Of course, for some 
children who have very high blood lead levels, rapid medical 
intervention is needed and CDC has established guidance for 
those medical procedures at various blood lead levels. In 
short, there is no single ``CDC level.''
    Environmental interventions, such as controlling lead paint 
hazards in a child's home, are entirely different than medical 
treatment. CDC's position clearly calls for ``a systematic and 
society wide effort to control or eliminate lead hazards in 
children's environments before they are exposed?and is clearly 
the foremost action''\1\ It is noteworthy that this statement 
applies to all children, not only to children with a certain 
blood lead level. Together with Dr. Pat McLaine from the 
National Center for Healthy Housing and others, I worked with 
CDC to publish an official statement on the importance of 
primary prevention in housing.\2\ A part of this exposure 
prevention effort ensures that homes undergoing renovation, 
repair or painting do not create lead exposures in the process. 
The idea that the long-delayed EPA regulation covering these 
activities would inadvertently create more incentives for do-
it-yourselfers to do the work unsafely, instead of trained and 
regulated construction workers is without merit. Similar fears 
were expressed when HUD promulgated its regulation covering 
renovation in federally assisted housing. Despite fears 
expressed by homebuilders and others, there is no evidence that 
the HUD regulation caused an increase in unsafe work by do-it-
yourselfers.
---------------------------------------------------------------------------
    \1\Preventing Lead Poisoning In Young Children: A Statement by the 
Centers for Disease Control and Prevention, August 2005. Available at: 
http://www.cdc.gov/nceh/lead/publications/PrevLeadPoisoning.pdf
    \2\Preventing Lead Exposure in Young Children: A Housing-Based 
Approach to Primary Prevention, October 2004. Available at: http://
www.cdc.gov/nceh/lead/publications/Primary percent20Prevention 
percent20Document.pdf
---------------------------------------------------------------------------
    The CDC level of concern of 10 ug/dL was not established to 
be a ``safe'' or ``normal'' level or a level below which 
nothing needs to be done, although some have erroneously used 
it in this fashion. As early as 1991, CDC reported that adverse 
health effects could be seen at blood lead levels below 10 ug/
dL.\3\ More recent evidence from multiple studies, reviewed by 
CDC itself as recently as 2005,\4\ has confirmed again the 1991 
CDC Statement that no safe level of lead exposure has been 
found.\5\ A further review of this evidence is unlikely to 
yield any new fresh insights.
---------------------------------------------------------------------------
    \3\Preventing Lead Poisoning In Young Children: A Statement by the 
Centers for Disease Control and Prevention, October 1991. Available at: 
http://www.cdc.gov/nceh/lead/publications/books/plpyc/contents.htm
    \4\Preventing Lead Poisoning In Young Children: A Statement by the 
Centers for Disease Control and Prevention, August 2005. Available at: 
http://www.cdc.gov/nceh/lead/publications/PrevLeadPoisoning.pdf
    \5\Canfield, Richard L., Christopher R. Henderson, Deborah Cory-
Slechta, C. Cox, Todd A. Jusko, and Bruce P. Lanphear 2003. 
Intellectual impairment in children with blood lead levels below 10 ug/
dL. The New England Journal of Medicine, 348, 1517--1522 and Lanphear 
et al. 2005. Low-level environmental lead exposure and children's 
intellectual function: An international pooled analysis Env Health 
Perspectives 113:894--899.
---------------------------------------------------------------------------
    In recent years, a few physicians and other medical 
professionals have suggested that CDC should lower its current 
blood lead level of concern. While this level has declined over 
the years from 60 ug/dL to 30 ug/dL to 25 ug/dL to the current 
level of 10 ug/dL, blood lead levels should not be used to 
trigger exposure prevention. Instead of waiting for a child to 
produce a blood lead level of 2, 5, 10, or 15 ug/dL (or any 
other level), the Nation should eliminate exposures before harm 
occurs. Quite simply, this means that we should not wait for a 
child's blood lead level to increase before taking action. This 
is consistent with CDC's position. The idea that CDC recommends 
no action at blood lead levels below 10 ug/dL is incorrect. In 
fact, CDC has recently published guidance on what actions need 
to be taken at blood lead levels below 10 ug/dL.\6\ Primary 
prevention (taking action to prevent exposure) is much more 
important than adherence to a medical approach that is limited 
to treating children only after they have been harmed. We 
should not use children as detectors of lead problems and we 
must not wait until children's blood lead levels increase. 
Instead, the Nation should be testing and abating houses and 
other sources of lead to prevent exposure, and focusing 
resources on where the exposures are greatest.
---------------------------------------------------------------------------
    \6\Binns HJ, Campbell C, Brown MJ, Interpreting and Managing Blood 
Lead Levels of Less Than 10 ug/dL in Children and Reducing Childhood 
Exposure to Lead: Recommendations of the Centers For Disease Control 
and Prevention Advisory Committee on Childhood Lead Poisoning 
Prevention. Pediatrics 120 (3) e1285-e1298. Nov 2007.
---------------------------------------------------------------------------
    Question 2. Dr. Jacobs, you have conducted numerous studies 
that suggest housing is the biggest source of childhood lead 
exposure in your testimony, you say that the nation should be 
testing and abating houses to identify lead problems. Is 
focusing on the housing problem the best way to get the biggest 
bang for our buck? If we could do one thing inside of a home to 
reduce lead paint exposure, what would it be?
    Response. In my written testimony, I have provided 
references to numerous studies demonstrating that for most 
children in the U.S. today, exposure to residential lead-based 
paint hazards constitutes the greatest threat of lead 
poisoning. Most housing still remains untested and unabated in 
this country. For individual children, of course, exposures to 
other sources of lead, some of which can be quite severe and 
even fatal, are critically important and therefore must be 
promptly addressed. Generally speaking, focusing on housing 
with lead paint does remain the best way to get the biggest 
bang for our buck, because that is where most exposures to lead 
are the greatest. We must focus on housing, while also 
retaining and expanding the public health capacity to respond 
to other important lead exposure sources. Within housing, lead-
safe window replacement is likely to be the best one thing we 
could do to reduce lead paint exposure.\1\
---------------------------------------------------------------------------
    \1\Nevin R, Jacobs DE, Berg M, Cohen J. Monetary benefits of 
preventing childhood lead poisoning with lead-safe window replacement, 
Environ Res, (Accepted Sept 6, 2007, Available on line. doi: 10:1016/
j.envres 2007.09.003).
---------------------------------------------------------------------------
    Question 3. The CDC has stated that ``Efforts to identify 
and provide services to children with blood lead levels less 
than 10 micrograms per deciliter may deflect needed resources 
from children with higher blood lead levels who are likely to 
benefit most from individualized interventions.'' Do you agree 
with this statement? Shouldn't we focus our resources on those 
kids with greatest risk?
    Response. The CDC level of 10 ug/dL was not established to 
be a ``safe'' or ``normal'' level, although some have used it 
in this fashion. In fact, CDC, together with the American 
Academy of Pediatrics, has recently published new guidance on 
what actions should be taken at blood lead levels less than 10 
ug/dL.\2\ Sound public health practice requires that those with 
the highest exposures or worst conditions be treated first, as 
any visitor to a hospital emergency room knows. Yes, resources 
must be focused on children at greatest risk and we should 
provide additional resources so that no child is placed at 
excessive risk The essential point is that blood lead levels 
should not be used to trigger exposure prevention. Instead of 
waiting for a child to produce a blood lead level of 2, 5, 10, 
or 15 ug/dL (or any other level), we should eliminate exposures 
before harm occurs. Quite simply, this means that we should not 
wait for a child's blood lead level to increase before taking 
action. Primary prevention (taking action to prevent exposure) 
is much more important than adherence to a medical approach 
that is limited to treating children only after they have been 
harmed. The nation should be testing and abating houses and 
other sources to prevent exposure, not just use children as 
detectors of a lead problem.
---------------------------------------------------------------------------
    \2\Binns HJ, et al. 2007. Interpreting and Managing Blood Lead 
Levels Less Than 10 ug/dL in Children and Reducing Childhood Exposure 
to Lead. Pediatrics 120; e1285-e-1298. Available at: http://
www.pediatrics.org/cgi/content/full/120/5/e1285
---------------------------------------------------------------------------
    Question 4. Does CDC suggest that blood lead levels below 
10 are acceptable?
    Response. No, CDC does not in fact suggest that blood lead 
levels below 10 ug/dL are ``acceptable'' or ``normal.'' In 
fact, CDC recommends that clinicians and others take specific 
actions when blood lead levels are below 10 ug/dL.\3\ If such 
blood lead levels were in fact ``acceptable,'' CDC would not 
recommend specific interventions.
---------------------------------------------------------------------------
    \3\Binns HJ, et al. 2007. Interpreting and Managing Blood Lead 
Levels Less Than 10 ug/dL in Children and Reducing Childhood Exposure 
to Lead. Pediatrics 120; e1285-e-1298. Available at: http://
www.pediatrics.org/cgi/content/full/120/5/e1285
---------------------------------------------------------------------------

         Response by David E. Jacobs to an Additional Question 
                           from Senator Boxer

    Question. Please describe whether you believe that EPA's 
lead paint renovation rulemaking makes adequate use of recent 
scientific studies that demonstrate risks to children's health 
from blood lead levels below 10 micrograms per decilter?
    Response. The EPA proposed regulation on renovation, 
repairs and painting estimated the large net benefits of such a 
regulation to children with blood lead levels both above and 
below 10 ug/dL using recent scientific studies, although the 
economic benefits estimated by EPA are likely to greatly 
underestimate the true benefits. The proposed regulation is not 
triggered by a child with a particular blood lead level, which 
I believe is the correct approach. Instead, the proposed 
regulation is properly triggered by certain events in housing 
that could disturb existing lead-based paint, regardless of 
blood lead level. But, EPA has not used available scientific 
studies in the proposed regulation that show certain paint 
removal methods, such as open flame burning and power sanding, 
must not be used; HUD has already banned these paint removal 
methods in federally assisted housing in 1999.\1\ EPA has also 
not used available scientific studies demonstrating that dust 
lead testing following cleanup, i.e., clearance testing, must 
be done to ensure the housing is safe at the conclusion of the 
work. Finally, EPA has not used the available scientific 
studies to modernize its lead dust standard, which of course is 
the subject of a separate, but related regulation. EPA should 
not establish a regulation based solely on a blood lead level 
of 10 ug/dL.
---------------------------------------------------------------------------
    \1\24 CFR Part 35.140

    Senator Boxer. That was very powerful testimony.
    Ms. Farrow.

  STATEMENT OF OLIVIA FARROW, ASSISTANT COMMISSIONER, CITY OF 
                 BALTIMORE DEPARTMENT OF HEALTH

    Ms. Farrow. Good morning, Madam Chairman, Ranking Member 
Inhofe and members of the Committee. On behalf of the Baltimore 
City Health Department, I would like to thank you for this 
opportunity to testify. My name is Olivia Farrow. I am the 
Assistant Commissioner for Environmental Health for the 
Baltimore City Health Department.
    The Centers for Disease Control State on their website that 
there is no threshold below which adverse effects are not 
experienced. There is no safe level for a child. As we have 
worked diligently to reduce the hazards associated with lead-
based paint exposure, the lead-containing consumer products are 
a growing concern nationwide and represent a major challenge 
for local jurisdictions. Following are our attempts at the 
local level to prevent poisoning from two consumer products.
    In response to the tragic event in Minneapolis in 2006, the 
Baltimore City Health Department began testing samples of 
children's jewelry sold within its jurisdiction. Our tests 
found excessive levels of lead in children's jewelry in 
Baltimore. The products were being sold in stores that operate 
throughout the Country, including Claire's and Wal-Mart. To 
respond under the authority of the Commissioner of Health, the 
Baltimore City Health Department proposed and then promulgated 
regulations on children's jewelry in December 2006. This city 
regulation requires that the Health Department collect monthly 
samples of children's jewelry and test for lead content.
    Since we have banned the children's jewelry at the level of 
600 parts per million, which went into effect September 1, 
2007, part of that regulation is that no product can contain an 
excessive amount of lead. A violation notice is issued if a 
jewelry product is found to have more than 600 parts per 
million. The notice declares all items of the same style and 
from the same manufacturer to be a nuisance and order the 
retailer to stop sale within 24 hours.
    The city began the mandatory monthly testing of children's 
jewelry in February of this year, and out of the 8 months we 
have tested, we have found excessive levels of lead in four of 
those months. Furthermore, the majority of the samples of 
jewelry that are found to be poisonous are ones that are sold 
for $1 or less.
    In March, 2007, three rings that were manufactured in India 
and sold for only 25 cents each in a city vending machine 
tested approximately 5 percent lead by weight. These rings were 
previously subject to a product recall in July, 2004 by the 
Consumer Product Safety Commission. In August, our Health 
Department discovered that a Spiderman ring, which I have here 
now, a Spiderman III ring which sold for $1 contained 128,000 
parts per million of lead by weight.
    Other products that present a potential and real hazard to 
children, in September 2006, we were notified by the Maryland 
Department of the Environment that two children under the age 
of two in different areas of the State had been lead-poisoned 
by a product known as kohl, which I have here today. Each child 
had a blood lead level greater than 20 micrograms per 
deciliter, and the family had purchased the product at a small 
Pakistani store in the city of Baltimore. Kohl, also known as 
surma, jajal or al-kahl, is a black powdered substance applied 
around the eyes of small children to improve health, according 
to its packaging. As translated from the package, it is 
``especially prepared for newborn children. This product at the 
store was tested and two samples revealed lead levels of 39 
percent and 45 percent lead by weight.
    To respond, under the authority of the Health Commissioner, 
the department identified the product as a health hazard and 
issued a notice and order prohibiting the sale of any cosmetic 
products containing Kohl within the city of Baltimore. We 
immediately contacted the Food and Drug Administration's 
Imports Operations Division. It resulted in an import bulletin 
being issued and an updated import alert for products coming 
from the identified vendors.
    Our experience in Baltimore City has proven that many of 
these imported products are not adequately regulated by the 
Federal Government. The failure of the CPSC product recall 
system exemplifies the Federal Government's failure to protect 
the public from imported good. As I previously stated, the CPSC 
recalled three rings in July, 2004 because of high lead 
content, yet almost 3 years later, Baltimore City finds that 
these rings are still available for sale to the public.
    In the case of the Kohl poisonings, the Food and Drug 
Administration issued an import alert for automatic detention 
for eye cosmetics containing Kohl back in 1996, yet the product 
continues to make it into the United States for retail sale.
    The Environmental Protection Agency also has a role in 
protecting the health of children with its authority to provide 
oversight of toxic substances, including lead, and a local 
jurisdiction's authority can only extend so far. Federal 
agencies need to aggressively take the lead in preventing the 
sale of these contaminated products, and current Federal 
regulations are obviously insufficient in protecting children 
from lead in imported products.
    [The prepared statement of Ms. Farrow follows:]

Statement of Olivia Farrow, Assistance Commissioner, City of Baltimore 
                          Department of Health

    Madame Chairman, Ranking Member Inhofe and members of the 
Committee, on behalf of the Baltimore City Health Department, I 
would like to thank you for this opportunity to testify on the 
risks to children from lead and mechanisms for addressing and 
preventing childhood lead exposure. My name is Olivia Farrow 
and I am the AssistantCommissioner of the Environmental Health 
Division of the Baltimore City Health Department.
    Lead poisoning is the most common environmental hazard 
facing American children today. It is also one of the most 
preventable. Children are frequently exposed to lead by 
ingesting lead dust from deteriorating lead-based paint. 
Exposure may also come from soil that contains lead, drinking 
water or lead-tainted consumer products such as food, jewelry 
and even cosmetics. The Centers for Disease Control states on 
their website that there is no ``threshold below which adverse 
effects are not experienced.'' There is no safe lead level for 
a child.
    As we have worked diligently to reduce the hazards 
associated with lead-based paint exposure, the lead-containing 
consumer products are a growing concern nationwide and 
represent a major challenge for local jurisdictions. Following 
are our attempts at the local level to prevent poisonings from 
two consumer products.
    On March 23, 2006, a 4-year-old child in Minneapolis died 
from lead intoxication after swallowing a piece of children's 
jewelry that was sold with a new pair of shoes. In response to 
this tragic event, the Baltimore City Health Department began 
testing samples of children's jewelry sold within its 
jurisdiction. Our tests found excessive levels of lead in 
children's jewelry in Baltimore. The products were being sold 
in stores that operate throughout the country, including 
Claire's and Wal-Mart (Attached are the lab results).
    To respond, under the authority of the Commissioner of 
Health, the Baltimore City Health Department proposed and then 
promulgated regulations on children's jewelry on December 7, 
2006. (Attached is the final regulation).
    The City regulation requires that the Health Department 
collect monthly samples of children's jewelry and test for lead 
content. In order to give City retailers an opportunity to come 
into compliance, the regulation initially banned children's 
jewelry containing more than 1200 parts per million. Effective 
September 1, 2007, we further reduced the
    acceptable level of lead, banning all children's jewelry 
with metal components containing in excess of 600 parts per 
million of total lead. Once a product is found to contain an 
excessive amount of lead, a violation notice is issued. The 
notice declares all items of the same style and from the same 
manufacturer to be a nuisance and orders the retailer to stop 
sale within twenty-four hours. An owner can be charged with 
multiple misdemeanor offenses and fined should he or she fail 
to comply with the notice.
    The City began the mandatory monthly testing of children's 
jewelry in February of this year. Out of the 8 months we have 
tested, we have found excessive lead levels in four of those 
months. Our testing has revealed that the majority of the 
products found with excessive levels of lead are sold in 
discount stores that cater to a lower-income clientele. 
Furthermore, the majority of the samples of jewelry that are 
found to be poisonous are ones that are sold for a dollar or 
less.
    For an example, in March 2007, three rings that were 
manufactured in India and sold for only 25 cents each in a City 
vending machine operated by Cardinal Novelty tested 
approximately 5 percent lead by weight. These rings were 
previously subject to a product recall in July 2004 by the 
Consumer Product Safety Commission (CPSC).
    In August, our Health Department discovered that a 
Spiderman 3 ring, which sold for one dollar, contained 12.8 
percent lead by weight. This ring was sold at a Dollar Tree and 
was imported from China.
    Turning to other products that present a potential and real 
hazard to children, in September of 2006, we were notified by 
our State Department of the Environment that two children, 
under the age of two, in different areas of the State had been 
lead poisoned by a product known as Kohl. Each child had a 
blood lead level of 20 ?g/dl or higher. One family purchased 
the product at a small Pakistani grocery store in Baltimore 
City.
    Kohl, also known as Surma, Kajal or Al-Kahl, is a black 
powdered substance applied around the eyes of small children to 
improve health, according to its packaging. As translated from 
the package it is ``especially prepared for new-born children. 
. . ''
    The product at the store was tested and the two samples 
revealed lead levels of 39 percent and 45 percent lead by 
weight. The limit for lead paint is 0.06 percent lead by 
weight. To respond, under the authority of the Commissioner of 
Health, the Baltimore City Health Department immediately 
identified the product as a health hazard and issued a Notice 
and
    Order to Remove Health Nuisance, prohibiting the sale of 
any cosmetic products containing Kohl within the city of 
Baltimore. We immediately contacted the Food and Drug 
Administration's Imports Operations Division. FDA conducted its 
own investigation tracing the product back to the importer and 
manufacturer resulting in Import Bulletin being issued and an 
updated Import Alert for products coming from the identified 
vendors. Our experience in Baltimore City has proven that many 
of these imported products are not adequately regulated by the 
Federal Government. The failure of the CPSC product recall 
system exemplifies the Federal Government's failure to protect 
the public from imported goods.
    As I previously stated, the CPSC recalled three rings in 
July 2004 because of high lead content. Yet, almost 3 years 
later, Baltimore City finds that these rings are still 
available for sale to the public. Cardinal Novelty would have 
been free to continue to redistribute this poisonous product 
had Baltimore City not enacted its regulations.
    In the case of the Kohl poisonings, the Food and Drug 
Administration issued an Import Alert for automatic detention 
for eye cosmetics containing Kohl back in 1996, yet the product 
continues to make it into the United States for retail sale.
    The Environmental Protection Agency also has a role in 
protecting the health of children with its authority to provide 
oversight of toxic substances, including lead.
    A local jurisdiction's authority can only extend so far. 
Federal agencies need to aggressively take the lead in 
preventing the sale of these contaminated products. Current 
Federal regulations are obviously insufficient in protecting 
children from lead in imported products.
    I would like to conclude by stating that this country has 
made tremendous progress in the fight to eliminate childhood 
lead poisoning. But even one child poisoned is one child too 
many. Stricter Federal regulation on products for children is 
urgently needed.
    On behalf of Baltimore City's Health Department and Mayor 
Sheila Dixon, I thank you for the opportunity to offer comments 
today.
[GRAPHIC] [TIFF OMITTED] 73577.108

[GRAPHIC] [TIFF OMITTED] 73577.109

[GRAPHIC] [TIFF OMITTED] 73577.110

[GRAPHIC] [TIFF OMITTED] 73577.111

[GRAPHIC] [TIFF OMITTED] 73577.112

[GRAPHIC] [TIFF OMITTED] 73577.113

[GRAPHIC] [TIFF OMITTED] 73577.114

[GRAPHIC] [TIFF OMITTED] 73577.115

[GRAPHIC] [TIFF OMITTED] 73577.116

[GRAPHIC] [TIFF OMITTED] 73577.117

[GRAPHIC] [TIFF OMITTED] 73577.118

[GRAPHIC] [TIFF OMITTED] 73577.119

[GRAPHIC] [TIFF OMITTED] 73577.120

[GRAPHIC] [TIFF OMITTED] 73577.121

[GRAPHIC] [TIFF OMITTED] 73577.122

[GRAPHIC] [TIFF OMITTED] 73577.123

[GRAPHIC] [TIFF OMITTED] 73577.124

[GRAPHIC] [TIFF OMITTED] 73577.125

[GRAPHIC] [TIFF OMITTED] 73577.126

[GRAPHIC] [TIFF OMITTED] 73577.127

[GRAPHIC] [TIFF OMITTED] 73577.129

[GRAPHIC] [TIFF OMITTED] 73577.130

[GRAPHIC] [TIFF OMITTED] 73577.131

[GRAPHIC] [TIFF OMITTED] 73577.132

[GRAPHIC] [TIFF OMITTED] 73577.133

[GRAPHIC] [TIFF OMITTED] 73577.134

[GRAPHIC] [TIFF OMITTED] 73577.135

[GRAPHIC] [TIFF OMITTED] 73577.136

[GRAPHIC] [TIFF OMITTED] 73577.137

[GRAPHIC] [TIFF OMITTED] 73577.138

[GRAPHIC] [TIFF OMITTED] 73577.139

[GRAPHIC] [TIFF OMITTED] 73577.140

[GRAPHIC] [TIFF OMITTED] 73577.141

          Response by Olivia Farrow to an Additional Question 
                          from Senator Inhofe

    Question. In your testimony, you cited the terrible cases 
where two children were poisoned when their family purchased a 
product at a Pakistani grocery store that in some cultures was 
used to improve the health of babies. CDC has identified these 
types of cultural products as a real problem. How do we address 
the lead content of these products while still being respectful 
of the cultural practices of people who come to live in this 
country?
    Response. When a product is found to contain high levels of 
lead, the only solution is to inform the public and have the 
product pulled from sale. Certain products are used for certain 
cultural practices. However, we find that parents, regardless 
of cultural background, have the best intention for their 
children. Thus, once they are informed of the health dangers of 
a product, they voluntarily stop using the product. No parent 
wants to endanger the health and safety of his or her child.
                                ------                                


           Response by Olivia Farrow to Additional Questions 
                           from Senator Boxer

    Question 1. How important is it to city health departments, 
like the one that you work for, that Federal agencies ? 
including EPA ? take stronger actions to stop the use of lead 
in consumer products, such as toy jewelry?
    Response. It is extremely important that Federal agencies 
take stronger action to stop the use of lead in consumer 
products. At this time, local health departments, such as 
Baltimore City, are only reacting to this health threat. Being 
reactive can only protect consumers to a certain extent. 
Baltimore City's monthly random testing has fortunately stopped 
sales of some lead contaminated products. It does not, however, 
prevent all contaminated products from being sold to the 
public. In order to proactively address the issue of lead in 
consumer products, Federal action needs to be taken.
    Relying on local or State jurisdictions to enact laws and 
regulations will result in a patchwork of regulatory oversight 
that fails to protect children nationwide. Manufacturers would 
also support a uniform regulatory guideline that would enable 
them to create a product that meets one standard.
    Only the Federal Government has the resources and authority 
to stop contaminated products from entering the United States 
or ensuring that manufacturers follow standards across the 
country.
    Question 2. Would stronger Federal efforts to collect 
information on consumer products that contain dangerous levels 
of lead help local officials' efforts to protect their 
citizens? If so, please explain.
    Response. More Federal action is needed in order for local 
efforts to be more effective. Because products are distributed 
nationally and are available to the public in multiple states, 
it is necessary for Federal agencies to collect information on 
those products that pose a risk immediately and notify all 
affected states and locales. At this time, Baltimore City is 
primarily relying on its monthly jewelry testing to find 
products that endanger the public. We hope that we are able to 
find all products with excessive lead levels. Realistically 
though, we realize our resources are limited and there may be 
lead products on store shelves that we have not tested.

    Senator Boxer. I think you are just terrific in that. I am 
going to stop you right there because of time concerns.
    Ms. Farrow, I just want to say, it is funny to me. I am 
taken aback. I can't speak for anybody else, that this burden 
has fallen on the city. One of the problems is we have the 
Government witnesses leave after they speak. With all of the 
staff we have at the EPA, with all of the power they have given 
the laws of the land, that you are now telling us that you have 
to protect the kids, when the Consumer Product Safety 
Commission acted and these goods are still on the shelves.
    Senator Inhofe.
    Senator Inhofe. I really have to. I am sorry I had to leave 
9 minutes ago.
    Senator Boxer. That is OK.
    Senator Inhofe. So there won't be time for me to----
    Senator Boxer. Go ahead. You take my time. It is fine.
    Senator Inhofe. All right.
    Well, let me just not ask you to respond to any of the 
questions, but maybe for the record you can respond. There are 
some things that I think would be interesting. One would be, 
well let's see.
    Dr. Jacobs, there is a statement by the CDC that said, 
``Efforts to identify and provide services to children with 
blood lead levels less than 10 micrograms per deciliter may 
deflect needed resources from children with higher blood levels 
who are likely to benefit most from individualized 
intervention.'' I guess what I would like to know, and this 
would be fine to do for the record, do you agree with the 
statement? And then, should we focus or should we not focus our 
resources on those kids with the greatest risk? That would be 
one.
    Then I wanted to, one of the concerns I have, Mr. Nagel, is 
because I am very familiar with your--I used to do what your 
people are doing. I worry a little bit about creating a 
disincentive for people to have renovations done and end up 
doing them themselves, which most likely in most cases is going 
to end up with a higher lead level. This is a concern that I 
have, and I am not sure how to address this. I think you 
probably have given some thought to it, and I would like to get 
your thoughts.
    Then also, what would be the likelihood, if we have a rule 
that comes out that would be very difficult to deal with, that 
remodelers would just quit remodeling some of these homes? I 
happen to be living in one of the oldest areas of Tulsa, and 
frankly I have been guilty of a lot of this myself. But if you 
just thought, well, the risk is too great, or perhaps you would 
end up being responsible for something you had no control over, 
just not taking those jobs, and therefore you are going to keep 
older houses in a State of continual deterioration, where there 
would be greater risk.
    Maybe just on that last question you could just make a 
comment, Mr. Nagel, and then I will have to leave, Madam 
Chairman.
    Mr. Nagel. Absolutely. Working as a professional remodeler 
who has been trained in lead-safe work practices, working in a 
pre-1978 house that is known to contain lead creates many 
issues for us. Certainly, the least of which is a legal issue 
for us because it puts us in a litigative State that we area 
acknowledging the existence of lead in that house.
    We are not abatement contractors. We are not required to be 
kept at the standard that abatement contractors are kept at. 
Having some form of clearance testing at the end of the 
project, which basically only proves the existence of lead in 
the house is putting us at risk from a litigation standpoint.
    We also have the issue in some States, as in my State of 
Illinois, where if I know there is lead in a house, I legally 
am not allowed, as a non-abatement contractor, I am not allowed 
to renovate that house without somebody coming in and abating 
it beforehand.
    We also have the issue of insurance. Current insurance in 
our area where workman's comp and liability issues does not 
cover. In fact, it specifically excludes hazardous waste, and 
outside contractors working in a hazardous waste situation. So 
as a professional remodeler who has been in the business for 22 
years, if I know the house has lead in it, I will not work in 
that house because it puts me at too much risk. It puts my 
business and my family at risk.
    Senator Inhofe. Yes. I understand. I thought that should be 
in the record. With that, I will have to leave.
    Maybe for the record, Ms. Farrow, one of the things that 
concerns me, and I think it concerns you, too, is if you are 
dealing--we are talking about the Pakistani things that are 
originating there--you are dealing with a culture, and you are 
dealing with a cultural problem. I would like to have you 
perhaps for the record let me know your thoughts on that. That 
could be a problem.
    Madam Chairman, I want to appreciate you for holding this 
hearing. You guys don't know this, this is one of the few 
hearings where we are almost in total agreement with each 
other.
    [Laughter.]
    Senator Inhofe. So thank you very much.
    Senator Boxer. Well, I am just speechless at that, Senator. 
Look, we are grandparents. We care about our kids.
    Senator Inhofe. Right.
    Senator Boxer. Let me just say, this has been a very 
illuminating hearing for me in many, many ways. I want to get 
back to Ms. Farrow. I want to understand exactly--you say you 
do monthly testing. Do you say that in the law in the city of 
Baltimore in order to sell retail, they have to do the testing? 
Or do you come in and just test?
    Ms. Farrow. No. Actually, we come in and test, and we just 
pick a few retail shops throughout the city randomly. We are 
not doing a lot of testing, just two or three stores each 
month. We just take four or five items just randomly. So it is 
the Health Department that is actually conducting the testing.
    Senator Boxer. And then you put out an alert to all stores, 
if you have this, they have to get rid of it?
    Ms. Farrow. Exactly. We issue a violation notice to the 
particular store that was selling the product. We issue a press 
advisory so that everyone in the city is aware in the event 
that someone has already purchased the product, and then we 
notify the CPSC also.
    Senator Boxer. OK. If the retailer continues to sell the 
product, are they subject to fines?
    Ms. Farrow. Yes. They are subject to misdemeanor fines if 
found guilty.
    Senator Boxer. And you are saying that you found products 
that had been recalled that are still out there?
    Ms. Farrow. Right. Three rings in a vending machine, they 
had been recalled by the CPSC in 2004, and I can't speak for 
what happened in 2004.
    Senator Boxer. And you reported that to the CPSC?
    Ms. Farrow. Right. We reported it to the CPSC, as we do 
whenever we find positives. In March, we reported that to CPSC. 
A couple of months later, CPSC actually issued a re-recall of 
those rings because of our sampling. They realized that this 
product was back on the market.
    Senator Boxer. I guess the question I have, the issue of 
recall and the product continues to come in, and people 
continue to sell it, they ought to be--would you agree that 
there ought to be some punishment out there for people who 
continue to import a product that has been banned? It just 
seems to me, it just sounds like these recalls are not working 
as they are supposed to work.
    Ms. Farrow. Meaningless, yes.
    Senator Boxer. Well, I just can't get over the fact that we 
have to have this enforcement at the city level. I just admire 
what you are doing, because here is the thing. You could see 
from the EPA, they are not that interested in getting involved 
in toy safety. They have to be pushed by Sierra Club to do the 
minimal amount of work, and they haven't even done that. They 
are taking so long to do this rule on remodeling. So we have 
the EPA just trying to bow out of this, and everybody is taking 
credit for the lead in paint, which is a wonderful 
accomplishment, but as my staff counsel pointed out to me, if 
you are a child and you put one of these toys in your mouth, it 
doesn't matter that the lead is out of the paint. This is 
pretty much death, sickness, retardation and the rest.
    So what you are doing in stepping in here is really 
commendable. Do you know of other cities that are doing this as 
well?
    Ms. Farrow. No. We are trying to follow the model of 
California and I believe there is some work going on in 
Illinois. But as far as a local jurisdiction, I can't say right 
offhand.
    Senator Boxer. OK.
    Mr. Neltner, in response to my questioning of Mr. Gulliford 
about how he is responding to the settlement of those lawsuits, 
you said that you were surprised that they were going to 
slowly. I think I would just say to my staff, I mean I guess I 
would like to ask you since you are the attorney who was 
involved in this. Are you the attorney?
    Mr. Neltner. Yes, I am.
    Senator Boxer. Your expectation was that they would be 
taking action much quicker on these imported toys?
    Mr. Neltner. Right, that the rule would have been effective 
in June 2008. It sounds like much longer than that now. They 
are talking a year from whenever they issue this rule, and they 
didn't firmly commit to a deadline to issue the rule.
    Senator Boxer. Would you think that that is a violation of 
the settlement agreement, if that is the case?
    Mr. Neltner. Perhaps.
    Senator Boxer. Well, this is what I want to do. I am going 
to write a letter today and ask for immediate response, and ask 
them how the timetable they laid out meets the settlement.
    Mr. Neltner. It also seems inconsistent with the Toxic 
Substances Control Act, because they received a recommendation 
from the Interagency Testing Committee in June to issue this 
rule to implement the recommendations. They have no industry 
opposition. The industry said, fine, just do what you promised, 
and there has been no opposition. So I don't understand why it 
would take so long to do a simple rule on this one--because of 
the way TSCA allows them to act more quickly. It is interesting 
that it seems to be taking a long time.
    Senator Boxer. OK. I have another question. That one we 
will work on together. If you could give me your top three 
recommendations on how EPA could use its authorities under TSCA 
that so far it is refusing to do. Because my sense is, they 
keep saying, we can't do this under TSCA, and we have a 
different view. I wonder what you believe TSCA allows them to 
do, without any change in law.
    Mr. Neltner. Well, obviously issue the renovation, repair 
and painting rule in a manner that allows consumers to be able 
to take steps to protect themselves. Second issue quality 
control orders to any company that has a recall. If a company 
has had a recall, they have obviously had a quality control 
problem. Issue an order, get those quality control procedures, 
find out the factories--also under TSCA 8(e) they should be 
submitting these notices--find out those factories that have a 
problem and then begin to work on those factories and work with 
the Consumer Product Safety Commission.
    In many ways, because of the failure of EPA, the Consumer 
Product Safety Commission and EPA have been working blind. When 
you have facts, you make better decisions. They have been 
reluctant to get those facts.
    Senator Boxer. So you are saying under TSCA, without any 
change in law, they could issue quality control orders to 
companies who have been subjected to having their products 
recalled.
    Mr. Neltner. Correct. Their response in the negotiations 
was, you can't force us to issue an order because it was a 
glitch in the way the law was written for citizen petitions. 
You can only force us to issue a rule, but you can't make this 
issue a rule until we first issue an order. A little 
complicated, but the bottom line is they have the authority and 
they could do it very quickly, much quicker than the Consumer 
Product Safety Commission.
    Senator Boxer. Have they ever issued a quality control 
order to a company that has been the subject of a recall?
    Mr. Neltner. No.
    Senator Boxer. OK. And if they were sitting here now say 
they can't do it?
    Mr. Neltner. That seems to be my impression. I would sure 
like to figure that out. I can't figure out why they don't feel 
they have the authority. If it means deference to the Consumer 
Product Safety Commission, we also asked them to formally ask 
Consumer Product Safety Commission for that go-ahead, and they 
refused to do that by saying, the Sierra Club can't force EPA 
to issue a Section 9 report to CPSC.
    Senator Boxer. OK. So in your opinion, they could go ahead 
and do that.
    OK, what else could they do?
    Mr. Neltner. Well, because they issued one of those letters 
to the 120 companies about Section 8(e) notices, reminding them 
of their responsibilities, it became clear to us that EPA 
wasn't going to act when the companies weren't submitting these 
notices. So we ended up filing a notice of intent to sue 
against 11 companies, including Mattel, saying, you have had 
repeat recalls; you need to follow the law; you need to submit 
the TSCA 8(e) notices.
    We would like to see EPA enforce the law instead of having 
to rely on citizens groups to do it. The citizen groups are 
prepared to sue Oriental Trading Company and Mattel because EPA 
won't. When EPA goes out to companies with this 8(e) reminder, 
they could also remind them of their new responsibilities under 
this 8(d) rule. EPA could include the names of the factories 
that have been producing the lead-contaminated products in 
China. They have that ability to get that information from the 
companies. It is very hard for CPSC to get that.
    Senator Boxer. Yes.
    Mr. Neltner. Get that information on the factories, and 
then let all the other importers know that if you use these 
factories, you should check your products. Right now, we have a 
catch--as-catch-can system where local health departments, as 
you correctly pointed out, are using their very limited 
resources, resources that should be focused on housing, to do 
what the Federal Government is unwilling to do.
    If they would have done that, if they would have 
systematically gone to importers to check their other products, 
then we would be able to start fixing the system and 
proactively get ahead of the curve.
    Senator Boxer. It just seems to me that so much of the 
problem is from these imported products. I don't know why we 
can't easily have testing done. First ask the companies in 
America to sign a statement that they know there is quality 
control. But I guess if there is a quality control order, it 
would be issued on a company like Mattel, for example?
    Mr. Neltner. Right.
    Senator Boxer. And then Mattel would have to--see if I am 
right on this--then if they had a quality control order, Mattel 
would have to go over to these factories and do the testing, 
and they would be held liable if the products came in with 
lead.
    Mr. Neltner. Well, three points. One is the order would 
only ask them to submit their procedures so EPA could identify 
the shortcomings and adopt a rule to order that testing, to 
require them to do more.
    But you asked, why haven't the companies have not done the 
testing. The Consumer Product Safety Commission has been behind 
the curve when it comes to the technology needed to test the 
products. In large measure, you can test in a nondestructive 
way using an XRF device. You can check products very quickly. 
That is how we check these products here with a Niton XRF. You 
can quickly check them.
    What I understand now is that instead of relying on CPSC's 
standard test, companies are going ahead and using the new 
technology, checking lots more products, and that is part of 
the reason we are getting so many recalls.
    So CPSC is just behind the technology curve, and that is 
another area where EPA could have provided some support to 
Consumer Product Safety Commission because EPA knew all about 
these XRFs and their ability to quickly determine the lead 
content.
    Senator Boxer. OK. I would greatly appreciate it if any of 
the witnesses here today, because you are all so knowledgeable 
on this, could send to the Committee, Senators Inhofe and 
myself, your recommendations for what EPA could be doing right 
now without any change in the law. Because I think there is a 
reticence on their part. They are focused on the paint, which 
of course is super critical. But even there, they are slow on 
the home remodeling rule.
    But it seems to me they have a great statement on their 
website which says the following. One of their biggest goals 
is, it says, ``to make significant progress toward our goal of 
virtually eliminating childhood lead poisoning as a public 
health threat by advancing meaningful reductions in blood lead 
levels for children at risk through a comprehensive program of 
new regulations, technical assistance, education, outreach, and 
community assistance.''
    Those are nice words, but I don't get it from the EPA 
witness today that that is what we are seeing here at all. I 
see a great reticence, a slow-down, taking credit for past 
efforts. Wonderful. They have been good, but we need to do more 
because, again, even if the homes are 100 percent clean, if a 
kid puts something in his mouth, it is going to undo it all.
    Mr. Jacobs, you showed us the beautiful colors of paints 
that are in these foreign countries that have astronomical 
levels of lead. Are the people there unaware of the problem, 
No. 1? And No. 2, how do you think they could make their way 
in? You said they are going to make their way onto our shores. 
Under our current laws, could they make their way onto our 
shores?
    Mr. Jacobs. It would be illegal, of course, because it 
would violate the existing Consumer Product Safety Commission, 
but so were a number of these other products that have already 
crossed our borders.
    Senator Boxer. Right.
    Mr. Jacobs. These are children's products as well.
    To borrow a lesson from the lead paint experience, one of 
the things that often happens is agencies will point to each 
other and say, this is not our job; this is CPSC's or EPA's 
job.
    Senator Boxer. Yes.
    Mr. Jacobs. Lead disclosure for properties was sort of like 
that; it was not entirely clear which agency should required 
owners to disclose information on lead paint hazards. The 
solution was pretty straightforward: Congress required that HUD 
and EPA pass a joint regulation. It is a little unwieldy, but 
it works. Agencies don't like it, but it can be done and it is 
quite effective, and you don't get the finger-pointing that 
way. There is no reason that CPSC and EPA can't coordinate 
their activities to take steps that are necessary through joint 
regulation.
    Senator Boxer. Right.
    Mr. Jacobs. I suspectg many people in these other countries 
are not aware of this problem. There are a few researchers in 
India, Nigeria and other countries that working to make this 
known and to have their governments take action. I have left 
out one important element here, and that is it is the same 
companies, some of them may have affiliations to U.S. paint 
companies, who are manufacturing these paints with high amounts 
of lead. Singapore actually has an effective regulation. The 
same company will manufacture these products and comply with 
the much lower Singapore standards. This green paint sample is 
from Singapore, and it only had 300 parts per million. And yet 
the same color paint, made by the same company in China, has a 
lead content of hundreds of thousands parts per million.
    So the technology is there to make paint with low levels of 
lead. This is a matter of making sure that there are global 
restrictions on the production of lead in paint. Back in the 
late 1980's, there was an effort by the United Nations 
Environment Program, UNEP, to globally ban all non-essential 
uses of lead. Senator Inhofe was correct. There are some 
essential uses of lead. They can be managed. We need to take 
steps to make sure that happens.
    But it is time to refocus our attention on a global ban of 
nonessential uses of lead. We have been down this road too many 
times. There is no reason to repeat it again.
    Senator Boxer. I really do agree.
    Anybody else have anything to add for the record before we 
adjourn? Yes, sir, Doctor.
    Dr. Lanphear. I would just like to add, just so we are 
realistic moving into this. If you look at the dramatic 
declines in blood lead levels that we have seen, we have to 
realize that that too happened under great duress and great 
resistance. In fact, for the air lead standard, EPA didn't take 
action until they were sued by NRDC.
    So to be realistic, they need this kind of pressure. That 
is part of our job, but they really need it to protect kids.
    Senator Boxer. Yes. Well, I couldn't agree with you more.
    I just want to say to the whole panel, thank you so much. 
It has just been a really good hearing. I am glad the votes on 
the floor cooperated with us at the end.
    We do stand adjourned.
    [GRAPHIC] [TIFF OMITTED] 73577.001
    
    [GRAPHIC] [TIFF OMITTED] 73577.002
    
    [GRAPHIC] [TIFF OMITTED] 73577.003
    
    [GRAPHIC] [TIFF OMITTED] 73577.004
    
    [GRAPHIC] [TIFF OMITTED] 73577.005
    
    [GRAPHIC] [TIFF OMITTED] 73577.006
    
    [GRAPHIC] [TIFF OMITTED] 73577.007
    
    [GRAPHIC] [TIFF OMITTED] 73577.008
    
    [GRAPHIC] [TIFF OMITTED] 73577.009
    
    [GRAPHIC] [TIFF OMITTED] 73577.010
    
    [GRAPHIC] [TIFF OMITTED] 73577.011
    
    [GRAPHIC] [TIFF OMITTED] 73577.012
    
    [GRAPHIC] [TIFF OMITTED] 73577.013
    
    [GRAPHIC] [TIFF OMITTED] 73577.014
    
    [GRAPHIC] [TIFF OMITTED] 73577.015
    
    [GRAPHIC] [TIFF OMITTED] 73577.016
    
    [GRAPHIC] [TIFF OMITTED] 73577.017
    
    [GRAPHIC] [TIFF OMITTED] 73577.018
    
    [GRAPHIC] [TIFF OMITTED] 73577.019
    
    [GRAPHIC] [TIFF OMITTED] 73577.020
    
    [GRAPHIC] [TIFF OMITTED] 73577.021
    
    [GRAPHIC] [TIFF OMITTED] 73577.022
    
    [GRAPHIC] [TIFF OMITTED] 73577.023
    
    [GRAPHIC] [TIFF OMITTED] 73577.024
    
    [GRAPHIC] [TIFF OMITTED] 73577.025
    
    [GRAPHIC] [TIFF OMITTED] 73577.026
    
    [GRAPHIC] [TIFF OMITTED] 73577.027
    
    [GRAPHIC] [TIFF OMITTED] 73577.028
    
    [GRAPHIC] [TIFF OMITTED] 73577.029
    
    [GRAPHIC] [TIFF OMITTED] 73577.030
    
    [GRAPHIC] [TIFF OMITTED] 73577.031
    
    [GRAPHIC] [TIFF OMITTED] 73577.032
    
    [GRAPHIC] [TIFF OMITTED] 73577.033
    
    [GRAPHIC] [TIFF OMITTED] 73577.034
    
    [GRAPHIC] [TIFF OMITTED] 73577.035
    
    [GRAPHIC] [TIFF OMITTED] 73577.036
    
    [GRAPHIC] [TIFF OMITTED] 73577.087
    
    [GRAPHIC] [TIFF OMITTED] 73577.088
    
    [GRAPHIC] [TIFF OMITTED] 73577.089
    
    [GRAPHIC] [TIFF OMITTED] 73577.090
    
    [GRAPHIC] [TIFF OMITTED] 73577.037
    
    [GRAPHIC] [TIFF OMITTED] 73577.038
    
    [GRAPHIC] [TIFF OMITTED] 73577.039
    
    [GRAPHIC] [TIFF OMITTED] 73577.040
    
    [GRAPHIC] [TIFF OMITTED] 73577.041
    
    [GRAPHIC] [TIFF OMITTED] 73577.042
    
    [GRAPHIC] [TIFF OMITTED] 73577.043
    
    [GRAPHIC] [TIFF OMITTED] 73577.044
    
    [GRAPHIC] [TIFF OMITTED] 73577.045
    
    [GRAPHIC] [TIFF OMITTED] 73577.046
    
    [GRAPHIC] [TIFF OMITTED] 73577.047
    
    [GRAPHIC] [TIFF OMITTED] 73577.048
    
    [GRAPHIC] [TIFF OMITTED] 73577.049
    
    [GRAPHIC] [TIFF OMITTED] 73577.050
    
    [GRAPHIC] [TIFF OMITTED] 73577.051
    
    [GRAPHIC] [TIFF OMITTED] 73577.060
    
    [GRAPHIC] [TIFF OMITTED] 73577.061
    
    [GRAPHIC] [TIFF OMITTED] 73577.062
    
    [GRAPHIC] [TIFF OMITTED] 73577.063
    
    [GRAPHIC] [TIFF OMITTED] 73577.064
    
    [GRAPHIC] [TIFF OMITTED] 73577.065
    
    [GRAPHIC] [TIFF OMITTED] 73577.066
    
    [GRAPHIC] [TIFF OMITTED] 73577.067
    
    [GRAPHIC] [TIFF OMITTED] 73577.068
    
    [GRAPHIC] [TIFF OMITTED] 73577.074
    
    [GRAPHIC] [TIFF OMITTED] 73577.075
    
    [GRAPHIC] [TIFF OMITTED] 73577.076
    
    [GRAPHIC] [TIFF OMITTED] 73577.077
    
    [GRAPHIC] [TIFF OMITTED] 73577.078
    
    [GRAPHIC] [TIFF OMITTED] 73577.079
    
    [GRAPHIC] [TIFF OMITTED] 73577.080
    
    [GRAPHIC] [TIFF OMITTED] 73577.081
    
    [GRAPHIC] [TIFF OMITTED] 73577.082
    
    [GRAPHIC] [TIFF OMITTED] 73577.083
    
    [GRAPHIC] [TIFF OMITTED] 73577.084
    
    [GRAPHIC] [TIFF OMITTED] 73577.085
    
    [GRAPHIC] [TIFF OMITTED] 73577.086
    
    [GRAPHIC] [TIFF OMITTED] 73577.091
    
    [GRAPHIC] [TIFF OMITTED] 73577.092
    
    [GRAPHIC] [TIFF OMITTED] 73577.093
    
    [GRAPHIC] [TIFF OMITTED] 73577.159
    
    [GRAPHIC] [TIFF OMITTED] 73577.160
    
    [GRAPHIC] [TIFF OMITTED] 73577.161
    
    [GRAPHIC] [TIFF OMITTED] 73577.162
    
    [GRAPHIC] [TIFF OMITTED] 73577.163
    
    [GRAPHIC] [TIFF OMITTED] 73577.164
    
    [GRAPHIC] [TIFF OMITTED] 73577.165
    
    [GRAPHIC] [TIFF OMITTED] 73577.166
    
    [GRAPHIC] [TIFF OMITTED] 73577.167
    
    [GRAPHIC] [TIFF OMITTED] 73577.168
    
    [GRAPHIC] [TIFF OMITTED] 73577.169
    
    [GRAPHIC] [TIFF OMITTED] 73577.170
    
    [GRAPHIC] [TIFF OMITTED] 73577.171
    
    [GRAPHIC] [TIFF OMITTED] 73577.172
    
    [GRAPHIC] [TIFF OMITTED] 73577.173
    
    [GRAPHIC] [TIFF OMITTED] 73577.174
    
    [GRAPHIC] [TIFF OMITTED] 73577.175
    
    [GRAPHIC] [TIFF OMITTED] 73577.176
    
  

                                  <all>

</pre></body></html>
